<html>
<title> - THE FUTURE OF NASA</title>
<body><pre>[Senate Hearing 108-1012]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 108-1012

                           THE FUTURE OF NASA

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 29, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-898 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 29, 2003.................................     1
Statement of Senator Brownback...................................    30
Statement of Senator Hollings....................................     3
    Prepared statement...........................................     3
    Article from The Atlantic Monthly, entitled ``Columbia's Last 
      Flight'' by William Langewiesche...........................     5
Statement of Senator McCain......................................     1
    Prepared statement...........................................     2
Statement of Senator Nelson......................................    30
Statemenf of Senator Sununu......................................    50

                               Witnesses

Gehman, Admiral Harold, USN (Ret.), Chairman, Columbia Accident 
  Investigation Board............................................    39
Huntress, Jr., Dr. Wesley T., Director, Geophysical Laboratory, 
  Carnegie Institution of Washington.............................    53
    Prepared statement...........................................    55
O'Keefe, Hon. Sean, Administrator, National Aeronautics and Space 
  Administration.................................................    30
    Prepared statement...........................................    33
Tumlinson, Rick, Founder, Space Frontier Foundation..............    84
    Prepared statement...........................................    86
Woods, David, Professor, Institute for Ergonomics, The Ohio State 
  University.....................................................    76
    Prepared statement...........................................    77
Zubrin, Dr. Robert, President, Mars Society......................    67
    Prepared statement...........................................    69
 
                           THE FUTURE OF NASA

                              ----------                              


                      WEDNESDAY, OCTOBER 29, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m., in 
room SR-253, Russell Senate Office Building, Hon. John McCain, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN McCAIN, 
                   U.S. SENATOR FROM ARIZONA

    The Chairman. Good morning. Since the late fifties, NASA 
has worked to make exploration possible through its innovative 
technology and cutting edge research and scientific 
discoveries. NASA achievements have stretched the imagination, 
from putting men on the moon to developing technology that has 
allowed unprecedented access to the inner solar system. 
Discoveries have touched the lives of the public in many ways 
people aren't aware of, such as improving communications 
capabilities, monitoring weather patterns and enhancing 
national security and defense.
    Although NASA has a history of notable achievements, it has 
also suffered heartbreaking failures, such as the tragic losses 
of the Challenger and Columbia. Since the grounding of the 
space shuttle after the Columbia accident, the construction of 
the international space station has come to a halt and NASA's 
capacity to conduct scientific research in space has been 
significantly diminished.
    The Columbia accident in February forced us to revisit our 
assumptions that the safety culture at NASA, which was found so 
wanting after the Challenger disaster, had been corrected. In 
addition to revealing the institutional problems still endemic 
at NASA, the Columbia accident has caused us to examine their 
causes. A fundamental cause of the institutional problems 
identified by the Columbia Accident Investigation Board was 
NASA's lack of a clear and defining mission.
    While we still feel the agony of defeat and of loss, 
where's the thrill of victory? The excitement that gripped 
China when it launched its first manned space vehicle a few 
weeks ago is missing in America. Do we want a space program 
that can once again capture and feed our imaginations? If we do 
want such a program, what does it entail and what are we 
willing and able to pay for it?
    I hope that today we can begin examining some of the 
questions, including the future of human space flight and the 
next generation of space transportation technologies. More 
pressing, however, are the immediate problems confronting NASA. 
In the past week, media reports regarding concerns about the 
safety of the international space station has raised new doubts 
about NASA's commitment to reform and its ability to conduct 
safe and cost-effective space exploration.
    While we examine what we want NASA to be and where we want 
mankind to go in the long-term, we also need to examine what 
NASA is doing in the shorter term. Some have questioned NASA's 
orbital space plane, OSP program. I share these concerns and am 
also concerned about NASA's use of limited competition for the 
OSP's development, which is estimated to cost over $15 billion.
    I welcome Administrator O'Keefe and Admiral Gehman on the 
first panel to discuss their thoughts on NASA's future 
missions, goals, and strategies, as well as issues NASA should 
consider as it looks toward the future. The committee 
recognizes that both witnesses have prior commitments and will 
work to ensure that they can depart the hearing no later than 
10:30, and that's why I would ask my colleagues to make their 
opening statements brief, and I want to thank both the 
Administrator and Admiral Gehman for appearing this morning. 
Senator Hollings?
    [The prepared statement of Senator McCain follows:]

                Prepared Statement of Hon. John McCain, 
                       U.S. Senator from Arizona
    Since the late 1950s, NASA has worked to make America a leader in 
aeronautics and space exploration through its innovative technology, 
cutting edge research, and scientific discoveries. NASA's achievements 
have stretched the imagination from putting men on the moon to 
developing technology that has allowed unprecedented access to the 
inner solar system. Its discoveries have touched the lives of the 
American public in ways many aren't even aware of, such as by improving 
communication capabilities, monitoring weather patterns, and enhancing 
national security and defense.
    Although NASA has a history of notable accomplishments, it has also 
suffered a number of disappointing, and at times, heart-breaking 
failures, such as the tragic losses of the Challenger and Columbia. 
Since the grounding of the Space Shuttle after the Columbia accident, 
the construction of the International Space Station has come to a halt, 
and NASA's capacity to conduct scientific research in space has been 
significantly diminished.
    The Columbia accident in February forced us to revisit our 
assumptions that the safety culture at NASA, which was found so wanting 
after the Challenger disaster, had been corrected. In addition to 
revealing the institutional problems still endemic at NASA, the 
Columbia accident has caused us to examine their causes. A fundamental 
cause of the institutional problems identified by the Gehman Board was 
NASA's lack of a defining mission.
    While we still feel the agony of defeat, and of loss, where is the 
thrill of victory? The excitement that gripped China when it launched 
its first manned space vehicle a couple of weeks ago is missing in 
America. Do we want a space program that can once again catalyze our 
interest and capture our imaginations? If we do want such a program, 
what does it entail, and are we willing and able to pay for it?
    I hope that today we can begin examining some of these questions, 
including the future of human space flight and the next generation of 
space transportation technology.
    More pressing, however, are the immediate problems confronting 
NASA. In the past week, media reports regarding concerns about the 
safety of the International Space Station have raised new concerns 
about NASA's commitment to reform and its ability to conduct safe and 
cost-effective space exploration.
    While we examine what we want NASA to be and where we want mankind 
to go in the long term, we also need to examine what NASA is doing in 
the shorter term. Some, including the House Science Committee, have 
expressed concerns about NASA's Orbital Space Plane (OSP) program, 
which is estimated to require an initial investment of $15 billion. 
However, in a letter to NASA last week, the House Science Committee 
described this budget plan for the OSP program as ``no longer 
credible.'' Putting aside the question of the merit of the OSP, in 
September, I sent a letter to NASA expressing my concerns about the 
limited competition that NASA has proposed for its development. I plan 
to discuss this and many other issues as well.
    I welcome Administrator O'Keefe and Admiral Gehman on the first 
panel to discuss their thoughts on NASA's future missions, goals, and 
strategies, as well as issues NASA should consider as it looks toward 
the future. The committee recognizes that both witnesses have prior 
commitments, and we will work to ensure that they can depart the 
hearing no later than 10:30 a.m.

             STATEMENT OF HON. ERNEST F. HOLLINGS, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Hollings. Thank you, Mr. Chairman. The Columbia 
Accident Investigation Board found, and I quote, ``The 
organizational causes of this accident are rooted in the space 
shuttle program's history and culture, including the lack of an 
agreed national vision for human space flight. The Board does 
believe that NASA and the Nation should give more attention to 
developing a new concept of operations for future activities, 
defining the range of activities the country intends to carry 
out in space that could provide more specificity than currently 
exists. Such a concept does not necessarily require full 
agreement on a future vision, but it should help identify the 
capabilities required and prevent the debate from focusing 
solely on the design of the next vehicle.''
    Admiral Gehman, I agree with that. I think that NASA needs 
the commission to institute a change of culture with respect to 
safety. To address this issue, I have introduced a commission 
bill, which gives the President the authority to appoint a top-
level commission. I'm looking forward to having your 
suggestions as to any changes or criticism you have regarding 
this approach.
    Mr. Chairman, there's a very interesting Atlantic Monthly 
article on the Space Shuttle Columbia disaster. I would ask 
consent that it be included in the record.
    The Chairman. I read the article. It's very interesting. 
Without objection. Thank you, sir.
    Senator Hollings. Thank you.
    [The prepared statement of Senator Hollings follows:]

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Today we will hear several grand visions of what the National 
Aeronautics and Space Administration can, and should, be. One of the 
highest tributes we can give the fallen heroes lost aboard the Columbia 
is to renew our commitment to space.
    The question is this: how do we get there from here? The Columbia 
Accident Investigation Board, chaired by Admiral Gehman, gave us a 
roadmap for putting Space Shuttle safety on a more sound footing. 
However, many in the space community--and some on your own Board have 
expressed doubts about NASA's ability to reform itself.
    Just last week, we learned from the Washington Post that two 
doctors had questioned the safety of sending the next mission to the 
Space Station. Instead of waiting until the agency could prove that the 
Station environment is safe, NASA launched saying ``the Astronauts can 
come home if the Station is not safe.'' While the doctor's concerns 
were aired and steps were taken to satisfy them, it doesn't seem to me 
NASA has learned the lessons that Admiral Gehman was trying to teach.
    All of this controversy contributes to a public cynicism about NASA 
and about space. There is no confidence in NASA's ability to execute 
its current program and no compelling plan for the agency's future that 
the American people can embrace. While NASA continues to stagger, China 
has sent its first astronaut into space.
    To solve these problems, I have proposed the creation of a National 
Space Commission. I have talked to the Administrator and the Vice 
President about my idea and have circulated the bill to members of this 
Committee.
    In short, my bill would provide oversight in the short term to 
ensure that NASA returns safely to flight and reforms its safety 
culture. The Commission would then develop a new vision for the future 
of space that includes NASA's exploration agenda but also brings a 
broader National space agenda into focus.
    Mr. Chairman, I hope that you and the other Members of the 
Committee can join me as a co-sponsor of the National Space Commission 
Act and that the Congress can act quickly on this legislation. The 
sooner we get started, the sooner we can move toward the next ``giant 
leap for mankind.''

    [The news article referred to follows:]

   The Atlantic Monthly, November, 2003--``Columbia's Last Flight''.
   
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
   
     The Chairman. Senator Brownback and Senator Nelson, I ask 
you to be brief because of the time constraints.

               STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. I will. Thank you for the hearing. I 
just want to make one note on it. I've had a number of meetings 
with Mr. O'Keefe and I appreciate it. I think you've done a 
good job. I think the issue of manned spaceflight now cries out 
for a national vision. Let us step back and fully address the 
questions surrounding the orbital space plane, and hold it up 
until we establish a national vision of where we want to go in 
manned space flight and how we're going to do it. That's what 
I'm going to be pressing for in a commission or by other means. 
Thank you, Mr. Chairman.
    The Chairman. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, this is an important hearing 
because it's on the future of NASA, which means it's on the 
future of the hopes and dreams of a lot of Americans that this 
be a successful program. As I have shared privately with the 
Administrator, the future of NASA is that the Administrator 
cannot be the only one that leads the program. The leadership's 
got to emanate from the White House. I've shared this privately 
with the Vice President. The Vice President or the President 
have to encapsulate the dreams of Americans by putting it in to 
the space program and giving that leadership.
    I would add that space flight can't be done on the cheap. 
We can't continue to go through what we've done over the past 
decade and a half. If we're going to have a space program, 
we're going to have to give the resources, and it's my hope 
that in my lifetime that we will see an international crew from 
planet Earth go to the planet Mars. That can be phased in over 
a 25-year period, but we've got to start the work now, we've 
got to start the planning, and that, of course, will captivate 
the imagination of the American people once we begin that 
venture. Thank you.
    The Chairman. Thank you very much. Senator Nelson refers to 
a meeting that we had with the Vice President and we were very 
gratified to see that he has taken a personal role in trying to 
help us sort out these priorities and funding for the future 
along with Administrator O'Keefe. I welcome both witnesses. Mr. 
O'Keefe, welcome, please proceed.

    STATEMENT OF HON. SEAN O'KEEFE, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Mr. O'Keefe. Thank you, Mr. Chairman. I appreciate the time 
and thank you very much for the invitation to speak on this 
very, very important question. If I would, sir, I'd like to 
submit for the record the prepared statement and quickly 
summarize a couple of points with a few charts I think all 
members have before you.
    First, the strategic plan that we developed, consistent 
with the President's budget proposal that was advanced on 
February 3, is a historic document in the sense that it is 
concise as it focuses on a very limited number of mission 
objectives that we're after, which I'll quickly touch on. 
Second, it is concise in the sense that it is readable, in 
sharp contrast to strategic plans which appear to more resemble 
Brookland telephone book-sized documents. This one is short, 
it's written in a language that most of us can comprehend, and 
it is put together in a way that concisely lays out what the 
vision and mission objectives are.
    And the principal mission objectives to fulfill that vision 
are to understand and protect the home planet. All the Earth 
sensing and climate change-related kind of research activities 
we have underway are examples of that, as well as our continued 
aeronautics focus in that direction. To explore the universe in 
search for life is a continued effort as manifested in so many 
different programs that we're exploring to expand our capacity, 
developing the capability to go beyond low Earth orbit and 
examine any destination that may in turn be informed by the 
scientific inquiry. We aim to inspire the next generation of 
explorers. This is an element of our history that at its 
founding was a focus on education and how it in turn can 
motivate individuals to consider at a very early age, in 
grammar school as well as in early high school, the objectives 
of math, science, engineering, and technical-related fields. 
That's our contribution to that and one that's been heightened 
and re-emphasized as a consequence of the focus of the 
strategic plan.
    The stepping-stone approach that can be taken to this is to 
look specifically at our immediate capacity within low Earth 
orbit as part of exploring the universe and searching for life 
to develop our own understanding of this planet, as well as our 
capacity to develop the capabilities to go beyond low Earth 
orbit. Then, looking beyond to accessible planetary services, 
the outer planets and beyond, is the technology we seek to 
develop to achieve those kinds of objectives. And then to be 
informed, again, by the science that may come forward in the 
years ahead as well as the exploration objectives we may be 
after for the purposes of accomplishing any of those 
destinations and opportunities for discovery.
    We've narrowed the strategic building block of investments 
that we're making down very specifically in this budget. This 
strategic plan to very clearly focus on three primary areas of 
need and have been intractable limitations that we've had for 
the entire time we've engaged in any space exploration 
endeavor. The primary areas power generation or propulsion 
capabilities, the capability of human beings to endure and 
survive the experience of space travel, and the capacity to 
assure communications, all three of which are focused very 
specifically in the way that we have evolved the program to the 
current Fiscal Year 2004 request pending before Congress.
    Summarized in the power generation and propulsion 
capabilities as Project Prometheus, we plan to develop the 
capability to at least accomplish the task of any outer 
planetary destination to do multiple on-orbit passes as opposed 
to the singular fly by approach that we've been restricted to 
for the past 40 years. In addition to that, develop the 
capability to improve the speed of space travel and 
communication capability by a factor of at least two to three, 
which would therefore cut down the amount of time necessary to 
arrive at any destination.
    The Human Research Initiative is a specific response to the 
human capabilities and endurance focus that is a specific set 
of budget initiatives that have been presented as part of the 
strategic plan to establish the capacity for human endurance 
beyond the experience that we have attained on the 
international space station or on space shuttle flights in 
recent years. And to understand what those consequences are to 
human physiology to permit any exploration beyond low Earth 
orbit.
    Finally, on optical communications, the basic objective is 
to assure that we have assured communications in a condition 
like this to be informed based on immediate events. As it 
stands now, our capacity for communications transmission, while 
good, is slower than what it needs to be to support any 
exploration objective beyond low Earth orbit.
    So those are the three areas, from a technology standpoint 
as well as human endurance capacity, that we have sought to 
emphasize specifically toward any future exploration 
opportunity in the years ahead.
    Also, the science questions that drive these particular set 
of destinations may evolve from the fundamental questions of 
how the solar system evolved, how do humans adapt in space, 
what is Earth's sustainability and habitability conditions that 
we need to really be mindful of in terms of our own human 
behavior that affects our climate condition, and is there life 
beyond the planet of origin. Indeed, it is a quest that our 
Space Science Associate Administrator, Ed Weiler, refers to as 
the attempt to sweep the last crumb of the plate of human 
arrogance. The notion that somehow we are all there is in this 
universe is a rather far reach, and so therefore understanding 
how we go about developing this debate as well as informing it 
by information and analysis is part of our science question 
pursuit.
    The pursuits are to look at the history of major solar 
system events, the effects of deep space on physiology, as a 
consequence of it, and the impact of human and natural events 
on the earth that seeks to answer: what are we doing to change 
physically our material condition here on this planet? NASA 
will also look at the origins of life in this solar system as 
an immediate confined effort, but also to expand it well beyond 
to the universe as a consequence of our gaining information 
that we've achieved from not only the Hubble telescope but also 
from the soon-to-be operational infrared space telescope.
    The activities are planetary sample analysis to look at 
what the absolute age is of our own solar system, as well as an 
understanding of how we evolved during the course of this time, 
measurement of responses to radiation, and indeed, I'm sure 
we'll discuss that a bit today given the present conditions of 
a solar event that has and will continue to have an effect on 
our own habitation here on Earth, the detection of any number 
of different conditions that need to be informed to assess the 
capability to survive in any space environment.
    The potential destinations to accomplish these science 
objectives may be in low Earth orbit certainly at this present 
condition, asteroids, the moon, Mars, beyond the Van Allen 
belts, libration points, as well as the range of other 
capabilities or destinations that we can conceive. But they all 
hinge on our capacity to develop, generate power and power 
propulsion capabilities to get there and to do it in a way that 
can sustain that kind of environment for any period of time and 
safely return, to develop the capability for humans to endure 
and survive the experience, and to assure those communication 
capabilities.
    Those are the focused primary objectives that we see in 
this program before you: the development of the strategic plan 
and this interagency cooperation process that each of you have 
referred to in your opening statements. These are the kind of 
linchpins we're continuing to look to in developing a longer-
term vision. We do agree that this will in turn require a 
national kind of focus for that objective that will be turning 
on the prospect and the capability to conquer these three 
primary issues that need to be better informed in order to 
explore any vision or mission objectives that would extend us 
beyond our present condition.
    Again, Mr. Chairman, I thank you for the opportunity to 
appear. I appreciate it.
    [The prepared statement of Mr. O'Keefe follows:]

          Prepared Statement of Sean O'Keefe, Administrator, 
             National Aeronautics and Space Administration
    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to appear before the Committee today to discuss NASA's 
vision for the future of space exploration. As the NASA team works hard 
to return the Space Shuttle to flight and to resume assembly of the 
International Space Station, it is important that we not lose sight of 
where the Nation's space exploration efforts are headed over the long-
term. History shows that space exploration endeavors span multiple 
decades. The decisions that led to the development of the Space Shuttle 
were made 30 years ago in the early 1970s. Similarly, the decision to 
initiate the Space Station program was made almost 20 years ago in the 
mid-1980s. We can expect that decisions made today will guide where and 
how we venture into the cosmos for decades to come.
    That is why I so strongly welcome the opportunity to elaborate on 
NASA's Strategic Plan for future space research and exploration. While 
meeting the challenges of today, it is critically important that we not 
lose sight of the opportunities of tomorrow.
    As members of the Committee know, we recently solicited input from 
Members of the Committee and continue to welcome your ideas. As the 
exploration vision is developed, the priority, timing, and specifics of 
some existing programs may change. We will continue to work with 
Members of this Committee to ensure that the programs pursued are 
directly aligned with the vision.
    In February 2003, NASA released the Agency's new Strategic Plan. 
This important document is the product of extensive senior leadership 
debate within NASA. It codifies NASA's Vision of improving life here, 
extending life to there, and finding life beyond which we hope to 
achieve by advancing our Mission goals of understanding and protecting 
our home planet, exploring the Universe and searching for life, and 
inspiring the next generation of explorers. The Strategic Plan sets the 
framework by which decisions on future NASA activities will be made, 
lays out a long-term blueprint for future space exploration, and 
describes the goals that the NASA team is committed to achieving for 
the American people.
    NASA released our Strategic Plan months before the law required, 
because the Agency is serious about our Vision and Mission and linking 
our budget priorities to the goals identified in the Strategic Plan. 
Early release of the Strategic Plan also ensured it was available 
during Congressional consideration of NASA's FY 2004 budget.
NASA's Vision
    The NASA Strategic Plan begins with the NASA Vision. Instead of 
compiling a list of everything NASA does, the Agency made a conscious 
decision to develop a short, concise, and compelling vision statement. 
Thirteen simple, but powerful, words comprise the NASA Vision. It 
includes only the most compelling reasons why the Nation invests in 
aeronautics and space research and articulates how NASA will contribute 
to America's legacy for future generations.
To improve life here
    The first part of NASA's Vision, ``To improve life here,'' 
encompasses the terrestrial and tangible benefits of NASA research. 
NASA aeronautics research develops technologies that make air travel 
safer and more efficient with fewer environmental impacts. NASA's Earth 
Science research informs decisions on global change by taking advantage 
of the unique vantage point of space to help scientists develop a 
comprehensive understanding of the complex interactions between Earth's 
atmosphere, lands and oceans. The demands of NASA space missions drive 
technological innovation across a range of industrial and national 
security sectors. Through space research, scientists are developing new 
medical devices and approaches to the fight against deadly diseases. 
These and many other benefits represent the tangible return from 
investments in NASA research. With NASA's vision achieved, future 
engineers will look back at the Agency's work and credit America with 
solving some of the most pressing transportation, environmental, and 
technological problems of our time.
To extend life to there
    The second part of NASA's Vision, ``To extend life to there,'' 
inherits and expands on the great American tradition of pioneering 
exploration. As President Bush has so eloquently stated, ``This cause 
of exploration and discovery is not an option we choose; it is a desire 
written in the human heart.'' Since the epic voyage of Lewis and Clark, 
America has shaped the future by pioneering the frontier. From John 
Glenn's historic flight in 1961 to the twin rovers currently on their 
way to Mars, NASA has become the modern-day expression of this 
tradition. NASA pushes the bounds of human experience and delivers new 
vistas for human activity. In doing so, NASA ensures American 
leadership on the frontier and into the future, inspires the American 
public and the world, and motivates the next generation of scientists 
and engineers. With our vision achieved, future explorers will look 
back at NASA's work and credit America with pioneering our solar 
system's frontier.
To find life beyond
    The third part of NASA's Vision, ``To find life beyond,'' seeks 
answers to questions asked by philosophers, theologians, and scientists 
since the time of the ancient Greeks. What is our place in the 
universe? It is the part of our vision has undergone the most change in 
recent years. A little over a decade ago, there was practically no 
evidence from our science missions and telescopes that habitable worlds 
existed beyond Earth. Our cosmos appeared to be a beautiful, but 
desolate, universe. Much has changed over the past decade. Science 
missions have found evidence for water, a key ingredient of life, on 
the planet Mars and some moons of Jupiter. Telescopes have found 
evidence of over 100 planets circling stars beyond our solar system. 
Scientists have found life thriving in environments on Earth that were 
previously thought to be barren. Taken together, these lines of 
investigation indicate that we may be on the verge of finding life 
beyond Earth within our lifetime or the lifetime of our children. It 
would be a profound discovery, a watershed event in human history. As 
President Bush has stated, ``We are that part of creation that seeks to 
understand all creation.'' With our vision achieved, future researchers 
will look back at NASA's work and credit America with the greatest 
scientific discoveries in human history.
NASA's Space Exploration Strategy
    The NASA Strategic Plan fundamentally changes our approach to space 
exploration. We achieved the marvel of the Moon landing, an incredible 
accomplishment that has shaped much of NASA today, driven by a great 
external imperative, the Cold War. That imperative drove our Nation to 
focus on sending humans to a single destination, the Moon, within a 
fixed timeframe, a decade. Although a great achievement in human 
history, the Apollo effort was not sustained. If we are to achieve our 
vision and send human explorers into the solar system, we must have a 
more flexible and sustainable strategy.
    Scientific inquiry and discovery will guide where and how often we 
go. We hope to go when new capabilities allow us to do so in a 
sustainable fashion, so that we can return to that destination when 
needed and move deeper into our solar system in the future. We will use 
human and robotic teams to explore as we move out into the solar 
system.
    This strategy provides the framework from which decisions about 
where, when, and how the next steps in human space exploration will be 
made.
Human and Robotic Teams
    A fundamental element of NASA's space exploration strategy is the 
use of human and robotic teams to advance our exploration objectives. 
History shows that space exploration can only be comprehensively 
performed when robots and humans are used together. Each brings unique 
capabilities. Robots go where it is still too dangerous for astronauts 
to go, or perform repeatable or predictable tasks for which astronauts 
are not necessary. This was the role of the robotic Ranger and Surveyor 
missions to the Moon that preceded the Apollo astronauts. Astronauts, 
however, bring the incredibly adaptive tool of the human mind to the 
frontier. Astronauts provide an ability to reason, learn, plan, react, 
and manipulate in ways that robots cannot. This has been the role of 
the astronaut missions supporting the Hubble Space Telescope. Similar 
relationships between humans and robots can be found in deep-sea 
exploration today and in the history of the Russian space program.
    As the Mars Pathfinder mission showed, the growth of the Internet 
and high-bandwidth communications offer new means for involving the 
public directly in the experience of exploration. But only astronauts 
can translate the adventure of exploration for those back on Earth and 
provide the human element that puts images from other worlds into full 
context.
Stepping Stones
    The second element of NASA's space exploration strategy is our plan 
to use stepping stones to reach ever outward in our solar system. This 
acknowledges that there are many desirable destinations for future 
human and robotic space exploration and many different pathways between 
these destinations. Stepping stones include both destinations that are 
likely to be the focus of intense research and investigation, as well 
as destinations that provide a convenient testing ground for new 
exploration approaches and capabilities.
    Research over the past decade has identified three destinations 
that appear to be key to the NASA Vision of finding life beyond. These 
three destinations will likely be the major research focus of future 
space exploration. They include:

  <bullet> The planet Mars, once thought to be a dry and barren planet, 
        is now believed to harbor significant quantities of water ice 
        beneath its surface. Evidence from recent science missions 
        indicates that liquid water may have flowed on the surface of 
        Mars in the distant past and may occasionally erupt onto its 
        surface today. Where there is liquid water, there is the 
        possibility that life may have developed--or even still exists. 
        Through the rest of this decade, NASA will be sending seven 
        spacecraft to Mars, including four landings and three rovers. 
        The first two rovers, the twin rovers Spirit and Opportunity, 
        will arrive at Mars next January.

  <bullet> The moons of Jupiter, including Europa, Ganymede and 
        Callisto, were once thought to be worlds locked in ice. 
        Evidence from our highly successful and recently completed 
        Galileo mission indicates that these worlds likely harbor 
        planet-wide oceans underneath their icy surfaces. Again, where 
        there is liquid water, there is the possibility that life may 
        have developed. We are planning a breakthrough mission, called 
        the Jupiter Icy Moons Orbiter (JIMO), which will undertake an 
        in-depth, three-year investigation of these worlds early next 
        decade, map out their oceans, and understand their potential 
        for life.

  <bullet> Planets beyond our solar system, include over 100 that have 
        been discovered to date. We plan to launch two space-based 
        telescopes this decade that will likely identify hundreds, and 
        possibly thousands, of additional planets circling other stars. 
        Most will be very large planets not suitable for life, but 
        there is the possibility that we may begin to identify planets 
        that are closer in size to our own Earth. Eventually, we may 
        want to erect highly capable space telescopes at locations 
        above low-Earth orbit, called ``libration points,'' to 
        characterize and image these Earth-sized planets.

    Depending on what our robotic and telescopic trailblazers find at 
these destinations over the next decade-and-a-half, we will be in a 
position to know where to send much more capable human and robotic 
teams to undertake extensive research in the years that follow.
Building Blocks
    The third element of NASA's space exploration strategy is the use 
of ``building blocks.'' This acknowledges two key facts. First, a 
handful of enabling capabilities are necessary to conduct in-depth 
exploration of our solar system and beyond. Second, it is desirable to 
develop these capabilities in a flexible way so they can be used to 
support missions to more than one destination. There are many necessary 
building blocks for sustainable exploration, including reliable and 
affordable launch, intelligent robotics, high-bandwidth communications, 
lightweight materials, and modular and reusable components. But three 
building blocks that we will likely need for future human exploration 
are:

  <bullet> Crew Transport--Reliable, safe, and affordable transport of 
        astronauts from Earth's surface to destinations in space is a 
        critical component of any future human exploration effort. We 
        are working to determine the best way to replace the Space 
        Shuttle for crew transport to and from the International Space 
        Station, as well as provide key building blocks for 
        transporting crews farther into our solar system.

  <bullet> Crew Health--To safely sustain human operations for long 
        periods of time beyond low-Earth orbit, we will need to know 
        how to protect astronauts from the dangers of space flight and 
        ensure they remain productive in various space environments. 
        This research is already being carried out on the International 
        Space Station, which provides the database from which medical 
        countermeasures to the effects of low-gravity can be developed. 
        Other research being carried out on the ground, including 
        radiation research and life support systems research, is also 
        critical to overcoming the limitations of the human body for 
        exploration deep into our solar system.

  <bullet> High Energy Power and Propulsion--New capabilities are 
        necessary to overcome the constraints of mass, energy and time 
        that limit our current exploration missions. Today's robotic 
        probes often operate their instruments on the same power as a 
        light bulb and are highly constrained in when, how often, and 
        how quickly they can visit planets and moons. The lifetimes of 
        robotic rovers are limited to months by their power systems. If 
        we are ever to send humans deep into our solar system, we will 
        need more power and improved propulsion systems. Project 
        Prometheus, a new NASA program started last year, is developing 
        power and propulsion capabilities that will greatly enhance 
        current robotic missions, enable new classes of robotic 
        missions, and provide a key building block to enhance future 
        human missions.
Eyes On the Future
    In closing, I would like to paint a picture in words of where the 
space exploration strategy laid out in the NASA Vision and Strategic 
Plan will take us in the future.
    Imagine a time in the not too distant future.
    The world, from scientists to schoolchildren, is continually abuzz 
with excitement over discoveries and achievements made throughout the 
solar system by teams of human and robotic explorers. Robots roll, 
crawl, fly, and wriggle into every nook and cranny on the planet Mars, 
going where astronauts cannot, in the search for ancient and present 
life. Astronaut scientists at Martian outposts direct this robotic 
search and analyze specimens, reasoning in ways robots cannot, to 
understand the history of life on our sister planet.
    Closer to home, astronaut engineers troubleshoot construction 
problems as robots assemble and maintain constellations of space-based 
observatories in Earth's neighborhood. These observatories provide 
breathtaking images of continents and oceans on Earth-like planets 
around other stars and unprecedented precision in understanding and 
predicting the global cycles of our home planet.
    At the edges of our solar system, robotic divers plunge the watery 
depths of Jupiter's moons, mapping dark oceans and illuminating their 
potential inhabitants. Streaming video is sent back to Earth from these 
and other locations, allowing researchers and the public to experience 
the exploration of new worlds firsthand.
    The space systems necessary to enable this vision, such as enhanced 
power and propulsion, intelligent robotics, high-bandwidth 
communications, lightweight materials, and modular and reusable 
components, have driven cutting-edge research in key sectors such as 
information technology and nanotechnology. Private industry and 
government employ these tools to benefit the economy, homeland 
security, and national security. The peaceful application of American 
technology is credited with opening the solar system frontier for 
humanity, and the United States has gone down in history as the Nation 
that made the biggest scientific discovery of all time, life beyond 
Earth.
    This is the future of space exploration if we faithfully implement 
the vision and strategy laid out in the NASA Strategic Plan. I 
sincerely appreciate the forum that the Committee provided today to 
highlight the NASA Vision and Strategic Plan, and I look forward to the 
opportunity to respond to your questions.
                               Attachment
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                               
                               

                                 

    The Chairman. Thank you very much. Admiral Gehman, welcome 
back.

   STATEMENT OF ADMIRAL HAROLD GEHMAN, USN (RET.), CHAIRMAN, 
             COLUMBIA ACCIDENT INVESTIGATION BOARD

    Admiral Gehman. Thank you very much, Mr. Chairman. Senator 
Hollings, thank you for quoting from our report. That's the 
same passage I chose to open my remarks with. I won't repeat it 
except to say that the board stands by those remarks. The 
institutional causes of this accident were just as serious as 
the foam, in our opinion.
    When we wrote this great big 248-page report, which we are 
very proud of, we had three goals in mind. The first one was to 
determine whether or not the shuttle itself is safe or could be 
made safe, and we made 15 recommendations that are return-to-
flight type of recommendations to make the shuttle itself safe.
    The second goal we had in mind was to cause NASA to change 
the way it does business because we don't like their 
engineering and safety practices. We wrote in the report and I 
quote, ``that the shuttle program in its present organizational 
arrangement is essentially unsafe in the long term.''
    The third goal we had in mind was to cause a national 
debate to cover two topics. One is what we call a lack of an 
agreed national vision of what it is the United States wants to 
do in space; second, the great disappointment that the board 
found, particularly those of us that don't follow NASA very 
closely, that here we are in 2003 and we do not have a 
replacement vehicle for the shuttle even on the drawing board, 
much less in production, and we are years and many years away 
from a replacement vehicle. So driving a debate to answer those 
two things is one of our goals.
    I think this hearing is very important to get that debate 
started and get some energy into it and I'm delighted to appear 
and offer whatever help I can. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Admiral, and again, 
welcome back. I'm not sure you're as glad to be back as we are 
to have you back. We thank you.
    Administrator O'Keefe, the Washington Post yesterday 
reported that Congressman Sherwood Boehlert, Chairman of the 
House Science Committee, asked you to suspend the orbital space 
plane program. The Post reported that Congressman Boehlert 
stated that, ``Until the Nation develops a shared vision to 
guide such projects, public support for the Nation's civilian 
space program will inevitably founder.'' What's your response 
to Congressman Boehlert's statements?
    Mr. O'Keefe. Yes, sir, we are preparing that now as a 
matter of fact. It will go over today and I'd be happy to send 
a copy here to this Committee. The approach we've taken is to 
respond to requests and entreaties that we examine what it 
would take in order to accelerate the development of a crew 
transfer vehicle. What we've been engaged in with absolutely no 
commitments at present is the development of all the 
requirements necessary to support what a crew transfer vehicle 
would look like, and we have begun developing the requests for 
the proposal. That won't even be issued under the present plan 
until early December, late November at the earliest, and 
there's no contract envisioned to be awarded even under this 
accelerated approach until August of next year.
    So in deference to the concerns that the House Science 
Committee has raised in terms of us getting ahead of the 
headlights, if you will, and awarding contracts prior to the 
concurrence of Congress in this approach we have developed, we 
are pursuing that which is consistent with what's included in 
the President's budget for Fiscal Year 2004 with the 
alternative of looking at what an accelerated approach would 
take. But that would not be operational until next summer at 
the earliest. So as a consequence, we concur in Chairman 
Boehlert's concern that we not be ahead of that and are not 
planning to do so. We are making preparation for that outcome 
should that be desired.
    The Chairman. Admiral Gehman, the CIAB report states, ``It 
does believe that NASA and the Nation should give more 
attention to developing a new concept of operation for future 
activities, defining the range of activities the country 
intends to carry out in space that could provide more 
specificity than currently exists.'' It states further the 
``Concept of operations should help identify the capabilities 
required and prevent the debate from focusing solely on the 
design of the next vehicle.''
    Would you expand a little bit on this concept of operations 
and the role that Congress should play in its development. By 
the way, I notice that the appropriators don't seem to be as 
concerned as many of us since they added $81 million in pork 
for NASA on the appropriations bill. Go ahead, Admiral.
    Admiral Gehman. Mr. Chairman, the board is in its 
deliberation as to how long the service life of the space 
shuttle as we know it now should be. The board decided to take 
a look at the status of the shuttle replacement, and we were 
trying to determine whether or not the shuttle could be made to 
last 5 years, 15 years, 20 years. We wanted to know, what's the 
United States' plan to replace the shuttle and how long does it 
have to last?
    We were somewhat surprised to find that the United States 
doesn't have a replacement for the shuttle. So we scratched our 
heads and we did a little research and decided to look at the 
previous programs, X-33 programs, X-34 programs, and other 
programs, and found that $1 billion had been spent here and $1 
billion had been spent there. The program lasted 2 years or 3 
years and then was stopped. We found some common reasons for 
all of this start-stop, start-stop, which was that the 
institutions, including NASA, Congress, the White House and the 
contractors, and I don't want to point blame at any one entity, 
tried to design the vehicle before they decided what they want 
the vehicle to do.
    It seemed that every time an engineer or a scientist came 
forward and said getting out of Earth's orbit and getting back 
into the atmosphere is very, very difficult and very dangerous 
to do. Going to Mars is easier than getting in and out of the 
Earth's atmosphere, and if we could just get out of the Earth's 
atmosphere and back in again safely that would be a giant 
engineering step. Yet when somebody comes forward with such a 
modest goal, it costs a lot of money, and the program doesn't 
fly.
    So we felt that it was very important for there to be an 
agreement on what you want to do and then let the design of the 
vehicle follow from an agreed mission. And I'll admit that we 
were biased, because we examined the shuttle in the Columbia 
accident right down to the millimeter, and we became convinced 
that strapping human beings on top of several million pounds of 
high explosives and then launching them to defeat the laws of 
gravity and to get up to 17,500 miles an hour and then trying 
to dissipate all that energy to come back into the Earth's 
atmosphere again is very, very dangerous and always will be 
dangerous, and we're not very good at it.
    We suggested that we try and agree on what we want the 
vehicle to do, while trying to limit our appetite and then go 
out and design the vehicle, and that was our approach. I hope 
that answers your question.
    The Chairman. It does. It also has to be something that 
Americans can be excited about and be committed to. I'm afraid 
that's been lacking recently in NASA's agenda, but----
    Mr. O'Keefe. Mr. Chairman, can I quickly comment?
    The Chairman.--time is short but go ahead.
    Mr. O'Keefe. Just very quickly. I concur exactly in Admiral 
Gehman's assessment of the history as well as what led us to 
this with one further addition. Every previous attempt appears 
to have counted on either a suspension of the laws of physics 
or a miracle, an invention to be developed during the course of 
its activity in order to achieve the objectives it looked to.
    What we're trying to do with the orbital space plane and a 
crew transfer vehicle, precisely what the board report has 
recommended, which is to separate the crew from the cargo, 
develop a capability that is based on known technologies that 
presses the edge of what that technology can do in order to 
provide a crew transfer system back and forth.
    So I think Admiral Gehman is dead on-point in terms of his 
assessment of what have caused the prior stops in this case, 
but your point, Mr. Chairman, is also exactly right on. It's 
got to be something that's going to excite the imagination and 
be based on necessary technology leaps that do not require or 
imply that a suspension of the law of physics is required in 
order to achieve it. It can't be done.
    The Chairman. Senator Hollings. Thank you.
    Senator Hollings. Well, Admiral Gehman, it really depends 
on the President's appetite. Senators go in one direction, 
House Members go in another, experts suggest this, other 
experts suggest that. If I were the President, I'd take Admiral 
Gehman and several members from your commission that's been 
working all year long now and have been debating and everything 
else, plus perhaps some others of national talent and package 
them together and say, go to it now and finalize the Gehman 
commission report with a vision and a plan and a program. Do 
you think a Presidential commission is the proper approach, a 
good approach?
    Admiral Gehman. Yes, sir. I'm not an expert in Washington 
dynamics here, but clearly
    Senator Hollings. You're the only one making sense. Go 
ahead.
    Admiral Gehman. I support anything which will activate the 
debate and also put the debate in some kind of order, which a 
commission would do. There may be other ways too, but yes, sir, 
I would support anything that would cause the branches of the 
Government plus the scientists and engineers to be forced 
together to come up with an answer.
    Senator Hollings. Right. Now with respect to Mr. O'Keefe, 
you seem to be long on vision of space but short on the safety 
of space. You come up and perform and you take me and I'm 
following you and everything's happy and then I pick up the 
newspaper and you don't seem to know what's going on. Who knows 
what's going on over there at NASA? Who's responsible? In other 
words, you didn't know anything about Columbia until it 
happened. That's correct. Apparently, you didn't know anything 
about the safety going, sending these astronauts back up to the 
state station until it just about happened and you had members 
signing off down below and everything else, saying the air and 
the water quality were unsafe, they wouldn't give clearance and 
everything else and you let it go, and when asked, you 
answered, well, if they're running out of air, tell them to 
come on home.
    Now, that's what I saw. Now, that bothers me that nobody 
seems to be in charge of safety. Who is over there in NASA?
    Mr. O'Keefe. Thank you, Senator. That's a very important 
line of inquiry and I appreciate you raising the question. I am 
responsible. I am accountable for this agency. In contrast to 
the press reports, I assure you I knew exactly what was 
occurring leading up to the flight readiness review for 
Expedition 8. There were two scientists, two technical folks in 
the medical operations division that were concerned about 
environmental monitoring and the caliber of that equipment and 
its sustainability over time, not its present condition, as 
well as the quality of the exercise equipment that is necessary 
in order to keep the physiological standing of the astronauts 
up to standard.
    They raised concerns to their superior, who is essentially 
the chief medical officer at the Johnson Space Center, who in 
turn heard those issues, decided that safety of flight 
considerations were a problem, and raised that at the flight 
readiness review and brought them in to attest to that point. I 
understood there to be a persistent concern thereafter on the 
part of these two medical operations folks, so I therefore 
asked that there be a reconvening before the Expedition 8 
flight occurred to make sure that all those issues were vetted 
again. Their expressions of comfort were that there was 
adequate samples coming back on the Expedition 7 flight, which 
just arrived the night before last, in which there was a 
specific set of samples that we can now test and monitor to 
assure the crew's safety and condition.
    I spoke to the international space station crew members on 
Monday as well, and as a consequence of this issue we have the 
samples back, we're going to analyze them, but there is no 
safety of flight considerations that the crew feels is 
necessary. So, notwithstanding the press accounts on this, I 
assure you, sir, I'm aware of it, worked through it, took extra 
means to assure that we'd run the question to ground before the 
flight took off. I went to Moscow myself then flew to 
Kazakhstan, witnessed that flight, spoke to the astronauts 
involved, and assured that all of the factors had been run to 
ground.
    So all that considered, the last gasp in this case is that 
if everything else were a problem, yes, indeed, they could 
return and leave the international space station. But nothing 
at the present time would suggest there is any safety of flight 
considerations. I have met with the two folks who had those 
initial concerns when I went to the Johnson Space Center last 
Friday. This an exercise of due diligence I view as part of my 
responsibility. I am following through on that, sir.
    Senator Hollings. Admiral Gehman, what's your comment? Are 
the safety systems there adequate?
    Admiral Gehman. Senator, I don't have personal knowledge of 
the safety systems; I don't have personal knowledge of this 
particular incident. I'm just relaying to you what was in our 
report, which is that it seemed that in the shuttle program, 
remember we only looked at the shuttle program, we didn't look 
at all of NASA, the motto of proving that it's safe had been 
changed to prove that it's unsafe. Here is a situation in 
which, if you had the motto that said prove it's safe, you 
would have a hard time doing that if your monitors weren't 
working and your test equipment wasn't working.
    Now the question is, whether NASA has fallen back into the 
unhealthy attitude, which we accused the shuttle program of 
doing, of having to prove that it's unsafe to get anything 
done. My understanding of this situation is that did not 
happen. In other words, people raised concerns, they didn't 
have to prove it was unsafe, which is what happened to the 
picture takers and the engineers in the case of the shuttle, so 
it sounds like they're listening.
    But, once again, if you took as a rule in space flight that 
you had to prove it's safe and your monitors aren't working and 
your test equipment's not working, then it looks to me like 
you're headed toward thin ice.
    Mr. O'Keefe. If I could add just one quick point. Admiral 
Gehman is exactly right. We have turned that cube and required 
that we prove that it's safe. The concern raised by the two 
folks within the medical operations community was that it is 
safe right now, but over time we can't attest to the 
possibility safety that may degrade. The decision--the risk 
return judgment, or risk management judgment--was made in terms 
of what remedial action we have to take in order to assure if 
there are failures our ability to monitor that condition.
    I think the theme that Admiral Gehman has talked about is 
exactly right. We have tried to change this to a point of open 
communications. We want to hear every point of view, and 
frankly I'd be nervous if there were not issues raised. If 
everyone was of unanimous view, we'd want to go out and seek a 
minority position in order to make sure we weren't talking 
ourselves into something.
    Senator Hollings. Well, Mr. Administrator, how is it that 
Internet had to inform you of the safety concern?
    Mr. O'Keefe. No, sir, I was informed by the flight 
readiness review reports that occurred on or about the second 
of October, if I remember correctly, that those issues had been 
raised. What I got through the Internet was a continuing 
indication that all the way up to 3 or 4 days before the flight 
that there were still lingering issues that had not been fully 
resolved or were not vetted properly. So rather than leave that 
confusion, I asked that there be a reconvening of that whole 
discussion before the flight occurred, so that everyone 
involved, every single interested party, expressed those 
concerns again and be sure that we have the analysis on the 
table to prove that it's safe.
    I think the point Admiral Gehman makes is exactly on as to 
the approach we took to this. In the end, the risk judgment was 
made that on the present condition this is a future concern 
that we have to continue to monitor. We have to prepare the 
capability to replace equipment on future logistics flights 
that are going to the international space station. But at the 
present time those concerns were enjoined, they were vetted, 
they were argued, and in turn analyzed in terms of how we 
respond to them. The comfort level was high before that flight 
ever occurred, and indeed that's what happened.
    The Chairman. Senator Hutchison? Senator Brownback?
    Senator Hutchison. Is that the right order? Are you sure? 
Well, let me just ask you, Mr. O'Keefe recently I met with Buzz 
Aldrin and I know that you are familiar with his concerns that 
NASA is abandoning the heavy-lift capabilities and looking at 
the orbital space plane to take people to the shuttle or to the 
station. My question is, will the orbital space plane have the 
ability to take equipment and will it be able to take what is 
necessary to do major repairs to the space station in the 
future, or are his concerns warranted?
    Mr. O'Keefe. Yes, thank you, Senator. The very clear 
direction that we've taken with the orbital space plane is 
consistent with the Columbia Accident Investigation Board's 
report, which is to separate the crew from the cargo, and as a 
consequence, this is a crew transfer vehicle, or envisioned as 
such. The continuing effort that we're going to work with here 
is to answer how you then provide the cargo capacity, whether 
you do it by a number of commercial options, and whether you 
develop a cargo lift capacity. The arrival now of the ATV 
system, which the European space agency will be delivering in 
September of next year, now supplements very dramatically what 
we have in terms of logistics and cargo capacity on the 
progress vehicles by a factor of about three.
    As a result, the cargo support for the international space 
station will be well covered once the shuttle returns, and ATV 
arrives. Right now, we're really restricted to the progress 
vehicles, which are unmanned in capability. But no, the orbital 
space plane, as envisioned and based on the requirements, is 
consistent with the board's recommendation that we separate the 
crew from the cargo, and I think the issues that are raised by 
others as well is, what is going to provide for that cargo 
capacity? And we need to address that question as well and I 
think we're down the road toward meeting that particular 
concern too.
    Senator Hutchison. So you're looking at some kind of an 
unmanned vehicle that would take cargo?
    Mr. O'Keefe. Yes.
    Senator Hutchison. And you believe that would provide any 
kind of repair equipment capability needed for the space 
station, and it isn't going to be left up there damaged and not 
have a capacity to be fixed?
    Mr. O'Keefe. Yes. Part of what we're doing in our return to 
flight efforts now is to develop the on-board repair capacity 
that could be lifted by shuttle, brought to the international 
space station, and stored aboard international space station 
for exactly those eventualities, as well as on shuttle or any 
other vehicle that would be required. So that's part of what 
the first couple of flights after we return to flight will 
really be demonstrating is our capacity to do it, and 
fortunately, a lot of the options we're looking at today are 
dramatically reduced in terms of weight requirements, space 
requirements, all that, and some of the solutions are really 
pretty straightforward that should not be a show-stopper in 
terms of mass or requirements for stowage.
    Senator Hutchison. Can you give us any ballpark estimate of 
when our next space shuttle would go up?
    Mr. O'Keefe. Well, based on the return to flight plan that 
we have been proceeding with, if all the options are selected 
and are implemented, I think we have to be really driven by the 
milestone objectives of complying with 15 recommendations 
specifically, and all 29 recommendations contained in the 
report as well. If those milestone objectives are hit and we 
are able to do this on the pace that we think based on today's 
option set, it is conceivable. We could be looking at late 
summer, early fall as a prospect. That said, we're going to be 
driven by the milestones and when we are fit to fly that's when 
we're going to engage in it, not before. The calendar's not 
going to drive this.
    Senator Hutchison. Let me just ask you a bigger picture 
question. I know since the accident there has been a lot of 
give and take about the future of NASA and I would just ask, 
number one, do you still consider the space station a core 
mission for NASA? Let me stop there and ask my second question.
    Mr. O'Keefe. Well, consistent with the strategies that we 
talked about a little bit at the opening statement, the space 
station's greatest utility at this point is to have us gain a 
clear understanding of what the human endurance, the physiology 
requirements are for any space exploration objectives. We're 
learning a lot as a capacity of a continuous presence in space, 
now pushing almost 3 years. Next year will be the third 
continuous year of human presence in space.
    Beyond that, the science that we can yield from the 
research that's performed aboard the station is justified as 
well. Yes indeed, it is a core requirement that we view as 
necessary to inform the human endurance approaches that we need 
for any exploration objectives beyond low Earth orbit, and to 
understand, I think, the science yield that is yet to come that 
is really quite promising in that regard. We view it as an 
important requirement.
    Senator Hutchison. Last question. Do you envision a big 
announcement about the reinvigoration of the commitment to NASA 
at some point in our future? Because we've all known that 
you're studying, that there are commissions, there are ongoing 
efforts at the White House to determine what we ought to be 
doing. Do you envision an announcement about what NASA's future 
is?
    Mr. O'Keefe. In our discussions that several members of the 
Committee participated in with the Vice President, I think the 
understanding clearly is that there is an interagency process 
underway in which we are looking at various options for the 
vision objectives as well as the strategic modification to this 
basic plan we have presented. To the extend that the President 
decides on those options, that would be attendant with whatever 
manner in which he would see appropriate to release that. 
Certainly we remain hopeful that that is achievable. We're 
doing our best to support that outcome, but that is entirely 
his choice, and I would not want to foreclose or preclude his 
options in that regard.
    The Chairman. Senator Nelson?
    Senator Nelson. Mr. Chairman, to continue the line of 
discussion earlier, I take it that in your plan for an orbital 
space plane to take the crew to and from the space station, 
assumes an unmanned vehicle for cargo. What are your plans to 
make the space shuttle unmanned as a vehicle to carry cargo and 
when would that occur?
    Mr. O'Keefe. Yes, sir. That is an option, that is one 
approach that could be examined, an autonomous capacity on 
shuttle is one of the means that could be examined for a cargo 
lift capacity. It's got an impressive capability for that 
purpose. But again, consistent with the comments I think 
Admiral Gehman offered earlier, there is no replacement of 
shuttle per se, because the notion that somehow there would be 
a crew capability and a cargo capacity embodied in the same 
asset is part of the reason that drove the board, I believe 
correctly, to say separate the crew from the cargo.
    So this is one option, one approach that could be used. 
There are others that are under examination and certainly there 
are a lot of commercial alternatives that have been proposed 
and certainly advanced to several members here as well as 
others, and so which approach would be taken in that case we're 
hoping to converge on here pretty quickly, but that is one 
option.
    Senator Nelson. You know, Admiral, there's an interesting 
parallel in your report to 17 years ago to the Rogers 
commission report, because the space shuttle had been developed 
to be the space transportation system. That's why it was called 
STS, and it was to do everything to and from space. As a result 
of the destruction of Challenger, the Rogers commission said, 
what you ought to do is separate out those cargos that can go 
that you don't need the human in the loop, and save the space 
shuttle for those particular missions.
    Now, 17 years later we've got another iteration as a result 
of your commission. You're actually saying, let's develop a new 
vehicle that is much safer to go to and from for humans and put 
your more difficult kind of cargo payloads on something that is 
not quite as reliable. So in that regard I guess we better get 
upon the matter of developing the space plane. It looks like 
the House of Representatives is beginning to give you some 
heartburn, Mr. Administrator, so we better have a couple of 
prayer sessions to see what we can do, because as the Admiral 
has said, in the meantime we're going to have to fly the space 
shuttle and humans are going to have to be on it, and we've got 
to make it as safe as possible. But there's a long lead time 
and we've got to develop these new technologies.
    Mr. O'Keefe. Yes, sir. Well, as for the heartburn I keep 
Rolaids handy all the time as well as Advil, so it's a daily 
condition. There's not a problem in that regard. But it is I 
think a situation where the concerns addressed by the House in 
this case are legitimate in that we not get in front of the 
headlights beyond what the administration has proposed. And 
that's exactly what we're pursuing right now. We're not 
committing the administration or the Congress ourselves beyond 
the scope of what is contained in the budget today.
    That said, we are exploring the option to accelerate, and 
to the extent that that would be pursued there would be ample 
opportunity to review. That question would be incorporated as 
part of the President's proposal, as part of 2005 as well as 
the Congress' consideration of such a move well before any 
contract award in that case, so I think we can work our way 
through this, but we are trying to prepare ourselves as a 
matter of due diligence to make that option possible rather 
than something that we begin with with a clean sheet of paper 
were that chosen as an approach.
    Senator Nelson. Let me ask you another question about the 
future of NASA, which is the subject of this hearing. I don't 
see a direct objective for human exploration and you've already 
stated that that's a decision that would be made by the 
President. So do you need a directive, a direct directive from 
the President for us to state our goal?
    Mr. O'Keefe. Well, the stepping stone chart, strategy that 
was laid out as the second one, would envision the prospect of 
human exploration beyond low Earth orbit, but the emphasis in 
the strategy, I think, is to really emphasize the question of 
let's develop a technology and capacity to make that kind of 
vision, that kind of dream a reality. And in two we develop the 
power generation and propulsion capabilities, do so, beat the 
human endurance challenges that we believe are persistent as 
well as to assure communications, we are not in the mode or 
position to do anything more than establish that as a goal or a 
dream, and so therefore to permit that to happen, this is going 
at it from the direction of technology development, no 
question.
    Senator Nelson. Well, how do you go about getting that 
directive out of the White House?
    Mr. O'Keefe. Again, I think process that is underway at 
present with the interagency effort that, again, you were party 
to the effort with the Vice President's solicitation of views 
and approaches on how we could proceed with that, they are 
being taken very, very seriously and that is being vetted and 
I'm optimistic that we'll see clarity in that regard at 
whatever period of time the President so chooses.
    Senator Nelson. Mr. Chairman, may I just ask one question 
on the last statement? As you develop your technologies for 
exploration beyond low Earth orbit, what are the human 
limitations that you see beyond low Earth orbit and what are 
you doing to address those?
    Mr. O'Keefe. Yes, sir. Among the many, the three that 
really impress me as being particularly profound that we really 
need to get some resolution to, the first is a dramatic 
reduction in muscle mass, that typically on the course of a 6-
month expedition on the international space station, even with 
the exercise equipment and the various physiological regimes 
that we've developed for that, it is not atypical to see about 
a 30, 25 to 30 percent muscle mass loss in that span of time.
    Same is true of bone mass. It is as high as about a 10 
percent bone mass loss as well. And so as a consequence, with 
those two alone, while it is regenerative, and it takes about 
the span of time that it takes during the course of the mission 
back on Earth for that comparable period of 6 months to be 
regenerated, it nonetheless is a very rapid degenerative 
capacity or circumstance that occurs.
    The second major variable is the very odd and not 
understandable from the scientific community's view they're 
really seeing this as a conundrum while you see a degradation 
in one sense, you also see a rapid acceleration of cell growth 
in other area. So trying to understand what this phenomenon, 
what it's created, why in this particular microgravity 
condition that's the case is a real severe question that we 
need to have resolution to.
    And the third one is the radiation effect. In low Earth 
orbit right now, the equivalency of radiation exposure is not 
dramatically higher than what we would see in lots of other 
Earth-bound kind of conditions. Beyond 600 miles and up in the 
Van Allen belt it's a factor of three greater. So surviving 
that experience without having the bulk and mass of radiation 
shielding, using material, is something that really is a 
challenge, because otherwise that requires more propulsion, 
more power generation, more mass and capability and volume to 
support something like that. All three of those
    The Chairman. Mr. O'Keefe, I promised to get you out at 
10:30 and we have two more questioners. I'd appreciate it if 
you----
    Mr. O'Keefe. This is the last statement. All three of those 
are part of the human endurance initiative and human research 
initiative that's contained in the Fiscal Year 2004 budget 
proposal to deal with all three of those areas. I apologize, 
Mr. Chairman.
    The Chairman. Thank you. Senator Brownback and then Senator 
Sununu.
    Senator Brownback. Thank you very much, Mr. Chairman. And 
Administrator, Admiral, thank you for being here. I've got a 
chart that I want to put up and make a point with it and ask 
first, Admiral, you about this, because I think you alluded to 
it in some of your comments. We've had five starts and stops 
within the last number of years costing what I've totaled up 
about $5 billion for various types of replacements for space 
shuttle.
    It's part of my concern right now with going forward with 
the orbital space plane when we're not exactly sure what all of 
this is going to be about that we would have the similar sort 
of thing, we would start, we'd spend a couple billion dollars 
and not have the vision or zest to move this on forward.
    I would ask you, and then I want to ask Mr. O'Keefe, if I 
could, as well, how can we go about establishing this national 
vision that will have sufficient buy-in by the public, and 
zest, that it would keep us from doing a sixth one of these and 
spending a few billion dollars to do that.
    Admiral Gehman. Well, Senator, I know that Senator Hollings 
has proposed a National Space Commission, probably to get at 
some of these issues. I would offer--and this is in response, 
also, to a comment that Senator McCain made earlier, and your 
comment, about the zest--my board studied the Space Shuttle 
program at Columbia, all the way back to the Nixon years in 
which they designed the Shuttle, in order to understand how we 
got to where we are today. And in the course of that study, we 
became convinced how difficult it is to get into and out of 
low-Earth orbit. It is extraordinarily dangerous and very 
difficult to do. And, unfortunately, I think that one of the 
missions and goals of however we achieve this national 
consensus is going to have be to convince the American 
taxpayers and the Congress of the United States, that, whereas 
it's not very jazzy and not very exciting just to get into and 
out of low-Earth orbit, we have to do it, and we have to do it 
more safely than 49 out of 50 times. That's not good enough.
    Ten years from now, I anticipate us going into and out of 
low-Earth orbit every month or every week. So we have to have 
some way of doing it reliably and safely and inexpensively.
    No matter what your vision is for human spaceflight, 
whether it's Mars or the L2 or the Moon or whatever it is, it 
starts in low-Earth orbit. It doesn't start on the surface of 
the Earth. We have no possible way to harness enough energy to 
large objects all the way to Mars from the surface of the 
Earth. It'll start from low-Earth orbit.
    So we really do need to perfect getting into and out of 
low-Earth orbit reliably. And in our report, we went and looked 
at these things, and they essentially failed for two reasons. 
One was, as Mr. O'Keefe has said several times, they depended 
upon some kind of a giant technological leap to happen during 
the course of the program--those giant technological leaps 
don't happen like that; they are developed by robust research 
development programs--or the Congress of the United States got 
disenchanted when they started to go overrun, to cost more, 
they were behind schedule, and they were costing billions, and 
finally OBM--either the White House, OBM, or the Congress said, 
``cease and desist.'' Well, unfortunately, that's the nature of 
what we're doing here.
    So my answer is, based on our study of how we got to where 
we are today in the Shuttle Program, and of those the three 
things is, we need some leadership to say just getting into and 
out of low-Earth orbit is a goal worthy of itself, without 
killing a lot of people. And that's hard to argue, because it 
isn't very jazzy.
    Senator Brownback. Let me ask you, Mr. O'Keefe, because 
I've have sensed your frustration for some period of time on 
this discussion of vision, as, ``Yes, it's great, but how do we 
get there,'' we've got to get the Project Prometheus that 
you're working on, a greater power generation, you've got to 
get into low-Earth space orbit. As a policymaker, I look at 
issues that I try to take to the public, and I say you've got 
to have the vision, and you're saying you've got to have the 
technology to do the vision. How can we marry those up so that 
we don't get these unsustainable types of projects?
    And we've seen, also, visions articulated that we haven't 
fulfilled. ``Let's go to Mars,'' and it sounded great, and we 
didn't do it. But, I mean, there's got to be a thread and some 
learning that we can take from all of these things, because I 
don't think you don't get there without a vision. Without a 
vision, the people do perish on the way. But we also have to 
have it tied to that technology and a national buy-in that 
sustains it.
    Your thoughts on how we can tie the vision and the 
technological ability?
    Administrator O'Keefe. Oh, I think you've put your finger 
right to it, Senator. This is the source of the frustration. 
And it really has to be done in tandem.
    The call for a national debate or a national commission, or 
whatever, in and of itself, is laudable. No question. But it 
has to have some focus, some agenda, some specific approach to 
it that says, let's look at how you develop a consensus for, 
not only the vision, but the means to get there. Because, 
you're right, during the course of our history, of recent 
history, the last couple of decades, we've done all kinds of 
effort to look at establishing very, very lofty goals, and 
never attaining it because the technology wasn't developed to 
achieve it; or we have focused extensively on a number of those 
failed programs, which all required an invention to happen. 
They were dependent upon some suspension of the law of physics, 
or something, in order to make them possible.
    So the approach that we're right on the verge of, and I 
think we're really converging nicely, is, not only an approach 
that we've advocated of develop a technology based on what you 
know you can achieve, and with a lot of push that you have to 
stretch the edge of in order to make it really perform to its 
maximum extent, and to develop the means to articulate a 
vision, which several Members have all discussed here, as 
requiring of national focus, and then asking, potentially, as 
both you and Senator Hollings have proposed, the notion of a 
commission to look at that specific agenda, look at that 
specific focus, and validate it, modify it, amend it, do 
whatever's appropriate in order to achieve that goal. That 
could be substantial progress that has defied us for the last 
three decades, and that would be an incredible achievement if 
we could do that. I think we're very much on the verge of doing 
just that.
    Senator Brownback. Thank you.
    Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Administrator, in your opinion, who is 
ultimately responsible for setting that vision? Is it our 
responsibility to enact legislation stating what the vision 
should be? Is it your responsibility or NASA's responsibility 
to move forward and articulate a vision that sort of we buy 
into and then appropriate funds for? Is it the President's 
responsibility to say, I'm the chief executive, here is the 
vision that we shall have for NASA, or is something that we 
need to or we're best deferring to a third party, a commission, 
if you will? Who's ultimately responsible for that?
    Mr. O'Keefe. Thank you, Senator. I am a traditionalist in 
this regard. I'm very much of the school that it is the 
administration, the executive's responsibility to propose and 
for Congress to dispose in those manners. And in this 
particular case what we're working on very, very diligently is 
an interagency effort to provide the best advice we can to 
frame this debate for the President's consideration, and 
whatever he chooses is then the point of debate, and I think a 
commission could help potentially frame the nature of that 
discussion thereafter.
    If you hand in an agenda, it ends up differently than I 
think what we saw a decade ago, in which everyone was handed a 
clean sheet of paper to go off and dream something up, and I 
think the profound comment that came from that was, everyone 
agrees that there should be a vision and no two people can 
agree on what it ought to be. This is an attempt where we 
really have to set that agenda, and I think the President is, 
certainly dispositionally, prepared to engage in that regard.
    Senator Sununu. In taking on that challenge as 
Administrator, you have a strategic plan here for 2003 is there 
anything in here that you would argue represents that kind of 
long-term vision? If so, are there things you can point to in 
the strategic plan that, for those reasons, are somewhat at 
odds with the current budgetary path? In other words, if you're 
articulating a new vision and it's not necessarily in the 2003 
budget resolution that covers the next 3 or 4 years, what in 
here fits that description of a leading vision?
    Mr. O'Keefe. I appreciate that. The strategic plan is just 
that. It is a strategy to achieve the capacity and the 
capability to aspire to any of those objectives, any of those 
positions taken. It is the baseline from which we're starting 
our discussion, debate as the interagency team, and indeed, as 
part of what is in the President's budget right now is the 
minimums of what's required in terms of a baseline approach for 
power generation, propulsion, human endurance, and 
communications requirements to upgrade to achieve any of those 
objectives. The vision or the ultimate objective is what, I 
think, we're working at now as part of the interagency process 
to serve up to the President for his consideration.
    Senator Sununu. There was some discussion of the process 
that was used to deal with the questions raised about safety of 
flight recently, and I think you described pretty clearly the 
path that you followed in gathering information, convening an 
additional meeting to deal with safety of flight questions. Is 
there anything that you described in that process that is 
different or new as a result of the findings of Admiral 
Gehman's commission?
    Mr. O'Keefe. Absolutely. I think we've been profoundly 
affected by not only the accident but also the very astute 
observations of the board on what caused it. It was hardware 
and material failures, but it was also human failures, and many 
of those human failures turned on our capacity to communicate. 
So, if anything, I think with this last example leading up to 
the Expedition 8 launch demonstrates for the flight readiness 
review, when it's all examined, is an extensive overabundance 
of coverage of communications for folks to really be in a 
position where they're free to raise the concerns and issues, 
and again, I would be alarmed if there were no concerns raised, 
and indeed would go seeking minority views of this.
    The fact that there was, I think, a continual effort all 
the way up, and leading to the launch had there been lingering 
concerns I was there in Kazakhstan and would not have permitted 
that to occur. So the fact that we're all resolved by that 
point and at least everyone understood what the circumstances 
were is a very, very hard lesson learned from the 
communications message that emerged from the accident 
investigation board's report.
    Senator Sununu. One final question following up on the 
point that Senator Brownback made about the series of programs 
that haven't fulfilled expectations or haven't been 
technologically feasible--$5 billion is a lot of money even in 
Washington. In the strategic plan there was some discussion, a 
nice photograph of the Scram jet, the X-43. What's the status 
of that? You suggested that there's no money being put into 
specific product development. You're doing some planning for an 
RFP if one is appropriate, but what is the status of the Scram 
jet and does that more appropriately belong on this list as 
well?
    Mr. O'Keefe. Not necessarily, no. X-43 is proceeding apace, 
it is part of a cooperative effort of an agreement that we have 
in place with the Defense Department for their national 
aerospace initiative that they're pursuing to develop 
hypersonic capacities, and this begins that long trek in that 
direction. It is severable and divorced from the question of 
whether you need a crew transfer vehicle, that's not the 
intention. But if we are ever to achieve the capacity for a 
horizontal launch as opposed to a vertical launch system that 
uses expendable launch vehicles, we've got to begin this 
process and do it in a way like the X-43 and the Scram jet in 
developing a hypersonic capacity over time that would make that 
feasible, but that's not something on the immediate horizon, I 
don't envision it ever being in a condition of cancellation. I 
think it's more the one bite at a time approach that has been 
more characteristic of NASA's history in trying to develop each 
of those incremental pieces of the technology to get to some 
objective, and that's what that's after and we're doing it in 
concert with the Defense Department.
    Senator Sununu. Thank you.
    The Chairman. I would ask your indulgence for Senator 
Hollings to ask one additional question.
    Senator Hollings. Mr. O'Keefe, this committee has on its 
plate 17 dead astronauts, including three in Apollo 1, 
preventable, seven in the Challenger, preventable, and 
apparently seven preventable in the Columbia. Let me read this 
one statement appearing in this article, if we've got it in the 
record: ``Assuming a starting point on the fifth day of the 
flight, NASA engineers subsequently calculated that by 
requiring the crew to rest and sleep, the mission could have 
been extended to a full month to February the 15th. During that 
time, the Atlantis, which was already being prepared for a 
scheduled March 1 launch, could have been processed and made 
ready to go by February 10. If all had proceeded perfectly, 
there would have been a 5-day window in which to blast off, 
join up with the Columbia, and transfer the stranded astronauts 
one by one to safety by means of a tethered space walk.'' Do 
you agree?
    Mr. O'Keefe. Yes, sir. It's a very high-risk maneuver, but 
it's one we certainly would have attempted had there been an 
indication at that time.
    Senator Hollings. So the lessons of the taking the pictures 
and everything else like that, we could have saved them, and 
otherwise all you got to do is always have a back-up safety 
shuttle. You can start a shuttle flight tomorrow. The foam can 
knock out the side again, and to prevent burning up on re-entry 
you could have that Atlantis or second shuttle up and save 
those astronauts. Isn't that right?
    Mr. O'Keefe. Well, sir, that is one approach and it's one 
that is a very high-risk maneuver.
    Senator Hollings. Is something wrong with that?
    Mr. O'Keefe. It's a very high-risk maneuver. But if, by 
gosh, you're trying to save lives.
    Yes, sir, I agree. We would have attempted it. There is 
just no question in my mind we would have tried had we been 
aware of that.
    Senator Hollings. Thank you, Mr. Chairman.
    The Chairman. Thank you both for your indulgence. Thank you 
for being here with us today and I can not assure you that this 
is your last assurance.
    Admiral Gehman. Thank you, Mr. Chairman.
    Mr. O'Keefe. Thank you, Mr. Chairman.
    The Chairman. Our next panel is Dr. Wesley Huntress, 
Director of Geophysical Laboratory, the Carnegie Institute; Dr. 
Robert Zubrin is the President of the Mars Society; Dr. David 
Woods, Professor, Institute for Ergonomics at Ohio State 
University; and Mr. Richard Tumlinson, Co-Founder of the Space 
Frontier Foundation. Welcome to our witnesses, and Dr. 
Huntress, as soon as you're prepared we'll begin with you, sir, 
and thank the witnesses for being here, and pull the microphone 
a little bit closer to you. Thank you.

STATEMENT OF DR. WESLEY T. HUNTRESS, JR., DIRECTOR, GEOPHYSICAL 
         LABORATORY, CARNEGIE INSTITUTION OF WASHINGTON

    Dr. Huntress. Mr. Chairman, thank you very much. I'm very 
grateful for the opportunity to testify before you here today 
on my view of the future of this planet's human space flight 
program. Mr. Chairman, I believe that the American public wants 
an adventurous space program to exciting destinations in the 
solar system but they're not getting it. We're stuck in low-
Earth orbit when the challenge is to move outward to those 
exotic places in the solar system where we've been given 
tantalizing glimpses from our robotic exploration program. The 
shuttle and the space station are the legacy of a long-past 
era, in which the space program was a weapon in the cold war. 
The Apollo program was not primarily the exploration or science 
program we were all fond of remembering, it was really a 
demonstration of power and national will intended to win over 
the hearts and minds around the world and to demoralize the 
Soviet Union.
    Exploration is not what motivated Kennedy to open the 
public purse. Beating the Russians did. Apollo accomplished 
that and the Nation moved on to other priorities, which did not 
include what space enthusiasts and much of the public thought 
would happen, lunar bases and on to Mars. Nowadays, the 
imperatives for space exploration are very different. Three 
decades of wishful thinking and building space ambitions on 
inadequate funding has led us into a blind alley. The space 
station is not the transportation node for missions beyond 
Earth's orbit that it was supposed to be. Instead, it's become 
an Earth orbital dead-end, and the space shuttle is not the 
low-cost, low-risk, operational space transportation system 
that it was supposed to be, and we're burdened with a history 
and a legacy that can not be easily or quickly undone.
    The legacy of the Columbia accident should be to create a 
new pathway and a new sense of purpose for human space flight, 
and if space explorers are to risk their lives it should be for 
extraordinary reasons such as exploration of the moon, Mars, 
asteroids, construction, and servicing of space telescopes. The 
whole point of leaving home is to go somewhere, not to 
endlessly circle the block. The problem is not human space 
flight, the problem is this kind of human space flight.
    I believe that among all the destinations that are within 
our reach in the next 50 years, such as the moon, libration 
points in near-Earth space, near-Earth asteroids, and Mars, 
that Mars is the ultimate destination we should pursue in the 
new century. Mars is the most scientifically rewarding 
destination and the one place that can galvanize human interest 
like no other. It's the logical destination for humans in the 
next decades of our new century. Mars is the most Earth-like of 
all of the planets in our solar system, it may have had life 
early in its history, it might possibly harbor microbial life 
below its surface today, and 1 day in the future it may become 
a new home for humankind. It has fascinated humans for 
centuries and it's within our reach.
    In pursuing these destinations, the human space flight 
program needs to be set on a new path that leads to a future 
that the public has been expecting for decades, a path that 
takes humans beyond Earth orbit to compelling new destinations 
in the solar system. We need a national vision that sets 
destinations for human exploration and systematically pursues 
its fulfillment with both robotic and human space flight, and 
the Nation needs a commitment from the administration and 
Congress for a manifest destiny for American in space.
    I'm leading a study by the International Academy of 
Astronautics that recommends the nature adopt a long-term 
policy for its space program along the following lines. First, 
to set a goal for human space flight to establish a permanent 
presence in the solar system and specifically to establish a 
human outpost on Mars by the middle of the century. Second, to 
devise a progressive step-by-step approach for achieving this 
goal, one that does not require an Apollo-like spending curve. 
Third, this progressive approach should include intermediate 
destinations, such as the libration points, moon, near-Earth 
asteroids, to provide the stepping stones to Mars where useful 
exploration goals can be carried out. Fourth, space exploration 
is intrinsically global and should involve cooperation with 
other space-faring nations.
    To enable such a vision, NASA's Earth to orbit 
transportation and on-orbit infrastructure would have to be 
reinvented. The current space shuttle and international space 
station are not on this critical path other than for conducting 
research on human physiology in space. First, we need to carry 
out America's obligations to its international partners for an 
orderly completion of the ISS. The goals of the ISS should be 
limited and refocused to those specific purposes required to 
enable human exploration beyond Earth orbit.
    Second, retire the shuttle after flying only those missions 
necessary to complete the ISS. The shuttle is extremely 
expensive, dated, operationally fragile, and risky for its 
crews. Third, reinvent our method of access to Earth orbit. 
Human transport to and from space and within space should be 
separated from cargo transport. New, simpler, lower-risk, 
lower-cost Earth to orbit transportation systems for both 
humans and cargo should be devised that support human 
requirements for exploration beyond Earth orbit. Fourth, 
develop an architecture for this highway to deep space, leading 
to human outposts on Mars by 2050, engage all space-faring 
nations in developing such a plan, utilizing the best that each 
nation has to offer, and the U.S. should take the lead. And 
sixth, to continue the use of robotic missions for scientific 
research and to prepare for human flights.
    None of this will happen if we go on as we are. Thank you 
for your attention.
    [The prepared statement of Dr. Huntress follows:]

     Prepared Statement of Dr. Wesley T. Huntress, Jr., Director, 
       Geophysical Laboratory, Carnegie Institution of Washington
    Mr. Chairman and Members of the Committee:

    I am grateful for the opportunity to testify before you today on my 
view of the future of this planet's human space flight program. The 
public wants an adventurous space program, a Mission From Planet Earth 
to new exciting destinations in the solar system and beyond. The public 
wants to know where we are going, how we are going to get there and 
wants to go along for the ride even if only virtually. America has the 
right stuff, but today's human space flight program isn't giving the 
public what it wants.
Old Legacies
    The challenge for NASA is to throw off the yoke of the Apollo 
program legacy and to move outward beyond Earth to exotic places in the 
solar system, those places where we have been given tantalizing 
glimpses from our robotic exploration program. The Shuttle and Space 
Station are the legacy of a long-past era in which the space program 
was a weapon in the Cold War. The Apollo program was not primarily the 
science or exploration program we are all fond of remembering, it was a 
demonstration of power and national will intended to win over hearts 
and minds around the world and to demoralize the Soviet Union. 
Exploration is not what motivated Kennedy to open the public purse. 
Beating the Russians did. It worked. Apollo accomplished what was 
intended and the Nation moved on to other priorities, which did not 
include what space enthusiasts and much of the public thought would 
happen--lunar bases and on to Mars.
    The Space Shuttle and International Space Station (ISS) are the 
products of NASA attempting over the decades to preserve the Apollo era 
of human space flight already passed by. These are complex, expensive 
projects that produce enormous strain on NASA's budget and 
corresponding stress on the heroic people who work so hard to preserve 
the enterprise. The current human space flight program is barely 
affordable with what NASA is appropriated. The Apollo era is gone, the 
imperatives for space exploration are very different now than they were 
in the 1960s, and three decades of wishful thinking and building space 
ambitions on an inadequate funding basis has led the Nation into a 
blind alley. The ISS is not the expected transportation node for 
missions beyond Earth orbit that it was supposed to be; it has become 
an Earth-orbital end unto itself. And the Space Shuttle is not the low-
cost, low-risk operational space transportation system that it was 
supposed to be.
    The legacy of the Columbia accident should be to create a new 
pathway and sense of purpose for human spaceflight. We should provide a 
more robust transportation system for our astronauts and a more 
rewarding program of exploration for these heroes. They should be 
assured of a reliable, safe system for transporting them a distance no 
farther than the distance between New York and Washington. And if space 
explorers are to risk their lives it should be for extraordinarily 
challenging reasons--such as exploration of the Moon, Mars, and 
asteroids, and for construction and servicing space telescopes--not for 
making 90 minute trips around the Earth. The whole point of leaving 
home is to go somewhere, not to endlessly circle the block.
    Just as for Apollo, the Shuttle and ISS were developed for 
political imperatives; not so much for space exploration but to keep 
humans flying and to serve a foreign policy agenda. The Shuttle and ISS 
have not proven to be the next steps to human deep space exploration as 
advertised, instead they have become an impediment--serving only to 
maintain a human presence in near-Earth space until society finally 
decides to undertake missions to destinations beyond Earth orbit. 
Immediately after the Columbia accident, Charles Krauthammer, a noted 
columnist put it far better than my scientist training allows:
    ``We slip the bonds of Earth not to spend 20 years in orbit 
studying zero-G nausea, but to set foot on new worlds, learn their 
mysteries, establish our presence . . . After millennia of dreaming of 
flight, the human race went from a standing start at Kitty Hawk [almost 
exactly 100 years ago] to the moon in 66 years. And yet in the next 34 
years, we've gone nowhere . . . For now, we need to keep the shuttle 
going because we have no other way to get into space. And we'll need to 
support the space station for a few years, because we have no other 
program in place . . . If we are going to risk that first 150 miles of 
terrible stress on body and machine to get into space, then let's do it 
to get to the next million miles--to cruise the beauty and vacuum of 
interplanetary space to new worlds . . . the problem is not manned 
flight. The problem is this kind of manned flight, shuttling up and 
down at great risk and to little end.''
New Options
    We have reached a point now where we reflect fondly on a time past 
when America shined brilliantly in human space exploration, but can 
only lament our retreat while others climb a path we pioneered and 
abandoned. We can shine again. We are a wealthy and capable nation. We 
have the resources. The required technology is at hand or just around 
the corner of development. These are not the issues. The issue is 
national will. Space exploration has become a part of our culture. The 
public believes that flying in space is part of who we are as a nation. 
``Space exploration is an element of our national being'' [Harrison 
Schmidt, former astronaut and former Senator from New Mexico]. Our 
robotic explorers generate enormous interest when they fly and land on 
other planets. But the public expectation is that these robotic 
missions are a prelude to sending humans.
    What the public wants is clarity of purpose. A Space Station 
advertised as ``the next logical step'' without filling in the blank 
``to what'' doesn't do it. There is a growing chorus of leaders inside 
and outside of government concerned that NASA's post-Columbia-
investigation posture is business as usual. The consensus of many is 
that a coherent vision for human spaceflight over the next several 
decades is required, one that has a clear sense of purpose and 
destination. According to Neil Lane, former NSF Director and 
Presidential Science Advisor, ``Unless we can get a clear, stated 
mission, we should step back and not risk further lives.''
    Sooner or later we must have a clear destination for human 
spaceflight or it will not survive, and America will be much the poorer 
for it. And a new option doesn't have to be funded like Apollo, it can 
proceed at a steady pace. The country needs the challenge of grander 
exploration to justify the risk, lift our sights, fuel human dreams, 
and advance human discovery and knowledge. We need to go somewhere!
    There are organizations outside NASA and the U.S. Government that 
are addressing this issue. The International Academy of Astronautics is 
conducting a study entitled ``The Next Steps in Exploring Deep Space''. 
Its purpose is to provide a logical and systematic roadmap for the 
long-term scientific exploration of the solar system beyond Earth orbit 
with a goal to land humans on Mars sometime in the next 50 years. The 
study will be completed this coming spring and envisions the 
establishment of a permanent human presence in space using an 
evolutionary approach to the development of space transportation 
infrastructure utilizing well-defined intermediate destinations as 
stepping stones to Mars.
    In addition, a workshop this past spring run by three 
organizations--The Planetary Society (TPS), the American Astronautical 
Society (AAS) and the Association of Space Explorers (ASE)--has made 
recommendations for near-term actions to solve our post-Columbia 
problems in human transportation to Earth orbit. My testimony draws 
heavily on the results from this joint workshop and from the IAA study. 
The workshop statement and a short briefing on the interim results of 
the IAA study are attached.
The Exploration Imperative
    Beginning in 1952, a series of symposiums on space travel were held 
at New York City's Hayden Planetarium that attracted the greatest 
visionaries of the day, including Werner von Braun, Willey Ley, and the 
space artist Chesley Bonestel. That vision of our future was 
subsequently captured in a series of illustrated articles for Collier's 
Magazine, launching a national dream of space exploration. As a nation 
of people who make dreams happen, and who explore to provide for a 
better life, we didn't do too badly with making that mid-Century dream 
of space travel come true. But after the Apollo missions the dream to 
move on was put on hold. So why should we revive that dream to explore 
space in this new 21st Century? For the same reasons that we explored 
and developed air travel in the 20th Century. Because it challenges us! 
At the beginning of the 20th Century in America the great public 
adventures were exploration of the polar regions of Earth and powered 
flight through the air. A century later, millions of humans travel in 
comfort through the air to destinations around the planet. No one in 
1900 could have dreamed it possible to fly in comfort from New York to 
Paris in just over six hours.
    And so it will be in the 21st Century. At the beginning of this 
century we know how to travel in space, but are only just on its edge. 
We fly into space on dangerous, unwieldy, bolted-together hunks of thin 
metal and bulky propellant, spinning around our own planet in a fragile 
metal can strung together with cables and trusses. In one of history's 
major anomalies, we even flew men to the Moon and back 30 years ago, 
but are unable to do it now. By the end of the 21st Century, space 
travel will be as commonplace as air travel is at the end of the 20th. 
We just can't predict the details right now, just as the Wright 
Brothers could never have imagined a Boeing 747 in 1903.
    Exploration and the drive to discover and understand are qualities 
that have allowed the humans to survive and become the dominant species 
on the planet. Human beings strive to know and understand what 
surrounds them. By exploring the unknown, humans gain security and 
dispel fear of the unknown, of what is beyond. This survival mechanism 
is encoded in our genes. Just as human civilization uses the challenge 
of exploration to hone scientific and technological skills for 
survival, and exploits the adventure to provide hope for the future, 
human populations also have a need for heroes to provide inspiration. 
This is particularly important for our youth, who need to be provided 
with a positive vision for their future. Every generation has had its 
heroes. Today, the astronaut is a hero figure because astronauts carry 
out adventurous work that achieves exciting goals, personifying the 
kind of life that our youth would like to lead. Space exploration 
presents a positive image of the future and inspires our youth towards 
achievement.
The Science Imperative
    In the 1960s, the space program was popular in the U.S. because the 
public knew precisely what the goal was, how the game was played and 
followed every play. Today, the public's innate acceptance of the 
abstract notion of exploration as a human imperative does not 
necessarily extend to their checkbook without clear articulation of 
goals and benefits. Today the public benefit can be expressed as a 
clear set of goals because science and technology has progressed to the 
point where it can dare attempt answer some of the most burning 
questions that human beings have been asking since they started gazing 
upward at the sky. Questions such as `Where do we come from?' and `What 
will happen to us in the future?' and `Are we alone in the Universe?' 
These very fundamental human questions can be recast as scientific 
challenges--goals to be achieved in the course of exploring space. And 
from these scientific goals, plans can be formulated for both robotic 
and human explorers including the destinations and the exploration 
objectives of each.
    Where did we come from? This is a question that approaches the 
contemplation of existence. Even so, astronomers can address the 
question by determining how the Universe began and evolved, and 
learning how galaxies, stars and planets formed, and searching for 
Earth-like planets around other stars. The answers require large and 
complex space telescope systems made possible by human construction and 
servicing in space.
    What will happen to us in the future? Every human wonders about the 
future. One form of this question asks if there is any threat to us 
from space, especially from earth-crossing asteroids. The answer will 
come from surveys of the earth-crossing asteroid population in space 
and space missions that determine their composition and structure. 
Another form of this question asks what future humans have in traveling 
to and living on other planets. Is our species destined to populate 
space? Ultimately I believe the answer is yes, and the information will 
come from exploring space and utilizing the resources we can find in 
the most promising places in space such as Mars.
    Are we alone in the Universe? Every human being wants to know the 
answer to this question. We are compelled to find its answer. Some find 
comfort in the notion that we should be alone; others are fearful of 
the potential for other life ``out there''. Most scientists see the 
possibilities and are overwhelmed by the notion that the universe might 
be teeming with life; at least microbial life and perhaps even 
intelligent forms. We will find the answer by searching for life in the 
most promising places in the solar system such as Mars, and by looking 
for signs of life on planets outside the solar system with space 
telescopes.
Destinations
    The IAA study starts with these public questions and defines the 
scientific objectives required to answer them. The scientific 
objectives in turn determine what kind of exploration is required at 
which destinations in the solar system. Four destinations for human 
exploration result from this exercise: the Sun-Earth Lagrangian point 
L2, the Moon, Near-Earth Asteroids, and Mars.
    Mars, the most distant and most challenging of these destinations, 
is also the most scientifically rewarding and the one place that can 
galvanize human interest like no other. It is the logical destination 
for humans in the next decades of our new century. Mars is the most 
Earth-like of all the other planets in our solar system. It may have 
had life in its early history, it might possibly harbor microbial life 
below its surface today, and one day in the distant future it may 
become a new home for human kind. It has fascinated humans for 
centuries and it is within our reach.
    A brief description of the scientific and exploration utility of 
the four identified human destinations are described below, arranged in 
order of energetic difficulty for a systematic, progressive approach to 
exploration beyond Earth orbit.
    Sun-Earth Lagrangian Point L2 (SEL2) is a point about 1 million 
miles from the dark side of the Earth opposite the Sun that is the site 
of choice for future space astronomical telescopes that will search for 
and image Earth-like planets around other stars. These telescopes will 
of necessity be large, complex systems requiring servicing by 
astronauts in a manner similar to the Hubble Space Telescope. SEL2 is 
easy to get to, with round trip times on the order of 2-3 weeks and 
could serve as the initial step in developing a deep space 
transportation capability.
    The Moon is a scientifically rewarding destination where we can 
obtain information on the probability for impact of asteroids on the 
Earth, on the history of the Sun and its effect on the Earth's 
environment, and perhaps on the earliest history of the Earth itself. 
The proximity of the Moon makes it attractive as a potential proving 
ground for surface systems, habitats and other technologies, possibly 
including the use of lunar resources, but it is not necessarily on the 
critical path to Mars exploration.
    Near-Earth Objects travel in orbits between the Earth and Mars and 
represent both a potential resource in space and a potential impact 
hazard to Earth. Robotic missions to these objects will be necessary to 
assess these potentials. The jury is out on whether human missions 
would be necessary for these purposes, but there is no doubt that a 
one-year human mission to a Near-Earth Object would serve as an 
excellent intermediate step before any mission to Mars. An NEO human 
mission would provide a lower-risk test flight of the systems necessary 
to reach Mars.
    Mars is the ultimate destination for humans in the first half of 
this century. It is on this most Earth-like planet that humans can 
establish a permanent presence--utilizing resources the planet has to 
offer from its atmosphere, soil and subsurface ice and water. The 
scientific goals will be to understand the similarities and differences 
between Earth and Mars, particularly the history of water and its 
distribution on Mars, the geological and climatological histories of 
Mars and a search for evidence of past or present life. The question of 
possible life on another world is probably the largest driver for 
humans in space and particularly for Mars exploration.
    Our ultimate ability to reach these destinations requires that 
architectures developed today for transportation from the Earth's 
surface to orbit have a top-level requirement to consider the future 
needs for space transportation to deep space. Otherwise, it is likely 
that a solution will be derived that is useless for the next step 
beyond Earth orbit.
The Architecture
    The IAA study proposes an architecture for enabling this vision. 
Mars is the goal, but intermediate destinations are identified that 
comprise a progressive approach to this long-term objective. The 
approach is science-based to address key questions of public interest. 
These science goals provide the context for destinations, capabilities 
and technology investments. It is a stepping-stone approach in which 
there is a logical progression to successively more difficult 
destinations. This approach requires incremental investments to 
maintain progress, rather than huge new budgets, and destinations can 
be adjusted to manage cost and risk. Major new technology developments 
early in the program are avoided to reduce cost. Solar electric and 
nuclear electric propulsion, which are already under development, along 
with improved chemical propulsion can meet early transportation needs. 
Cargo and crew are separated to minimize crew risk and flight time. 
Cargo, supplies, and exploration equipment travel slower on more 
efficient electric propulsion systems in advance of the crew, who use 
faster but less efficient chemical propulsion systems.
    The IAA study proposes development first of a chemically propelled 
Deep Space Transportation Vehicle (DSTV) initially capable of carrying 
astronauts from low-Earth orbit to SEL2. The DSTV would be equally 
capable of carrying astronauts to lunar orbit if it is decided that 
lunar missions are an important step toward Mars. Later this vehicle 
could be upgraded for the much longer trips to NEOs and Mars. A 
separate electrically propelled Deep Space Cargo Vehicle (DSCV) would 
be developed to carry equipment and supplies to these same 
destinations.
    The IAA study does not address Earth-to-orbit infrastructure 
requirements. This has been done by the TPS/AAS/ASE workshop that 
recommends the retirement of the Shuttle after the ISS has been 
completed. Both the IAA study and the TPS/AAS/ASE workshop recognize 
the potential of utilizing non-US launch systems to carry crew and 
cargo to low Earth orbit. In addition, new vehicles for Earth to orbit 
transportation, separating crew from cargo, would be developed that 
take into account crew and cargo Earth-to-orbit lift requirements for 
further exploration beyond Earth orbit.
    The Space Station is not on the critical path in the IAA 
transportation architecture. Its high inclination orbit creates a 
severe penalty for Station-launched missions to the Moon and planets. 
However, the Space Station is required in order to study the effects of 
space travel on humans and to develop the technologies required for 
human support during long-term space flight.
Robots and Humans
    So how do we implement such a plan, do we use human or robotic 
missions? The answer has always been: both. The robotic and human space 
exploration enterprises have co-existed and cooperated during the space 
program's entire history. The relevant question is whether any 
potential investigation requires using human explorers, with their 
associated cost. The argument often used to dismiss humans is that 
technology will produce a machine with sufficient intelligence and 
dexterity to render a human unnecessary. The time to develop such a 
machine, however, may be either unpredictable or too long to meet a 
reasonable schedule. No matter how clever or useful the robots we make, 
they will always be tools for enhancing human capabilities.
    There is a role for both robots and humans. The strategy is to use 
robotic means for reconnaissance and scientific exploration to the full 
extent that robots can accomplish the desired goals. At the point when 
human explorers are sent, robotic missions can be used to establish 
local infrastructure before the arrival of humans. This is implemented 
using robotic outposts, which are later occupied and utilized by the 
human explorers. During human occupation, robots provide required 
support services and become sensory extensions and tools for human 
explorers.
    In any case, science cost effectiveness is not a good exclusive 
metric for assessing human vs. robotic modes for scientific exploration 
because the decision to proceed with human exploration will not be made 
on scientific grounds alone. Human exploration of space is motivated by 
societal factors other than science. Nonetheless, when a decision is 
made to continue human exploration beyond Earth orbit, it will provide 
a tremendous opportunity for scientist-explorers and science should be 
a motivating force in defining human space exploration goals.
    A space exploration enterprise that satisfies the public requires 
humans in space. In the minds of the public, robotic exploration is an 
extension of the human experience and a prelude to human exploration 
itself. Robotic exploration is the method of choice for reconnaissance 
and scientific investigation to the extent that robots can accomplish 
the desired goals. However, only human explorers will ultimately to 
fulfill the public's sense of destiny in space.
The Bottom Line
    The human spaceflight program needs to be set on a new path that 
leads to a future that the public has been expecting for decades--a 
path that takes humans beyond Earth orbit to new, important 
destinations in the solar system.
    We need a national vision that sets a destination for human 
exploration and systematically pursues its fulfillment with both 
robotic and human spaceflight.
    Drawing heavily on the IAA study, I believe this vision should 
involve:

  1.  The goal of establishing a permanent human presence in the solar 
        system with the stated objective to establish human presence on 
        Mars by the middle of this Century.

  2.  Recognition that exploration beyond Earth orbit is intrinsically 
        global, and should involve cooperation with other space-faring 
        nations.

  3.  A progressive, step-by-step approach for human exploration beyond 
        Earth orbit that does not require an Apollo-like spending 
        curve. Any requirements for increased spending can then be made 
        incrementally on an annual basis.

  4.  A set of exciting and rewarding destinations in this step-by-step 
        approach to Mars including the Sun-Earth Lagrangian Point L2, 
        the Moon and Near-Earth Asteroids.

  5.  Re-invention of our Earth-to-orbit transportation and on-orbit 
        infrastructure to support the goals for exploration beyond 
        Earth orbit. The current Space Shuttle and International Space 
        Station are not on that critical path other than research on 
        human physiology in space.

  6.  Development of new in-space systems for transporting humans and 
        cargo from low Earth orbit to deep space destinations. No large 
        technological breakthroughs are necessary.

  7.  Continued use of robotic missions for scientific research and 
        preparation for future human flights. Robotic precursor 
        missions will be required to reduce the risk for human 
        explorers and to provide on-site support for humans. Human 
        explorers will be required for intensive field exploration and 
        for in-space servicing of complex systems.

    Drawing heavily from the TPS/AAS/ASE workshop, some near-term 
actions to enable this policy (specifically number 5 above) are:

  1.  The Shuttle should be retired after flying only those missions 
        necessary to complete the International Space Station in favor 
        of a simpler, safer and less costly system for transporting 
        humans to and from Earth orbit.

  2.  Human transport to and from space, and within space, should be 
        separated from related cargo transport. New Earth-to-orbit 
        transportation systems for humans and cargo should be designed 
        and built, but not until the requirements for human exploration 
        beyond Earth orbit are understood and can be accommodated.

  3.  The U.S. should carry out its obligations to its international 
        partners to complete the International Space Station. The goals 
        of the ISS should be refocused to those specific purposes 
        required to enable human exploration beyond Earth orbit.

    None of this will happen if we go on as we are. The national will 
to carry out a new option for space exploration already exists in the 
people of the United States. The nation has the necessary wealth. It is 
only a matter of leadership by the Administration and Congress. The 
architecture advocated here does not require an immediate large 
increase in the NASA budget. It does require a commitment to the 
resources required as the space program gradually and systematically 
increases in scale and scope, but not so much in any one year as would 
be required for an Apollo-like initiative.
    We need a commitment from the Administration and Congress to a 
manifest destiny for America in space.
                        STEPPING INTO THE FUTURE
                 A Workshop in Memory of the Columbia 7
    On April 29-30, 2003, The Planetary Society, the Association of 
Space Explorers, and the American Astronautical Society held a workshop 
at the George Washington University's Space Policy Institute about the 
future of human space transportation. The following conclusions have 
been endorsed by The Planetary Society and the American Astronautical 
Society and by a number of astronauts present at the workshop. ASE did 
not take a formal position on the conclusions.
Conclusions
    Human space exploration is a great and unifying enterprise of 
planet Earth. The loss of Columbia reminds us that astronauts are the 
emissaries of humankind as part of our civilization's aspirations for 
great achievements and new discoveries. The United States' commitment 
to human exploration reflects humankind's movement outward from Earth, 
to become eventually a multi-planet species. We do this to understand 
and cope with the limits of Earth, its finite resources and indeed its 
finite lifetime, and to satisfy the innate desire of people to advance 
civilization and understand their place in the universe. We do this not 
just for our own country, but also for all our planet's citizens. 
Furthermore, the space enterprise provides a unique means of building 
national intellectual, technical and personal capabilities. It is a 
commitment to a positive future.
    The Planetary Society, the Association of Space Explorers-USA, and 
the American Astronautical Society convened a group of experts at a 
workshop, in memory of the Columbia space shuttle crew, to assess 
launch vehicle requirements to meet the needs of human space 
exploration beyond Earth orbit. Our conclusions from this assessment 
are:
The Imperative

  <bullet> There are strong societal imperatives for exploring space. 
        The natural curiosity to explore new frontiers coupled with an 
        instinctive desire to preserve the future of humankind 
        motivates our continued exploration of space. Space exploration 
        will provide new knowledge and resources for a more prosperous 
        and secure future.

  <bullet> There are fundamental questions concerning our cosmic 
        origin, our future and whether or not we are alone in the 
        universe. Science in pursuit of these questions can provide a 
        credible goal-oriented strategy for an evolutionary approach to 
        exploring deep space destinations with both robots and humans.

  <bullet> The exploration of deep space by humans will be energized by 
        the goals of individual nations woven into an international 
        enterprise and infused with a sense of human destiny in space.
The Destinations

  <bullet> The most important scientific destinations for human 
        explorers are the Moon, Mars, Near-Earth Objects and the Sun-
        Earth Lagrangian point L2 \1\ (for astronomical observatories).
---------------------------------------------------------------------------
    \1\ Lagrangian points (L1-L5) are points in space where the 
gravitational forces from the two most nearby influential gravitational 
masses (in this case the Sun and Earth) are in equilibrium.

  <bullet> Mars is the ultimate destination for human explorers in the 
        foreseeable future. Consequently the robotic Mars exploration 
        program should progress beyond sample return to robotic 
        outposts in preparation for human presence.
A Strategy

  <bullet> By adopting a phased approach to human exploration beyond 
        Earth orbit, we can develop a cost-effective program that is 
        exciting, scientifically rewarding and for which the risks can 
        be measured and managed.

  <bullet> The initial stages of a robust human exploration 
        architecture can proceed using existing and currently planned 
        propulsion technologies.

  <bullet> We see no essential role for continuing flight of the 
        shuttle orbiter beyond its immediate goal of completing 
        construction of the International Space Station and early 
        transport of crewmembers to and from the Station. As soon as an 
        alternate mode of human transport into and from low Earth orbit 
        (LEO) is available, which should be accomplished as soon as 
        possible, the shuttle orbiter should be retired.

  <bullet> Crew and cargo should be transported separately to increase 
        flexibility, reduce cost and reduce risk associated with human 
        space exploration.

  <bullet> The underutilized fleet of existing expendable launch 
        vehicles should play a major role in the next stages of human 
        space exploration, as well as in human and cargo transportation 
        into LEO.

  <bullet> Increased investment in on-orbit operations and in-space 
        propulsion technologies is required.
International Cooperation

  <bullet> Exploration beyond Earth orbit is an intrinsically global 
        enterprise. It is unlikely that any nation acting alone will 
        commit the necessary resources for a major human exploration 
        mission initiative beyond Earth orbit.

  <bullet> International partnerships provide tangible benefits for 
        human space exploration. These include broadening public and 
        political support, sharing of the cost and risk, adding 
        resiliency and enriching the scientific and technological 
        content.

  <bullet> To this end all space faring nations should strengthen 
        mechanisms for exchanging information on human exploration 
        activities and plans, increase international participation in 
        robotic exploration missions, and explore mechanisms for 
        sharing critical roles among partners.
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
        
        
 
    The Chairman. Thank you. Dr. Zubrin.

          STATEMENT OF DR. ROBERT ZUBRIN, PRESIDENT, 
                          MARS SOCIETY

    Dr. Zubrin. Thank you. Mr. Chairman, Members of the 
Committee, thank you for inviting me here to testify today. Why 
is NASA stuck in low-Earth orbit? To answer this question, you 
need to take a look at the two fundamental ways that NASA has 
operated in its history, which breaks down basically into two 
different periods. There's the period from 1961 to 1973, which 
therefore may be fairly called the Apollo period, and the 30 
years since, which can be called the shuttle era or called 
well, there it is.
    In the Apollo method of operation, the way things work are 
as follows. The Nation's political leadership sets a focus goal 
for the human space flight program. NASA develops a plan on how 
to achieve that goal. Vehicles are designed to implement that 
plan. Those vehicles are built and the plan is flown.
    In the shuttle era mode, what happens instead? In this 
mode, technologies and hardware elements are developed in 
accord with the wishes of various technical communities. These 
projects are then justified by arguments that they might prove 
useful later at some time in the future when grand projects are 
attempted. So, in other words, contrasting these approaches, 
what you see is that the Apollo mode is destination-driven, the 
shuttle mode is constituency-driven, driven by the 
constituencies within the various NASA centers, aerospace, 
major corporations, and elsewhere.
    If you want to understand it even more clearly, consider an 
analogy. Imagine two couples, two young couples, both want to 
build their own house. Couple number one has an idea of the 
kind of house they want, so they hire an architect to design 
that house. They then acquire building parts to build out that 
design and they build the house. Couple number two polls their 
neighbors on what house parts they might have for sale, buy 
those that are most convincingly marketed, acquire a random set 
of house parts, which they pile up in their back yard, and then 
when their relatives come by and ask them why do you have all 
this junk in your back yard, they say, well, it's to build a 
house. They say, really, show me the design, so they hire an 
architect to design a house that includes all these parts.
    Now such a house design obviously becomes incredibly 
complex and can never be built, but that's not the point. The 
plan provides a convincing rationale justifying the purchases. 
That's the shuttle mode. That's what we've got to break from.
    The problem with NASA's lack of current achievement is not 
money. If you look at the average NASA budget, if you take 
NASA's total budget from 1961 to 1973, translate it into 
current dollars, average it out over the 12 years, it's $17 
billion a year. NASA's current budget is only 10 percent less 
than that. The problem is lack of focus, it's lack of a goal.
    What should the goal be? As Dr. Huntress has said, it 
should be humans to Mars. Mars is where the science is, Mars is 
where the challenge is and Mars is where the future is. 
However, it shouldn't be humans to Mars in 50 years, it should 
be humans to Mars in 10. This is possible. Despite whatever 
statements people have made about problems, real or imagined, 
the fact remains that we are much better prepared today to send 
humans to Mars than we were to send men to the moon in 1961 
when Kennedy started the moon program and we were there 8 years 
later.
    We can do this. We do not need gigantic nuclear electric 
spaceships to send people to Mars. That is pork, it's nonsense. 
We can go to Mars with chemical propulsion, you can get to Mars 
in 6 months with chemical propulsion. You can overcome all the 
problems of weightlessness by not going in zero gravity, you 
can spin up the spacecraft, you have artificial gravity, you 
don't get these bone and muscle problems. We don't need to 
spend 30 years on orbit watching astronauts' musculature 
degrade in 0 G to verify that it degrades in 0 G. We can avoid 
it through engineering solutions.
    The way you get humans to Mars without complex futuristic 
mega-spacecraft is this. You do it in two launches of a Saturn 
5-class booster, which you can create by either re-engineering 
the Saturn 5 or converting the shuttle, lose the orbiter, 
replace it with an upper stage interfering, you have a Saturn 
5-class capability that can lift 120 tons to Earth orbit or 
throw 40 to 50 tons to either the moon or Mars.
    Then you do the mission in two launches. The first launch 
you send to Mars an unmanned Earth-return vehicle, nobody in 
it, it flies out to Mars on fuel too. It takes 8 months to get 
there, minimum energy trajectory, you land it on Mars, you run 
a pump. You suck in the Martian air, which is carbon dioxide, 
you react the carbon dioxide with a small amount of hydrogen 
that you bring from Earth, produces a large supply of methane 
oxygen rocket propellant. Now you have a fully fueled Earth-
return vehicle sitting waiting for you on the surface of Mars. 
This is 19th century chemical engineering.
    Then once that is done you launch the crew to Mars. Because 
the return ride is waiting on Mars, you don't need to fly to 
Mars in that gigantic Battlestar Galactica spaceship. You fly 
to Mars in a basic habitation module like a big tuna can with a 
life support system in it. You fly out to Mars, take 6 months 
to get there, you land near the Earth-return vehicle, use the 
hab as your house on Mars, as your lab on Mars for a year and a 
half, and you get a launch window back to Earth. You get in the 
Earth-return vehicle, you fly home. You leave the hab behind on 
Mars so each time you do this you add another hab to the base. 
Before you know it we've begun the beginning of the first human 
settlement on a new world. There is nothing in there that's 
beyond our capability.
    That's a short explanation. If you want a longer one, 
there's a whole book on it, which I'd be happy to give to every 
member of this Committee, that explains the plan in depth. Now, 
how do we make this happen now? You've got to get NASA back on 
the Apollo mode of thinking. How do you do that? Reject their 
requests to fund things. Do not fund the orbital space plane 
for $17 billion. It's a thing that is not integrated into any 
plan. It will not take you anywhere.
    Instead, what you should do this year is fund them $60 
million to fund two $30 million 6-month studies, one by NASA 
JSC, one by an interagency task force led by somebody from the 
non-NASA space community, two competing teams, each 
commissioned to develop a plan to get humans to Mars in 10 
years with a cost cap of say $30 billion for all the 
development, $3 billion for the recurring mission, have them 
report back with their plans, present it to a blue ribbon 
commission headed by somebody like Admiral Gehman or whomever 
to judge the plans for feasibility, cost, technical merit, 
exploratory punch, choose the better plan, choose the better 
team, and fund that plan.
    It is within your power to make this happen. It is within 
your power to give the American people a space program that is 
actually going somewhere, and I ask that you do so. Thank you 
for your attention.
    [The prepared statement of Dr. Zubrin follows:]

    Prepared Statement of Dr. Robert Zubrin, President, Mars Society
    Senator McCain, members of the Commerce Committee, I would like to 
thank you for inviting me to testify here today on the future of the 
U.S. space program. Since many of you may be unfamiliar with me, I hope 
you will forgive me if I take a few seconds to establish my 
credentials. I am an engineer with a Masters degree in Aeronautics and 
Astronautics, a doctorate in Nuclear Engineering, and fifteen years 
aerospace industry experience. I currently lead my own company, Pioneer 
Astronautics, which has five NASA and military R&D contracts at this 
time. I am the author or co-author of over 100 papers, three patents, 
and five books related to the field, and am the head of an 
international non-profit organization known as the Mars Society which 
has built and run a human Mars exploration operations research station 
on Devon Island, 900 miles from the North Pole.
    My remarks today will address four areas. First, I will discuss why 
NASA is failing, and what fundamental change in method of operation 
needs to be undertaken if the space agency is to be made effective 
again, and in particular, explain why an overarching goal must be 
adopted if that is to occur. Second, I will explain what that goal 
should be. Third, I will present a plan for a pioneering space program 
that would allow NASA fulfill its promise and achieve that goal within 
ten years. Finally, I will make specific recommendations as to what 
Congress and the Executive branch need to do this year in order to put 
the space program on the right track.
1. Why is NASA Failing?
    In the recent Columbia hearings, numerous members of congress 
continually decried the fact that the U.S. space program is ``stuck in 
Low Earth Orbit.'' This is certainly a serious problem. If it is to be 
addressed adequately, however, America's political leadership needs to 
reexamine NASA's fundamental mode of operation.
    Over the course of its history, NASA has employed two distinct 
modes of operation. The first, prevailed during the period from 1961-
1973, and may therefore be called the Apollo Mode. The second, 
prevailing since 1974, may usefully be called the Shuttle Era Mode, or 
Shuttle Mode, for short.
    In the Apollo Mode, business is conducted as follows. First, a 
destination for human spaceflight is chosen. Then a plan is developed 
to achieve this objective. Following this, technologies and designs are 
developed to implement that plan. These designs are then built, after 
which the mission is flown.
    The Shuttle Mode operates entirely differently. In this mode, 
technologies and hardware elements are developed in accord with the 
wishes of various technical communities. These projects are then 
justified by arguments that they might prove useful at some time in the 
future when grand flight projects are initiated.
    Contrasting these two approaches, we see that the Apollo Mode is 
destination driven, while the Shuttle Mode pretends to be technology 
driven, but is actually constituency driven. In the Apollo Mode, 
technology development is done for mission directed reasons. In the 
Shuttle Mode, projects are undertaken on behalf of various internal and 
external technical community pressure groups and then defended using 
rationales. In the Apollo Mode, the space agency's efforts are focused 
and directed. In the Shuttle Mode, NASA's efforts are random and 
entropic.
    Imagine two couples, each planning to build their own house. The 
first couple decides what kind of house they want, hires an architect 
to design it in detail, then acquires the appropriative materials to 
build it. That is the Apollo Mode. The second couple polls their 
neighbors each month for different spare house-parts they would like to 
sell, and buys them all, hoping to eventually accumulate enough stuff 
to build a house. When their relatives inquire as to why they are 
accumulating so much junk, they hire an architect to compose a house 
design that employs all the knick-knacks they have purchased. The house 
is never built, but an adequate excuse is generated to justify each 
purchase, thereby avoiding embarrassment. That is the Shuttle Mode.
    In today's dollars, NASA average budget from 1961-1973 was about 
$17 billion per year. This is only 10 percent more than NASA's current 
budget. To assess the comparative productivity of the Apollo Mode with 
the Shuttle Mode, it is therefore useful to compare NASA's 
accomplishments between 1961-1973 and 1990-2003, as the space agency's 
total expenditures over these two periods were equal.
    Between 1961 and 1973, NASA flew the Mercury, Gemini, Apollo, 
Skylab, Ranger, Surveyor, and Mariner missions, and did all the 
development for the Pioneer, Viking, and Voyager missions as well. In 
addition, the space agency developed hydrogen oxygen rocket engines, 
multi-staged heavy-lift launch vehicles, nuclear rocket engines, space 
nuclear reactors, radioisotope power generators, spacesuits, in-space 
life support systems, orbital rendezvous techniques, soft landing 
rocket technologies, interplanetary navigation technology, deep space 
data transmission techniques, reentry technology, and more. In 
addition, such valuable institutional infrastructure as the Cape 
Canaveral launch complex, the Deep Space tracking network, Johnson 
Space Center, and JPL were all created in more or less their current 
form.
    In contrast, during the period from 1990-2003, NASA flew about 
three score Shuttle missions allowing it to launch and repair the 
Hubble Space Telescope and partially build a space station. About half 
a dozen interplanetary probes were launched (compared to over 30 lunar 
and planetary probes between 1961-73). Despite innumerable ``technology 
development'' programs, no new technologies of any significance were 
actually developed, and no major space program operational 
infrastructure was created.
    Comparing these two records, it is difficult to avoid the 
conclusion that that NASA's productivity in both missions accomplished 
and technology development during its Apollo Mode was at least ten 
times greater than under the current Shuttle Mode.
    The Shuttle Mode is the expenditure of large sums of money without 
direction by strategic purpose. That is why it is hopelessly 
inefficient. But the blame for this waste cannot be placed on NASA 
leaders alone, some of whom have attempted to rectify the situation. 
Rather, the political class must also accept major responsibility.
    Consider the following. During the same week in September that 
House members were roasting Administrator O'Keefe for his unfortunate 
advocacy of a destination-free NASA, a Senate committee issued a report 
saying that a top priority for the space agency was to develop a 
replacement Space Shuttle system. Did any of the Senators who supported 
this report explain why? Why do we need another Shuttle system? To keep 
doing what we are doing now? But is that what we actually want to do?
    Congress and the Executive branch need to get together and open a 
discussion as to what the Nation actually wants to accomplish in space. 
Hearings should be held, and the options for a strategic objective 
examined in public. Is our primary aim to keep sending astronauts on 
joyrides in low Earth orbit? In that case, a second generation Shuttle 
might be worth building. But if we want to send humans to the Moon or 
Mars, we need make that decision, and then design and build a hardware 
set that is appropriate to actually accomplish those goals.
    Advocates of the Shuttle Mode claim that by avoiding the selection 
of a destination they are developing the technologies that will allow 
us to go anywhere, anytime. That just isn't true. The Shuttle Mode will 
never get us anywhere at all. The Apollo Mode got us to the Moon, and 
it can get us back, or take us to Mars. But leadership is required.
    In the beginning, there was the Word.
2. What Should our Goal Be?
    In order to accomplish anything in space we need to set a goal. 
What should that goal be? In my view, the answer is straightforward: 
Humans to Mars within a decade.
    Why Mars? Because of all the planetary destinations currently 
within reach, Mars offers the most, both scientifically, socially, and 
in terms of what it portends for the human future.
    In scientific terms, Mars is critical, because it is the Rosetta 
Stone for letting us understand the position of life in the universe. 
Images of Mars taken from orbit show that the planet had liquid water 
flowing on its surface for a period of a billion years during its early 
history, a duration five times as long as it took life to appear on 
Earth after there was liquid water here. So if the theory is correct 
that life is a naturally phenomenon, emergent from chemical 
complexification wherever there is liquid water, a temperate climate, 
sufficient minerals, and time, then life should have appeared on Mars. 
If we can go to Mars, and find fossils of past life on its surface, we 
will have good reason to believe that we are not alone in the universe. 
If we send human explorers, who can erect drilling rigs which can reach 
ground water where Martian life may yet persist, we will be able to 
examine it, and by so doing determine whether life as we know it on 
Earth is the pattern for all life everywhere, or alternatively, whether 
we are simply one esoteric example of a far vaster and more interesting 
tapestry. These things are worth finding out.
    In terms of its social value, Mars is the bracing positive 
challenge that our society needs. Nations, like people, thrive on 
challenge and decay without it. The challenge of a humans-to-Mars 
program would also be an invitation to adventure to every youth in the 
country, sending out the powerful clarion call: ``Learn your science 
and you can become part of pioneering a new world.'' There will be over 
100 million kids in our Nation's schools over the next ten years. If a 
Mars program were to inspire just an extra one percent of them to 
scientific educations, the net result would be 1 million more 
scientists, engineers, inventors, medical researchers and doctors, 
making technological innovations that create new industries, finding 
new medical cures, strengthening national defense, and generally 
increasing national income to an extent that utterly dwarfs the 
expenditures of the Mars program.
    But the most important reason to go to Mars is the doorway it opens 
for the future. Uniquely among the extraterrestrial bodies of the inner 
solar system, Mars is endowed with all the resources needed to support 
not only life but the development of a technological civilization. In 
contrast to the comparative desert of the Earth's Moon, Mars possesses 
oceans of water frozen into its soil as permafrost, as well as vast 
quantities of carbon, nitrogen, hydrogen, and oxygen, all in forms 
readily accessible to those clever enough to use them. These four 
elements are the basic stuff not only of food and water, but of 
plastics, wood, paper, clothing, and most importantly, rocket fuel.
    In addition, Mars has experienced the same sorts of volcanic and 
hydrologic processes that produced a multitude of mineral ores on 
Earth. Virtually every element of significant interest to industry is 
known to exist on the Red Planet. While no liquid water exists on the 
surface, below ground is a different matter, and there is every reason 
to believe that geothermal heat sources could be maintaining hot liquid 
reservoirs beneath the Martian surface today. Such hydrothermal 
reservoirs may be refuges in which survivors of ancient Martian life 
continue to persist; they would also represent oases providing abundant 
water supplies and geothermal power to future human settlers. With its 
24-hour day-night cycle and an atmosphere thick enough to shield its 
surface against solar flares, Mars is the only extraterrestrial planet 
that will readily allow large scale greenhouses lit by natural 
sunlight. Mars can be settled. For our generation and many that will 
follow, Mars is the New World. In establishing our first foothold on 
Mars, we will begin humanity's career as a multi-planet species.
    Mars is where the science is, Mars is where the challenge is, and 
Mars is where the future is. That's why Mars must be our goal.
3. How Do We Get There?
    Humans to Mars may seem like a wildly bold goal to proclaim in the 
wake of disaster, yet such a program is entirely achievable. From the 
technological point of view, we're ready. Despite the greater distance 
to Mars, we are much better prepared today to send humans to Mars than 
we were to launch humans to the Moon in 1961 when John F. Kennedy 
challenged the Nation to achieve that goal--and we were there eight 
years later. Given the will, we could have our first teams on Mars 
within a decade.
    The key to success come from rejecting the policy of continued 
stagnation represented by senile Shuttle Mode thinking, and returning 
to the destination-driven Apollo Mode method of planned operation that 
allowed the space agency to perform so brilliantly during its youth. In 
addition, we must take a lesson from our own pioneer past and from 
adopt a ``travel light and live off the land'' mission strategy similar 
to that which has well-served terrestrial explorers for centuries.
    The plan to explore the Red Planet in this way is known as Mars 
Direct. Here's how it could be accomplished
    At an early launch opportunity, for example 2009, a single heavy 
lift booster with a capability equal to that of the Saturn V used 
during the Apollo program is launched off Cape Canaveral and uses its 
upper stage to throw a 40-tonne unmanned payload onto a trajectory to 
Mars. (Such a booster could be readily created by converting the 
Shuttle launch stack, deleting the Orbiter and replacing it with a 
payload fairing containing a hydrogen/oxygen rocket stage.) Arriving at 
Mars eight months later, the spacecraft uses friction between its 
aeroshield and Mars' atmosphere to brake itself into orbit around the 
planet, and then lands with the help of a parachute. This payload is 
the Earth Return Vehicle (ERV). It flies out to Mars with its two 
methane/oxygen driven rocket propulsion stages unfueled. It also 
carries six tonnes of liquid hydrogen cargo, a 100 kilowatt nuclear 
reactor mounted in the back of a methane/oxygen driven light truck, a 
small set of compressors and automated chemical processing unit, and a 
few small scientific rovers.
    As soon as the craft lands successfully, the truck is 
telerobotically driven a few hundred meters away from the site, and the 
reactor deployed to provide power to the compressors and chemical 
processing unit. The hydrogen brought from Earth can be quickly reacted 
with the Martian atmosphere, which is 95 percent carbon dioxide gas 
(CO<INF>2</INF>), to produce methane and water, thus eliminating the 
need for long-term storage of cryogenic hydrogen on the planet's 
surface. The methane so produced is liquefied and stored, while the 
water is electrolyzed to produce oxygen, which is stored, and hydrogen, 
which is recycled through the methanator. Ultimately, these two 
reactions (methanation and water electrolysis) produce 24 tonnes of 
methane and 48 tonnes of oxygen. Since this is not enough oxygen to 
burn the methane at its optimal mixture ratio, an additional 36 tonnes 
of oxygen is produced via direct dissociation of Martian 
CO<INF>2</INF>. The entire process takes ten months, at the conclusion 
of which a total of 108 tonnes of methane/oxygen bipropellant will have 
been generated. This represents a leverage of 18:1 of Martian 
propellant produced compared to the hydrogen brought from Earth needed 
to create it. Ninety-six tonnes of the bipropellant will be used to 
fuel the ERV, while 12 tonnes are available to support the use of high 
powered, chemically fueled long range ground vehicles. Large additional 
stockpiles of oxygen can also be produced, both for breathing and for 
turning into water by combination with hydrogen brought from Earth. 
Since water is 89 percent oxygen (by weight), and since the larger part 
of most foodstuffs is water, this greatly reduces the amount of life 
support consumables that need to be hauled from Earth.
    The propellant production having been successfully completed, in 
2011 two more boosters lift off the Cape and throw their 40-tonne 
payloads towards Mars. One of the payloads is an unmanned fuel-factory/
ERV just like the one launched in 2009, the other is a habitation 
module carrying a crew of four, a mixture of whole food and dehydrated 
provisions sufficient for three years, and a pressurized methane/oxygen 
powered ground rover. On the way out to Mars, artificial gravity can be 
provided to the crew by extending a tether between the habitat and the 
burnt out booster upper stage, and spinning the assembly.
    Upon arrival, the manned craft drops the tether, aerobrakes, and 
lands at the 2009 landing site where a fully fueled ERV and fully 
characterized and beaconed landing site await it. With the help of such 
navigational aids, the crew should be able to land right on the spot; 
but if the landing is off course by tens or even hundreds of 
kilometers, the crew can still achieve the surface rendezvous by 
driving over in their rover. If they are off by thousands of 
kilometers, the second ERV provides a backup.
    However, assuming the crew lands and rendezvous as planned at site 
number one, the second ERV will land several hundred kilometers away to 
start making propellant for the 2013 mission, which in turn will fly 
out with an additional ERV to open up Mars landing site number three. 
Thus, every other year two heavy lift boosters are launched, one to 
land a crew, and the other to prepare a site for the next mission, for 
an average launch rate of just one booster per year to pursue a 
continuing program of Mars exploration. Since in a normal year we can 
launch about six Shuttle stacks, this would only represent about 16 
percent of the U.S. launch capability, and would clearly be affordable. 
In effect, this ``live off the land'' approach removes the manned Mars 
mission from the realm of mega-spacecraft fantasy and reduces it in 
practice as a task of comparable difficulty to that faced in launching 
the Apollo missions to the Moon.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Fig. 1 The Mars Direct plan. First an unfueled Earth Return Vehicle 
(ERV, right) is delivered to Mars where it manufactures its propellant 
from the Martian atmosphere. The crew then flies to Mars in the tuna-
can-shaped hab module, which also provides living quarters, lab, and 
workshop for a 1.5 year Mars stay. (Artwork courtesy of Robert Murray, 
Pioneer Astronautics.)

    The crew will stay on the surface for 1.5 years, taking advantage 
of the mobility afforded by the high powered chemically driven ground 
vehicles to accomplish a great deal of surface exploration. With a 12 
tonne surface fuel stockpile, they have the capability for over 24,000 
kilometers worth of traverse before they leave, giving them the kind of 
mobility necessary to conduct a serious search for evidence of past or 
present life on Mars--an investigation key to revealing whether life is 
a phenomenon unique to Earth or general throughout the universe. Since 
no-one has been left in orbit, the entire crew will have available to 
them the natural gravity and protection against cosmic rays and solar 
radiation afforded by the Martian environment, and thus there will not 
be the strong driver for a quick return to Earth that plagues 
alternative Mars mission plans based upon orbiting mother-ships with 
small landing parties. At the conclusion of their stay, the crew 
returns to Earth in a direct flight from the Martian surface in the 
ERV. As the series of missions progresses, a string of small bases is 
left behind on the Martian surface, opening up broad stretches of 
territory to human cognizance.
    In essence, by taking advantage of the most obvious local resource 
available on Mars--its atmosphere--the plan allows us to accomplish a 
manned Mars mission with what amounts to a lunar-class transportation 
system. By eliminating any requirement to introduce a new order of 
technology and complexity of operations beyond those needed for lunar 
transportation to accomplish piloted Mars missions, the plan can reduce 
costs by an order of magnitude and advance the schedule for the human 
exploration of Mars by a generation. Indeed, since a lunar-class 
transportation system is adequate to reach Mars using this plan, it is 
rational to consider a milestone mission, perhaps five years into the 
program, where a subset of the Mars flight hardware is exercised to 
send astronauts to the Moon.
    Exploring Mars requires no miraculous new technologies, no orbiting 
spaceports, and no gigantic interplanetary space cruisers We don't need 
to spend the next thirty years with a space program mired in impotence, 
spending large sums of money and taking occasional casualties while the 
same missions to nowhere are flown over and over again and professional 
technologists dawdle endlessly in their sand boxes without producing 
any new flight hardware. We simply need to choose our destination, and 
with the same combination of vision, practical thinking, and passionate 
resolve that served us so well during Apollo, do what is required to 
get there.
    We can establish our first small outpost on Mars within a decade. 
We and not some future generation can have the eternal honor of being 
the first pioneers of this new world for humanity. All that's needed is 
present day technology, some 19th century industrial chemistry, a solid 
dose of common sense, and a little bit of moxie.
4. What Congress Needs to Do Now
    The U.S. civilian space program is presently in a crisis. It is now 
apparent that the Shuttle Orbiter cannot be used much longer as a 
system for transporting crews to Earth orbit. The Columbia disaster has 
made it clear that the antiquated Orbiters are becoming increasingly 
unsafe. Moreover, even if the Orbiter could be flown safely, it is 
clear that using a launch vehicle with a takeoff thrust matching that 
of a Saturn V to transport half a dozen people to the Space Station 
makes about as much sense as using an aircraft carrier to tow water 
skiers. The Shuttle was designed as a self-launching space station. 
Absent a permanent space station on-orbit, such a vehicle had some 
justification. But with the establishment of the ISS, the rationale for 
using a flying Winnebago as a space taxi is no longer sustainable.
    NASA has already begun to respond to this reality by starting the 
Orbital Space Plane (OSP) program, which will move the human taxi-to-
orbit function from the Shuttle to a small capsule or mini-orbiter that 
can be launched on top of an Atlas or Delta. If constrained to the 
objective of producing a simple reliable capsule instead of a complex 
mini shuttle, such a program could make a great deal of sense. A simple 
capsule will be much safer than a more complex system, will have a much 
lower development cost, and can be made available for flight much 
sooner, thereby cutting short the risks and costs associated with 
prolonged Shuttle operations. Launched aloft a medium lift expendable 
launch vehicle, it could assume the Shuttle's crew transfer function at 
less than 1/5th the cost.
    As rational as such an approach might be, however, it poses a 
direct threat to the jobs of hundreds of thousands of people associated 
with the existing Shuttle program, and to the bottom line of several 
major and many minor aerospace companies. For this reason, some people 
have been lobbying for making the OSP a complex mini shuttle program 
that would take many years to complete, and cost, at most recent 
estimate, some $17 billion.
    This is the wrong approach, and is emblematic of the pathology 
associated with what we have termed NASA's Shuttle Mode of operation. 
The raid upon the treasury it involves would sap funding for any other 
space initiatives, and the delay it would entail in Shuttle replacement 
would expose our astronauts to serious unnecessary risk. Furthermore, 
despite patently false claims to the contrary, the wing-and-landing 
gear ballasted mini-Shuttle is wildly suboptimal for use in any 
missions beyond low Earth orbit.
    As presently constituted, Congress should not fund this program. 
Making a gold-plated mini-shuttle the centerpiece of NASA's development 
efforts for the next ten years would prevent any human exploration 
operations for a generation, at the end of which we would be no better 
prepared to commence piloted planetary exploration than we are today. 
In fact, we would be worse off, since by simply downsizing from the 
Orbiter to the OSP mini-Shuttle as a means of transporting humans to 
orbit at lower recurring cost, we would end up discarding the ten-
billion dollar asset represented by the STS launch stack. This would be 
a disaster, since in the context of a well-planned human exploration 
initiative, the STS stack would almost certainly be converted into a 
heavy lift vehicle, rather than scrapped. Such would be the 
consequences of adopting the piecemeal, reactive approach to dealing 
with the Shuttle/OSP problem.
    Rather than appropriate $17 billion for an OSP program that will 
not take us anywhere, Congress should appropriate $60 million to fund 
two six-month $30 million studies to develop end-to-end plans for human 
exploration of Mars. One of these $30 million studies should be 
conducted at NASA Johnson Space Center. The other $30 million should go 
to fund a competing interagency team led by someone from one of the 
non-NASA government space agencies. Each of these teams should be 
charged with the task of developing a complete space architecture and 
mission plan that enables humans to Mars within ten years of program 
start, with lunar missions enabled by a modified subset of the Mars 
mission hardware. Constraints should be placed on the plans such as a 
total development cost limit of $30 billion or less, with a recurring 
Mars mission cost no greater than $3 billion.
    Upon completion of the study, each of the plans should be submitted 
to a blue-ribbon panel appointed by Congress for evaluation on merit of 
cost, technical feasibility, and exploration capability. Based on that 
assessment, the team deemed superior should be selected to lead the 
human exploration program, and the hardware elements required to 
implement its plan should be funded and built in accordance with a 
multi-year schedule laid down in the plan, and then flown.
    Once again, Congress should not fund the construction of things. It 
should fund the implementation of a plan.
    Directing funding in this focused way does not preclude engaging in 
exploratory research. What it does mean, however, is that the 
technologies chosen for research and development are those necessary to 
enable or enhance the plan, rather than those needed to maintain or 
enhance the funding of established research and development 
constituencies.
    The recommendation to fund two competing program design teams may 
seem surprising to some. However the experience of the past several 
decades has made it clear that, absent the spur of competition, 
efficient plans will not be generated. The nation does not need a Mars 
program plan that is bloated with funding for a plethora of unnecessary 
technology and infrastructure developments. Yet the incentive of as 
bureaucracy is to use the Mars mission as a kind of Christmas tree upon 
which to hang various desired technology programs as ornaments. This is 
the problem that caused NASA to respond to the elder president Bush's 
call for a Space Exploration Initiative with a hopelessly bloated and 
overpriced plan in 1989, and is the root pathology that drove the 
generation of a hyper-complex gargantuan space program design by the 
NASA Headquarters NExT group during the more recent period.
    Mark Twain once said that nothing so focuses the mind as the 
knowledge that you are going to be shot in the morning. Only the 
certain knowledge that the cost increases associated with insertion of 
unnecessary elements in the mission plan threatens the complete loss of 
programmatic control will force either NASA or an alternative 
government organization to put parochial interests aside and design the 
best and most streamlined program possible.
5. Conclusion
    Senator McCain, distinguished members of the Commerce Committee. 
Humanity today stands at the brink of a liberating development which 
will be remembered far into future ages, when nearly all the other 
events of our time are long forgotten. That development is the 
initiation of the human career as a spacefaring species.
    The Earth is not the only world. There are numerous other planetary 
objects in our own solar system, millions in nearby interstellar space, 
and hundreds of billions in the galaxy at large. The challenges 
involved in reaching and settling these new worlds are large, but not 
beyond humanity's ultimate capacity. Were we to become spacefarers, we 
will open up a prospect for a human future that is vast in time and 
space, and rich in experience and potential to an extent that exceeds 
the imagination of anyone alive today. When we open the space frontier, 
we will open the door to the creation of innumerable new branches of 
human civilization, replete with new languages, new cultures, new 
literatures, new forms of social organization, new knowledge, 
technological contributions, and epic histories that will add 
immeasurably to the human story.
    We were once a small collection of tribes living in the east 
African rift valley. Had we stayed in our native habitat, that is all 
we would be today. Instead, we ventured forth, took on the challenges 
of the inhospitable ice age environments to the north, and then 
elsewhere, and in consequence, transformed ourselves into a global 
civilization. When we go into space, the expansion of our possibilities 
will be equally dramatic. As a result, the human experience a few 
thousand years from now will be as rich in comparison to ours, as our 
global society is in comparison to tribal culture of the Kenyan rift 
valley at the time of our species' origin.
    Therefore, I believe that we here today sitting in this historic 
chamber are gathered not at the end of history, but at the beginning of 
history. That our Nation shall be remembered not so much for the great 
deeds our predecessors have already done, but for the still greater 
accomplishments they have prepared us, and those who will follow us, to 
do. Let us therefore embrace our role as humanity's vanguard, as 
pioneers of the future. Let us honor the true American tradition by 
continuing it, and bravely take on the untamed space frontier to open 
new worlds for our posterity, as our courageous predecessors did for 
us.
    Ladies and gentlemen of the Senate, I ask that you embrace the 
challenge of Mars, and act forcefully to put NASA on a track that will 
deliver real results. The American people want and deserve a space 
program that is actually going somewhere. For that to occur, it needs 
be given a goal, from that goal a produce a plan, and from that plan, 
action. It is within your power to make this happen. It is within your 
power to initiate a program of exploration that will lead in time to 
the greatest flowering of human potential, knowledge, progress, and 
freedom that history has ever known. I ask that you do so.
    Thank you for your attention.

    The Chairman. I'll look forward to reading your book, 
Doctor. Thank you for your enthusiastic testimony. Dr. Woods.

STATEMENT OF DAVID WOODS, PROFESSOR, INSTITUTE FOR ERGONOMICS, 
                   THE OHIO STATE UNIVERSITY

    Dr. Woods. Senator McCain and Members of the Committee, I 
want to thank you for investing your time and energy on the 
future of NASA. As a specialist on risky decisionmaking, I've 
spent my career investigating failures and improving safety in 
complex settings, including nuclear power, health care, and 
aerospace, including studies of how mission control handles 
anomalies.
    To look forward and envision NASA as a high-reliability 
organization, to shift topics a little bit from the future 
missions, we first need to look back with clarity unobscured by 
hindsight bias. Admiral Gehman, as he's pointed out this 
morning already, found that the hole in the wing was not 
produced simply by debris, but by holes in organizational 
decisionmaking. The factors that produced the holes in 
decisionmaking are not unique to NASA, but are generic 
vulnerabilities we've seen before in other tragedies and we 
unfortunately are likely to see again.
    The board's investigation shows how NASA failed to balance 
safety risks with intense production pressure. As a result, 
this accident matches a classic pattern, a drift toward failure 
as defenses erode in the face of production pressure. The 
paradox of production and safety conflicts is that safety 
investments are most important when least affordable by 
schedule. The NASA of the future will recognize when the side 
effects of production pressure increase safety risks and will 
be able to add investments to safety.
    Another general pattern revealed in Columbia is an 
organization that takes past success as a reason for confidence 
instead of constantly monitoring for new emerging risks. NASA 
could not see the holes in its own decision-making process. The 
NASA of the future will have a safety organization that 
questions NASA's own model, the risks it faces, and the 
counter-measures it deploys. Such a reassessment will help NASA 
find places where it has underestimated the potential for 
trouble.
    A third general pattern is a fragmented problem-solving 
process where no one could see the big picture, combined with 
breakdowns at the boundaries of organizational units. People 
were making decisions about what did or not pose a risk on very 
shaky technical data and without meaningful cross checks, but 
even more critically, no one noticed how their decisions rested 
on such shaky grounds, and no one noted the cross checks were 
missing.
    The NASA of the future will have a safety organization with 
the technical expertise and authority to enhance coordination 
across the normal chain of command. A final pattern in Columbia 
is a failure to revise assessments as new evidence accumulates. 
Research has consistently shown that revising assessments is 
quite difficult and usually requires a new way of looking at 
previous facts. We provide this fresh view through interactions 
across diverse groups with diverse knowledge and tools.
    The NASA of the future will have a safety organization that 
provides a fresh view on risk to help NASA see its own blind 
spots. How will this future for NASA come about. A new safety 
organization and culture can arise based on the principles of 
the emerging field of resilience engineering. Resilience 
engineering is build on the insights from the above patterns 
that we found in too many tragedies, and is concerned with 
assessing organizational risk, that is, the risk that the holes 
in organizational decisionmaking will produce an unrecognized 
drift toward failure boundaries. Resilience engineering also 
depends on having techniques, resources, and authority to make 
extra targeted investments in areas that can rebalance safety 
and production when they conflict.
    A traditional dilemma for safety organizations is the 
problem of cold water and an empty gun. Safety organizations 
raise questions which stop progress on production goals. We 
just saw that in the discussion on ISS. That's the cold water. 
Yet, when line organizations ask for help on how to address the 
concerns, safety organizations may be unprepared to contribute 
the empty gun. As a result, in the long run the safety 
organization will fail in its mission.
    To avoid this pitfall and to achieve the vision, there are 
several actions that Congress can consider. First, create a new 
safety leadership team in NASA, well versed in organizational 
decisionmaking, systems approaches to safety, and human factors 
in complex systems. Second, provide the resources and authority 
to achieve what I call the three ``I''s of an effective safety 
organization. That is, to provide an independent voice that 
will challenge the conventional assumptions within management. 
Second, constructive involvement in targeted everyday decision-
making so they have a finger on the pulse of what goes on, and 
actively generate information about weaknesses and how the 
organization is actually operating.
    To accomplish these three ``I's''; independence, 
involvement, and information, Congress needs to provide funding 
directly and independent from NASA headquarters. Similarly, the 
safety leadership team needs to be chosen and accountable to 
designees of Congress, not directly to the NASA chain of 
command. For the safety organization to able to monitor what 
goes on and to be a constructive contributor, it needs to 
control a set of resources with its own authority to decide how 
to invest those resources to help line organizations.
    In conclusion, unfortunately it sometimes takes tragedies 
such as Columbia to create windows of opportunity for rapid 
learning and improvement. It is our responsibility to those who 
sacrificed so much to seize the opportunity to lead change. 
Congress can energize the creation of an independent, involved, 
and informed safety organization using principles of resilience 
engineering so that the NASA of the future will be able to 
create foresight about the changing patterns of risk before 
failure and harm occurs.
    [The prepared statement of Dr. Woods follows:]

Prepared Statement of David Woods, Professor, Institute for Ergonomics, 
                       The Ohio State University

  Creating Foresight: How Resilience Engineering Can Transform NASA's 
                   Approach to Risky Decision Making

Introduction
    To look forward and envision NASA as a high reliability 
organization, we need first to look back with clarity unobscured by 
hindsight bias. Admiral Gehman and the Columbia Accident Investigation 
Board (CAIB) found the hole in the wing was produced not simply by 
debris, but by holes in organizational decision making. The factors 
that produced the holes in decision making are not unique to today's 
NASA or limited to the Shuttle program, but are generic vulnerabilities 
that have contributed to other failures and tragedies across other 
complex industrial settings.
    For 24 years my research has examined the intersection of human 
decision making, computers, and high risk complex situations from 
nuclear power emergencies to highly automated cockpits to medical 
decision making, and specifically has included studies of how space 
mission operation centers handle anomalies.
    CAIB's investigation shows how NASA failed to balance safety risks 
with intense production pressure. As a result, this accident matches a 
classic pattern--a drift toward failure as defenses erode in the face 
of production pressure. When this pattern is combined with a fragmented 
problem solving process that is missing cross checks and unable to see 
the big picture, the result is an organization that cannot see its own 
blind spots about risks. Further, NASA was unable to revise its 
assessment of the risks it faced and the effectiveness of its 
countermeasures against those risks as new evidence accumulated. What 
makes safety/production tradeoffs so insidious is that evidence of 
risks become invisible to people working hard to produce under pressure 
so that safety margins erodes over time.
    As an organizational accident Columbia shows the need for 
organizations to monitor their own practices and decision processes to 
detect when they are beginning to drift toward safety boundaries. The 
critical role for the safety group within the organization is to 
monitor the organization itself--to measure organizational risk--the 
risk that the organization is operating nearer to safety boundaries 
than it realizes.
    In studying tragedies such as Columbia, we have also found that 
failure creates windows for rapid learning and improvement in 
organizations. Seizing the opportunity to learn is the responsibility 
leaders owe to the people and families whose sacrifice and suffering 
was required to make the holes in the organization's decision making 
visible to all. NASA and Congress now have the opportunity to transform 
the culture and operation of all of NASA (Shuttle, ISS, and space 
science missions), and by example transform other high risk 
organizations.
    The target is to help organizations maintain high safety despite 
production pressure. This is the topic of the newly emerging field of 
Resilience Engineering which uses the insights from research on 
failures in complex systems, including organizational contributors to 
risk, and the factors that affect human performance to provide 
practical systems engineering tools to manage risk proactively.
    NASA can use the emerging techniques of Resilience Engineering to 
balance the competing demands for very high safety with real time 
pressures for efficiency and production. By following the 
recommendations of the CAIB to thoroughly re-design its safety 
organization and provide for an independent technical authority, NASA 
can provide a model for high reliability organizational decision 
making.
The Trouble with Hindsight
The past seems incredible, the future implausible.\1\
---------------------------------------------------------------------------
    \1\ Woods, D.D. and Cook, R.I. (2002). Nine Steps to Move Forward 
from Error. Cognition, Technology, and Work, 4(2): 137-144.
---------------------------------------------------------------------------
    Hindsight bias is a psychological effect that leads people to 
misinterpret the conclusions of accident investigations.\2\ Often the 
first question people ask about the decision making leading up to an 
accident such as Columbia is, ``why did NASA continue flying the 
Shuttle with a known problem . . .?'' (The known problem refers to the 
dangers of debris striking and damaging the Shuttle wing during takeoff 
which the CAIB identified as the physical cause of the accident.)
---------------------------------------------------------------------------
    \2\ The hindsight bias is a well reproduced research finding 
relevant to accident analysis and reactions to failure. Knowledge of 
outcome biases our judgment about the processes that led up to that 
outcome.
    In the typical study, two groups of judges are asked to evaluate 
the performance of an individual or team. Both groups are shown the 
same behavior; the only difference is that one group of judges are told 
the episode ended in a poor outcome; while other groups of judges are 
told that the outcome was successful or neutral. Judges in the group 
told of the negative outcome consistently assess the performance of 
humans in the story as being flawed in contrast with the group told 
that the outcome was successful. Surprisingly, this hindsight bias is 
present even if the judges are told beforehand that the outcome 
knowledge may influence their judgment.
    Hindsight is not foresight. After an accident, we know all of the 
critical information and knowledge needed to understand what happened. 
But that knowledge is not available to the participants before the 
fact. In looking back we tend to oversimplify the situation the actual 
practitioners faced, and this tends to block our ability to see the 
deeper story behind the label human error.
---------------------------------------------------------------------------
    As soon as the question is posed in this way, it is easy to be 
trapped into oversimplifying the situation and the uncertainties 
involved before the outcome is known.\3\ After-the-fact ``the past 
seems incredible,'' hence NASA managers sound irrational or negligent 
in their approach to obvious risks. However, before any accident has 
occurred and while the organization is under pressure to meet schedule 
or increase efficiency, potential warning flags are overlooked or re-
interpreted since the potential ``future looks implausible.'' For 
example, the signs of Shuttle tile damage became an issue of orbiter 
turn around time and not a flight risk.
---------------------------------------------------------------------------
    \3\ See S. Dekker's The Field Guide to Human Error Investigations. 
Ashgate, 2002.
---------------------------------------------------------------------------
    Because it is difficult to disregard ``20/20 hindsight'', it is 
easy to play the classic blame game, define a ``bad'' organization as 
the culprit, and stop. When this occurs, the same difficulties that led 
to the Columbia accident will go unrecognized in other programs and in 
other organizations.
    The CAIB worked hard to overcome hindsight bias and uncover the 
breakdown in organizational decision making that led to the accident. 
All organizations can misbalance safety risks with pressure for 
efficiency. It is difficult to sacrifice today's real production goals 
to consider uncertain evidence of possible future risks. The heart of 
the difficulty is that it is most critical to invest resources to 
follow up on potential safety risks when the organization is least able 
to afford the diversion of resources due to pressure for efficiency or 
throughput.
Five General Patterns Present in Columbia
    The CAIB report identifies a variety of contributors to the 
accident. These factors have been seen before in other accidents.\4\ 
Focusing on the general patterns present in this particular accident 
helps guide the process of envisioning the future of NASA as a high 
reliability organization.
---------------------------------------------------------------------------
    \4\ Hollnagel, E. (1993). Human Reliability Analysis: Context and 
Control. London: Academic Press.
---------------------------------------------------------------------------
    Classic patterns also seen in other accidents and research results 
include:

  <bullet> Drift toward failure as defenses erode in the face of 
        production pressure.

  <bullet> An organization that takes past success as a reason for 
        confidence instead of investing in anticipating the changing 
        potential for failure.

  <bullet> Fragmented problem solving process that clouds the big 
        picture.

  <bullet> Failure to revise assessments as new evidence accumulates.

  <bullet> Breakdowns at the boundaries of organizational units that 
        impedes communication and coordination.
1. The basic classic pattern in this accident is--Drift toward failure 
        as defenses erode in the face of production pressure.
    My colleague, Erik Hollnagel in 2002, captured the heart of the 
Columbia accident when he commented on other accidents:

        If anything is unreasonable, it is the requirement to be both 
        efficient and thorough at the same time--or rather to be 
        thorough when with hindsight it was wrong to be efficient.

    Hindsight bias, by oversimplifying the situation people face before 
outcome is known, often hides tradeoffs between multiple goals. The 
analysis in the CAIB report provides the general context of a tighter 
squeeze on production goals creating strong incentives to downplay 
schedule disruptions. With shrinking time/resources available, safety 
margins were likewise shrinking in ways which the organization couldn't 
see.
    Goal tradeoffs often proceed gradually as pressure leads to a 
narrowing focus on some goals while obscuring the tradeoff with other 
goals. This process usually happens when acute goals like production/
efficiency take precedence over chronic goals like safety. If uncertain 
``warning'' signs always lead to sacrifices on schedule and efficiency, 
how can any organization operate within reasonable parameters or meet 
stakeholder demands?
    The paradox of production/safety conflicts is: safety investments 
are most important when least affordable. It is precisely at points of 
intensifying production pressure that extra investments for managing 
safety risks are most critical.
    The NASA of the future will need a means to recognize when the side 
effects of production pressure may be increasing safety risks and under 
those circumstances develop a means to add investments to safety issues 
at the very time when the organization is most squeezed on resources 
and time.
2. Another general pattern identified in Columbia is that an 
        organization takes past success as a reason for confidence 
        instead of digging deeper to see underlying risks.
    One component in the drift process is the interpretation of past 
``success''. The absence of failure is taken as positive indication 
that hazards are not present or that countermeasures are effective. An 
organization usually is unable to change its model of itself unless and 
until overwhelming evidence accumulates that demands revising the 
model. This is a guarantee that the organization will tend to learn 
late, that is, revise its model of risk only after serious events 
occur. An effective safety organization assumes its model of risks and 
countermeasures is fragile and seeks out evidence to revise and update 
this model.\5\ To seek out such information means the organization is 
willing to expose its blemishes.
---------------------------------------------------------------------------
    \5\ Rochlin, G. I. (1999). Safe operation as a social construct. 
Ergonomics, 42 (11), 1549-1560.
---------------------------------------------------------------------------
    During the drift toward failure leading to the Columbia accident a 
mis-assessment took hold that resisted revision (that is, the mis-
assessment that foam strikes pose only a maintenance and not a risk to 
orbiter safety). It is not simply that the assessment was wrong, but 
the inability to re-evaluate the assessment and re-examine evidence 
about risks that is troubling.
    The missed opportunities to revise and update the organization's 
model of the riskiness of foam events seem to be consistent with what I 
have found in other cases of failure of foresight. I have described 
this discounting of evidence as ``distancing through differencing'' 
whereby those reviewing new evidence or incidents focus on differences, 
real and imagined, between the place, people, organization and 
circumstances where an incident happens and their own context. By 
focusing on the differences, people see no lessons for their own 
operation and practices or only narrow well bounded responses.
    Ominously, this distancing through differencing that occurred 
throughout the build up to the final Columbia mission can be repeated 
in the future as organizations and groups look at the analysis and 
lessons from this accident and the CAIB report. Others in the future 
can easily look at the CAIB conclusions and deny their relevance to 
their situation by emphasizing differences (e.g., my technical topic is 
different, my managers are different, we are more dedicated and careful 
about safety, we have already addressed that specific deficiency).
    One general principle to promote organizational learning in NASA 
is--Do not discard other events because they appear on the surface to 
be dissimilar. Rather, every event, no matter how dissimilar on the 
surface, contains information about underlying general patterns that 
help create foresight about potential risks before failure or harm 
occurs.
    The NASA of the future will have a safety organization that 
question NASA's own model of the risks it faces and the countermeasures 
deployed. Such review and re-assessment will help NASA find places 
where it has underestimated the potential for trouble and revise its 
approach to create safety.
3. Another general pattern identified in Columbia is a fragmented 
        problem solving process that clouds the big picture.
    During Columbia there was a fragmented view of what was known about 
the strike and its potential implications. There was no place or person 
who had a complete and coherent view of the analysis of the foam strike 
event including the gaps and uncertainties in the data or analysis to 
that point. It is striking that people used what looked like technical 
analyses to justify previously reached conclusions, instead of using 
technical analyses to test tentative hypotheses  (e.g., CAIB report, p. 
126 1st column).
    People were making decisions about what did or did not pose a risk 
on very shaky or absent technical data and analysis, and critically, 
they couldn't see their decisions rested on shaky grounds  (e.g., the 
memos on p. 141, 142 of he CAIB report illustrate the shallow, off hand 
assessments posing for and substituting for careful analysis).
    The breakdown or absence of cross-checks is also striking. Cross 
checks on the rationale for decisions is a critical part of good 
organizational decision making. Yet no cross checks were in place to 
detect, question or challenge the specific flaws in the rationale, and 
no one noted that cross-checks were missing.
    There are examples of organizations that avoid this fragmentation 
problem. Ironically, one of them is teamwork in NASA's own Mission 
Control which has a successful record of analyzing and handling 
anomalies.\6\ In particular, the Flight Director and his or her team 
practice identifying and handling anomalies through simulated 
situations. Note that shrinking budgets lead to pressure to reduce 
training investments (the amount of practice, the quality of the 
simulated situations, and the number or breadth of people who go 
through the simulations sessions can all decline).
---------------------------------------------------------------------------
    \6\ For example, see: E.S. Patterson, J.C. Watts-Perotti, D.D. 
Woods. Voice Loops as Coordination Aids in Space Shuttle Mission 
Control. Computer Supported Cooperative Work, 8, 353--371, 1999. J.C. 
Watts, D.D. Woods, E.S. Patterson. Functionally Distributed 
Coordination during Anomaly Response in Space Shuttle Mission Control. 
Proceedings of Human Interaction with Complex Systems, IEEE Computer 
Society Press, Los Alamitos, CA, 1996. Patterson, E.S., and Woods, D.D. 
(2001). Shift changes, updates, and the on-call model in space shuttle 
mission control. Computer Supported Cooperative Work, 10(3-4), 317-346.
---------------------------------------------------------------------------
    The fragmentation of problem solving also illustrates Karl Weick's 
point \7\ about how important it is that high reliability organizations 
exhibit a ``deference to expertise'', ``reluctance to simplify 
interpretations'', and ``preoccupation with potential for failure'' 
none of which were in operation in NASA's organizational decision 
making leading up to and during Columbia.
---------------------------------------------------------------------------
    \7\ Weick, K. E., Sutcliffe, K. M. and Obstfeld, D. (1999). 
Organizing for High Reliability: Processes of Collective Mindfulness. 
Research in Organizational Behavior, Volume 21, pp. 81-123.
---------------------------------------------------------------------------
    The NASA of the future will have a safety organization that ensures 
that adequate technical grounds are established and used in 
organizational decision making.
    To accomplish this for NASA, the safety organization will need to 
define the kinds of anomalies to be practiced as well as who should 
participates in those simulation training sessions. The value of such 
training depends critically on designing a diverse set of anomalous 
scenarios with detailed attention to how they unfold. By monitoring 
performance in these simulated training cases, the safety personnel are 
able assess the quality of organizational decision making.
4. The fourth pattern in Columbia is a Failure to revise assessments as 
        new evidence accumulates.
    I first studied this pattern in nuclear power emergencies 20 plus 
years ago.\8\ What was interesting in the data then was how difficult 
it is to revise a mis-assessment or to revise a once plausible 
assessment as new evidence comes in. This finding has been reinforced 
in subsequent studies in different settings.
---------------------------------------------------------------------------
    \8\ D.D. Woods, J. O'Brien, and L.F. Hanes. Human factors 
challenges in process control: The case of nuclear power plants. In G. 
Salvendy, editor, Handbook of Human Factors/Ergonomics, Wiley, New 
York, 1987.
---------------------------------------------------------------------------
    The crux is to notice the information that changes past models of 
risk and calls into question the effectiveness of previous risk 
reduction actions, without having to wait for complete clear cut 
evidence. If revision only occurs when evidence is overwhelming, there 
is a grave risk of an organization acting too risky and finding out 
only from near misses, serious incidents, or even actual harm. Instead, 
the practice of revising assessments of risks needs to be an ongoing 
process. In this process of continuing re-evaluation, the working 
assumption is that risks are changing or evidence of risks has been 
missed.
    Research consistently shows that revising assessments successfully 
requires a new way of looking at previous facts. We provide this 
``fresh'' view:

  (a)  by bringing in people new to the situation

  (b)  through interactions across diverse groups with diverse 
        knowledge and tools,

  (c)  through new visualizations which capture the big picture and re-
        organize data into different perspectives.

    One constructive action is to develop the collaborative inter-
changes that generate fresh points of view or that produce challenges 
to basic assumptions. This cross checking process is an important part 
of how NASA mission control responds to anomalies. One can also capture 
and display indicators of safety margin to help people see when 
circumstances or organizational decisions are pushing the system closer 
to the edge of the safety envelope.
    What is so disappointing about NASA's organizational decision 
making is that the correct diagnosis of production/safety tradeoffs and 
useful recommendations for organizational change were noted in 2000. 
The Mars Climate Orbiter report of March 13, 2000 clearly depicts how 
the pressure for production and to be `better' on several dimensions 
led to management accepting riskier and riskier decisions. This report 
recommended many organizational changes similar to the CAIB. A slow and 
weak response to the previous independent board report was a missed 
opportunity to improve organizational decision making in NASA.
    The NASA of the future will have a safety organization that 
provides ``fresh'' views on risks to help NASA see its own blind spots 
and question its conventional assumptions about safety risks.
5. Finally, the Columbia accident brings to the fore another pattern: 
        Breakdowns at the boundaries of organizational units.
    The CAIB notes how a kind of catch 22 was operating in which the 
people charged to analyze the anomaly were unable to generate any 
definitive traction and in which the management was trapped in a stance 
shaped by production pressure that views such events as turn around 
issues. This effect of an ``anomaly in limbo'' seems to emerge only at 
boundaries of different organizations that do not have mechanisms for 
constructive interplay. It is here that we see the operation of the 
generalization that in risky judgments we have to defer to those with 
technical expertise (and the necessity to set up a problem solving 
process that engages those practiced at recognizing anomalies in the 
event).
    This pattern points to the need for mechanisms that create 
effective overlap across different organizational units and to avoid 
simply staying inside the chain of command mentality (though such 
overlap can be seen as inefficient when the organization is under 
severe cost pressure).
    The NASA of the future will have a safety organization with the 
technical expertise and authority to enhance coordination across the 
normal chain of command.
Resilience Engineering
    Resilience Engineering is built on insights derived from the above 
five patterns. Resilience Engineering is concerned with assessing 
organizational risk, that is the risk that holes in organizational 
decision making will produce unrecognized drift toward failure 
boundaries.\9\
---------------------------------------------------------------------------
    \9\ For initial background on the emergence of resilience 
engineering see Rasmussen, J. Risk Management, Adaptation, and Design 
for Safety. In B. Brehmer and N.-E. Sahlin (Eds.) Future Risks and Risk 
Management. Kluwer Academic, Dordrecht, 1994. Rasmussen, J. (1997). 
Risk Management in a Dynamic Society: A Modelling Problem. Safety 
Science, 27, 183-213. Reason, J. (2001). Assessing the Resilience of 
Health Care Systems to the Risk of Patient Mishaps. Carthy, J., de 
Leval, M. R. and Reason, J. T. (2001). Institutional Resilience in 
Healthcare Systems. Quality in Health Care, 10: 29-32. Weick, K. E. and 
Sutcliffe, K. M. (2001). Managing the unexpected: assuring high 
performance in an age of complexity. San Francisco: Jossey-Bass. Cook, 
R. I., Render, M. L. and Woods, D.D. (2000). Gaps in the continuity of 
care and progress on patient safety. British Medical Journal, 320, 791-
794, March 18, 2000. Woods, D. D. and Shattuck, L. G. (2000). Distance 
supervision--local action given the potential for surprise Cognition, 
Technology and Work, 2, 86-96. Leveson, N. G. (in press). A New 
Accident Model for Engineering Safer Systems. Safety Science. Roberts, 
K.H., Desai, V., and Madsen, P. (in press) Work Life and Resilience in 
High Reliability Organizations. In E. Kossek and S. Lambert (Eds.) Work 
and Life Integration Mahwah: NJ: Erlbaum.
---------------------------------------------------------------------------
    While assessing technical hazards is one kind of input into 
Resilience Engineering, the goal is to monitor organizational decision 
making. For example, Resilience Engineering would monitor evidence that 
effective cross checks are well-integrated when risky decisions are 
made or would serve as a check on how well the organization is 
practicing the handling of simulated anomalies (what kind of anomalies, 
who is involved in making decisions).
    Other dimensions of organizational risk include the commitment of 
the management to balance the acute pressures of production with the 
chronic pressures of protection. Their willingness to invest in safety 
and to allocate resources to safety improvement in a timely, proactive 
manner, despite pressures on production and efficiency, are key factors 
in ensuring a resilient organization.
    The degree to which the reporting of safety concerns and problems 
is truly open and encouraged provides another significant source of 
resilience within the organization. Assessing the organization's 
response to incidents indicates if there is a learning culture or a 
culture of denial. Other dimensions include:

        Preparedness/Anticipation: is the organization proactive in 
        picking up on evidence of developing problems versus only 
        reacting after problems become significant?

        Opacity/Observability--does the organization monitors safety 
        boundaries and recognize how close it is to `the edge' in terms 
        of degraded defenses and barriers? To what extent is 
        information about safety concerns widely distributed throughout 
        the organization at all levels versus closely held by a few 
        individuals?

        Flexibility/Stiffness--how does the organization adapt to 
        change, disruptions, and opportunities?

        Revise/Fixated--how does the organization update its model of 
        vulnerabilities and the effectiveness of countermeasures over 
        time?

    The NASA of the future will create a new safety organization and 
culture that is skilled at the three basics of Resilience Engineering:

  (1)  detecting signs of increasing organizational risk, especially 
        when production pressures are intense or increasing;

  (2)  having the resources and authority to make extra investments in 
        safety at precisely these times when it appears least 
        affordable;

  (3)  having a means to recognize when and where to make targeted 
        investments to control rising signs of organizational risk and 
        re-balance the safety and production tradeoff.

    These mechanisms will produce an organization that creates 
foresight about changing risks before failures occur.
Redesigning NASA for Safety: An Independent, Involved, and Informed 
        Safety Organization
    One traditional dilemma for safety organizations is the problem of 
``cold water and an empty gun.'' Safety organizations raise questions 
which stop progress on production goals--the ``cold water.'' Yet when 
line organizations ask for help on how to address the safety concerns, 
while being responsive to production issues, the safety organization 
has little to contribute--the ``empty gun.'' As a result, the safety 
organization fails to better balance the safety/production tradeoff in 
the long run. In the short run following a failure, the safety 
organization is emboldened to raise safety issues, but in the longer 
run the memory of the previous failure fades, production pressures 
dominate, and the drift processes operate unchecked (as has happened in 
NASA before Columbia and appears to be happening again with respect to 
ISS).
    Re-shuffling personnel and re-tuning the existing safety 
organization does not meet the spirit of the CAIB recommendations. 
First, a new leadership team well versed in organizational decision 
making, systems approaches to safety, and human factors in complex 
systems needs to be assembled and empowered.
    Second, the key target for the new safety organization is to 
monitor and balance the tradeoff of production pressure and risk. To do 
this the leadership team needs to implement a program for managing 
organizational risk--detecting emerging `holes' in organizational 
decision making--based on advancing the techniques of Resilience 
Engineering.
    Third, the new safety organization needs the resources and 
authority to achieve the three ``I's'' of an effective safety 
organization (independence, involvement, information):

        provide an independent voice that challenges conventional 
        assumptions within NASA management,

        constructive involvement in targeted but everyday 
        organizational decision making (for example, ownership of 
        technical standards, waiver granting, readiness reviews, and 
        anomaly definition).

        actively generate information about how the organization is 
        actually operating, especially to be able to gather accurate 
        information about weaknesses in the organization.

    Safety organizations must achieve independence enough to question 
the normal organizational decision making. At best the relationship 
between the safety organization and NASA senior management will be one 
of constructive tension. Inevitably, there will be periods where senior 
management tries to dominate the safety organization. Congress needs to 
provide the safety organization the tools to resist these predictable 
episodes by providing funding directly and independent from NASA 
headquarters. Similarly, to achieve independence, the safety leadership 
team needs to be chosen and accountable to designees of Congress, not 
directly to the NASA administrator or NASA headquarters.
    Safety organizations must be involved in enough everyday 
organizational activities to have a finger on the pulse of the 
organization and to be seen as a constructive part of how NASA balances 
safety and production goals. This means the new safety organization 
needs to control a set of resources and the authority to decide how to 
invest these resources to help line organizations provide high safety 
while accommodating production goals. For example, the safety 
organization could decide to invest and develop new anomaly response 
training programs when it detects holes in organizational decision 
making processes.
    In general, safety organizations risk becoming information limited 
as they can be shunted aside from real organizational decisions, kept 
at a distance from the actual work processes, and kept busy tabulating 
irrelevant counts when their activities are seen as a threat by line 
management (for example, the `cold water' problem). Independent, 
involved and informed--these three properties of an effective safety 
organization are closely connected and mutually reinforcing.
Conclusion
    The future NASA will balance the goals of both high productivity 
and ultra-high safety given the uncertainty of changing risks and 
certainty of continued pressure for efficient and high performance. To 
carry out this dynamic balancing act requires a new safety organization 
designed and empowered to be independent, involved and informed. The 
safety organization will use the tools of Resilience Engineering to 
monitor for ``holes'' in organizational decision making and to detect 
when the organization is moving closer to failure boundaries than it is 
aware. Together these processes will create foresight about the 
changing patterns of risk before failure and harm occurs.
    Unfortunately, it sometimes takes tragedies such as Columbia to 
create windows of opportunity for rapid learning and improvement. It is 
our responsibility to seize the opportunity created at such cost to 
lead change. Congress can energize the creation of an independent, 
involved and informed safety organization in NASA. The NASA of the 
future can become the model of an organization that escapes the trap of 
production pressure eroding safety margins.

    The Chairman. Thank you. Mr. Tumlinson, welcome.

             STATEMENT OF RICK TUMLINSON, FOUNDER, 
                   SPACE FRONTIER FOUNDATION

    Mr. Tumlinson. Good afternoon, Senator McCain, Members of 
the Committee. Before I start I want to plant a thought in your 
mind. The next American to enter space will do so within a 
year. They will not be a government employee and they will not 
be flying on a government vehicle. Just think about that.
    I'm honored to be given this chance to discuss our future 
in space and I'm honored and pleased
    The Chairman. Who will it be, Mr. Tumlinson?
    Mr. Tumlinson. I'll get to that as we move along, building 
the suspense there, sir.
    The Chairman. Thank you.
    Mr. Tumlinson. I'm honored to be given the chance to 
discuss the future of America's agenda in space and I 
congratulate you for reaching outside the usual circle of 
suspects. Over the years I've been known to give NASA a bit of 
a hard time for failing to open space to the American people, 
but to be frank, they've really never been given that job. In 
fact, as ironic as it is for such a frontier nation as our own, 
it's not now, nor has it ever been, the policy of the United 
States to open space to human settlement, and without such a 
powerful vision to develop, to organize itself around, and 
steer toward, other interests have taken the wheel, turning 
what was once the greatest tool for exploration ever seen in 
human history into a jobs program and a corporate cash cow. 
Worse, it's squandered the position of the symbol of American 
spirit and as an inspiration to new generations here and around 
the world.
    So what do we do to change this sad state of affairs? 
First, we must agree that the development and permanent human 
habitation of space is the goal of the human space flight 
program, for if it is not then I must agree with the 
scientists, who say that this is a waste of time. Cancel the 
program, send the astronauts home, let them get jobs with 
airlines. Personally, I don't want to see that happen. We're 
America, we're a nation of pioneers, and we must recognize the 
reason we send people into space is to send people into space 
to live, to work, and to expand the human domain.
    If America can recognize this truth we can make it the 
drive of our space agenda. Then the way forward becomes very 
clear. We will begin to see the Earth as the center of an 
expanding bubble of life. So far that bubble has been expanded 
to the moon. The inside of that bubble is what I call the near 
frontier. It's a place where our government explorers have done 
their job. The closer we get to the Earth the more sense it 
makes for the settlers and shopkeepers to take over in the form 
of commercial enterprises.
    From the moon outwards extends the far frontier, where 
private investment offers little hope of return, but the 
investment of our society in the form of tax dollars does. It's 
returned in the form of science, knowledge, and the 
understanding of what is next as the bubble expands. We must 
get NASA as our modern day Lewis and Clarks out of the near 
frontier of low-Earth orbit and back to the job of exploring, 
and that means sending them to the far frontier of the moon and 
Mars.
    At the same time, we must mobilize the incredible power and 
imagination of the American private sector that has made this 
Nation great, to take on the operational tasks that it does 
best in the near frontier. In other words, NASA should get out 
of what should be the business of driving trucks and building 
housing in a place where their work is done. Such things are 
done far more efficiently in our culture by the private sector.
    For example, NASA long ago pioneered the concept of earth 
to space transportation. Now it must hand this function to 
others. In fact, the private sector is already moving into this 
new market and doing so quickly. Contrast NASA's plans for a 
$10 billion orbital space plane with the innovative $30 million 
suborbital rocket ship now under constructed by famed aircraft 
builder Burt Rutan and the half-dozen or so other rocket ships 
in the suborbital realm that are being built by what I call the 
alternative space firms, we're the alt. space firms.
    Sure, orbital spacecraft design is far more complex than 
suborbital, but $10 billion more complex? Imagine what the 
Rutans and these other elements of the alt space community 
could do in a competitive transportation marketplace for just a 
fraction of the orbital space plane's budget. Obviously, given 
these new set of players in the field, I believe we should end 
the orbital space plane project and the shuttle programs now. 
The government should offer prizes and multiple NASA and DOD 
launch contracts to any U.S. firms that can demonstrate safe 
and reliable orbital transportation at the lowest cost. Plus, 
we should create a nurturing regulatory environment for these 
innovative projects.
    NASA can then concentrate on the challenge of space-to-
space transportation and the surface habitations it will need 
to return to the moon and go on to Mars as it rediscovers its 
role as an exploration agency. Now, if these things are done, 
within a decade we could see a thriving community of hotels, 
science, industrial, and government facilities orbiting the 
Earth like a string of pearls. Our first space town, Alpha 
Town, could be created.
    Meanwhile, NASA astronauts will train for Mars missions at 
NASA's planetary surface training base on the South Pole of the 
moon, spending their free time at the nearby lunar Hilton, also 
home to astronomers working on giant far-side observatories as 
they look for signs of life on the other world, selenologists 
studying the moon's surface for hints to the history of the 
Earth, helium-3 and platinum miners back from surveying new 
mining sites, and the usual guest lists of poets, artists, and 
the few people there just for the view of Earth outside of 
their window.
    This all is a tiny hint of what is possible if we do the 
things we need to do now. We must decide to go outwards, this 
time to stay. We must create a new partnership between the 
Government and the private sector, the people, as we've done in 
the computer and Internet worlds, and trust the people to do 
what they do best for the benefit of both. And someone of 
vision must stand up, declare the frontier open for business, 
and tell NASA which way to go. As I know, the great people of 
that organization can do it if their orders are clear.
    Opening the frontier of space will give our children 
choices, as Kennedy said, by providing new opportunities and 
turn the future before them from an ever-narrowing wedge of 
declining possibilities in an ever-more depleted and controlled 
world to a wide-open vista of hope. Space offers us vast new 
resources to supply our civilization, from the unlimited energy 
available in space to asteroids made up of more gold and 
platinum than the human race has used in its entire history. It 
will create unimaginable new wealth and an economy that is 
endlessly expanding as space itself.
    Given the new spaces and places out there, our children 
will have the chance to grow democracy and freedom into new 
forms and continue this great experiment our ancestors began 
when they came to this world not so long ago. For me, that is a 
dream worth having, and for me that is a worthy goal for 
America. Thank you.
    [The prepared statement of Mr. Tumlinson follows:]

            Prepared Statement of Rick Tumlinson, Founder, 
                       Space Frontier Foundation
Rick Tumlinson--Biographical Information--October 2003
    Rick N. Tumlinson--Born to a long time Texas family whose 
pioneering credits include co founding the Texas Rangers and fighting 
in the Alamo, Rick Tumlinson is a well-known firebrand and evangelist 
for the space frontier. He is the son of an Air Force Sergeant and his 
English wife, and was educated primarily in England and Texas. A 
regular contributor to the space industry paper ``Space News'' 
Tumlinson's writings and quotes have appeared in the New York Times, 
Wall Street Journal, Los Angeles Times, Miami Herald, Reader's Digest 
and dozens of other publications. He has appeared on such national 
television programs as ABC's World News Tonight, the CBS Morning Show, 
and Politically Incorrect. Internationally he has appeared on TV sets 
from Russia to China's CCTV and the BBC and been quoted in a wide range 
of journals, from the Economist to China's People's Daily.
    Tumlinson worked for noted scientist Gerard K. O'Neill at the Space 
Studies Institute, produced the animated videos used to gain funding 
for the Air Force's DC-X rocket project and created the first ever paid 
political announcement for space. He was the first space consultant for 
the Sci Fi channel and played a major role in raising funding the 
International Space University. He helped pass the Space Settlement Act 
of 1988, testified before the National Commission on Space, was a 
founding trustee of the X-Prize and has been a lead witness in three 
congressional hearings on NASA in the 1990s. Rick is Executive Director 
and co-Founder of the Foundation for the International Non-Governmental 
Development of Space (FINDS),a multi-million dollar foundation which 
funds breakthrough projects and activities such as Helium 3 research, 
laser launch studies, and asteroid processing projects, The 
organization provided $1OOk in seed money for the Mars Society, 
operated the Cheap Access to Space Prize and supported such projects as 
The WATCH asteroid search program. FINDS was also the primary funding 
source and co sponsored a very successful series of Senate Space 
Roundtables in conjunction with the Space Frontier Foundation and the 
lobby Pro-Space over the last few years.
    Mr. Tumlinson co-founded the firm LunaCorp, which produced the 
first ever TV commercial shot on the International Space Station for 
Radio Shack. He led the team which turned the Mir Space Station into 
the world's first commercial space facility, co founded the space firm 
MirCorp, signed up Dennis Tito, the world's first ``citizen explorer,'' 
and has assisted in numerous other such projects.
    Recently, Rick has appeared as an expert guest on the ``CBS Evening 
News with Dan Rather,'' CNBC's ``Open Exchange'' and was quoted in the 
Washington Post, LA Times, and the Orlando Sentinel, regarding the 
Space Shuttle Columbia disaster. He appears often as a space 
commentator on CNN and is working on his first book. ``Manifesto for 
the Space Frontier.''
    In his spare time Rick collects vintage tin space toys and robots 
from the 1950s, is into four-wheel drive off-roading, raising tropical 
fish and riding his motorcycle.
                                 ______
                                 
                       Space Frontier Foundation
                               Background
Who We Are
    The Space Frontier Foundation is an organization of space 
activists, scientists and engineers, media and political professionals, 
entrepreneurs, and citizens from all backgrounds, beliefs and nations. 
Our central and driving goal is the large-scale permanent settlement of 
space as soon as possible, using the resources we find there, and the 
imaginations we bring to the task.
    We believe all people have the ``right stuff' and that everyone 
will benefit from opening the space frontier. Given the fragility of 
our planet we also believe that it is vital that we not only preserve 
the biosphere of earth using the resources of space, but that we expand 
that biosphere, taking life to worlds now dead. If successful, we see 
our future as exciting and full of possibility.
    We reject the ideas that the world's greatest moments are in its 
past, that the advancement of our technological civilization must mean 
the decline of our ecosystem, and we are determined to transform the 
image held by many that the future will be worse than the present.
    We believe that free people, free markets and free enterprise will 
become unstoppable forces in the irreversible settlement of this new 
frontier, and that our world is on the verge of a truly historic 
breakthrough--access to space for all.
    To make that happen, we are engaged in the transformation of space 
from a government-owned bureaucratic program-into a new partnership 
between the public and private sectors-that will lead to a dynamic and 
inclusive frontier open to all people.
    This all means we are about opening space for you and your 
children, and doing it now! So get involved!
    The Business of the Foundation:
Foundationers inspire!
    Foundation speakers present a future that excites inspires and 
includes citizens from all nations, and through awards, briefings, 
gatherings and presentations our ideas are driving the portrayal of 
space into new directions.
Foundationers Are Active!
    We work on policy issues at the national and international level, 
interacting with those who make the decisions. We speak to the media, 
challenging their old assumptions about space and the future, and using 
our access to let the world know what is possible on the frontier, and 
needs to be done today to get us there. We teach, letting the children 
of our world know they have a better tomorrow in store, and using the 
vastness of our universe to bring them together as we all reach for the 
dream of a tomorrow that is full of choices and hope.
Foundationers Make Things Happen!

  <bullet> Remember the Lunar Prospector that found signs of water on 
        the Moon? Foundationers helped start that project.

  <bullet> Recall the breakthrough flights of the little rocket called 
        the DC-X? Foundationers helped get it off the ground.

  <bullet> Who were the people who made the Mir the world's first 
        commercial space station? Foundationers put up their sweat and 
        cash and took a stand.

  <bullet> Who shot the first TV commercial on the space station? 
        Foundationers worked with the space station partners and put 
        Radio Shack in space.

  <bullet> Who signed up Dennis Tito to fly and fought for his right to 
        go into space? Foundationers did the deal and helped clear the 
        path for his incredible adventure.

  <bullet> Who are the people building many of the new and innovative 
        vehicles to fly people like you and I into space? Foundationers 
        are building new re-usable rocketships right now.

  <bullet> Who threw the world's first global space party known as 
        Yuri's Night? Foundationers put the ``rock'' into rocket and 
        reached out to a new generation.

    Our members are encouraged to take actions that help to open the 
Frontier in their private lives jobs and businesses. Dozens of our 
members have formed companies and organizations that further our goals 
in different ways. From other non-profits to rocket companies to space 
services and travel groups to publishing and Internet firms, they are 
getting the word out and making space happen!
Events and Projects of the Foundation
    Space Enterprise Symposiums--In space, nobody stays until somebody 
pays. That means we either create profitable enterprises or remain 
dependent on the government and taxpayer largesse. In our SES events we 
bring space entrepreneurs and real financiers and investors together, 
to educate both on the economic promise and peril of this new frontier.

    Return to the Moon Conference--

    Yuri's Night--

    Roundtables--

    Conference--As a manifestation of our ``All of the above'' 
philosophy, the Space Frontier Conference (SFC) is the center-piece 
event in the Foundation's annual calendar. It brings together 
entrepreneurs, scientists, engineers, entertainment leaders, government 
representative and private citizens to talk about, present, share and 
debate the latest and greatest ideas and activities affecting space.

    The WATCH

    Permission to Dream

    Vision to Reality Award

    Vision of the Tomorrow Award

    Chained Rocket Award

    Return to the Moon Symposium--One of the most important ways we can 
accelerate the exploration and settlement of the Solar System is to 
Return to the Moon to establish a permanent government and commercial 
base. Held each year in Houston on the day humans first stepped on the 
Moon, the RTM Symposium is the world's premiere gathering of experts, 
entrepreneurs, astronauts and activists working to make this happen.

    Senate Space Roundtables--The Foundation keeps a strong presence in 
Washington D.C. . . From the asteroid threat to commercializing the 
space station and space solar power, our Space Roundtables provide an 
important forum to educate lawmakers and staffers about issues facing 
the space frontier movement.

    Yuri's Night--Each April this global space party puts the ``Rock'' 
back into ``Rocketship''. Aimed at the under 30 set, Yuri's night 
celebrates the historic flight of Yuri Gagarin that opened the era of 
humans in space, bringing a new generation into the fight for the 
frontier.

    The WATCH--The WATCH program is focused on leveraging and focusing 
the attention of astronomers and the media on the threat and promise we 
face from near Earth objects such as asteroids and comets. To date the 
WATCH has funded discovery and tracking programs, and supported 
important NEO educational outreach events and meetings.

    Permission to Dream--PTD uses space to deliver a message of hope, 
unity and involvement to youth around the world. To date PTD has 
supported the placement of donated telescopes and lessons in countries 
as diverse as Chile, Iran, Zimbabwe, Russia and India, and is 
developing classroom projects and hands on space educational outreach 
in Los Angeles and other U.S. cities.

    Awards--The Foundation uses various awards to move our agenda ahead 
and reward those who help create and realize our vision of an open 
Space Frontier. Our Vision to Reality Award goes to those projects and 
firms who make things happen in space, and our Vision of the Future 
Award is given to the film or media project that best inspires and 
educates people about the possibilities offered by the Frontier.
 ``The Space Frontier Foundation is pound for pound the most effective 
                      space group in the world.''
                                 ______
                                 
    Testimony of Rick Tumlinson, Founder, Space Frontier Foundation
Why space?
    ``We choose to go to the Moon. We choose to go to the Moon in this 
decade and do the other things, not because they are easy, but because 
they are hard, because that goal will serve to organize and measure the 
best of our energies and skills, because that challenge is one that we 
are willing to accept, one we are unwilling to postpone, and one which 
we intend to win, and the others, too. . .''
    Standing in Houston, Texas in the early 1960s, a young and vibrant 
President named John F. Kennedy looked skyward and offered a new and 
hopeful future to his generation. In the middle of a Cold War, in the 
heart of a time when the threat of total annihilation loomed over the 
heads of everyone, he dared to challenge those listening to take on a 
higher goal. Rather than succumb to the darkness, he held out light, 
and rather than cast what was in reality a technological face off into 
the mix of that shadow war, he held it aloft, a beacon to all who could 
hear and understand what he meant. At just the time when it seemed 
there was no choice but the continuation of a pointless global 
wrestling match which at any moment could result in the end for all, he 
spoke of choices.
Choices
    Today we must ask ourselves again. What kind of tomorrow do we want 
to give to our kids? The choice is ours. You might say we have three 
possible futures we can give them--less, the same and more.
    Our first possible choice, and the one lots of folks sometimes seem 
to believe is inevitable, is the worst. It's what might happen if we 
keep on rolling along and do nothing about conserving our natural 
resources or accessing new. The characterization we see in popular 
culture and films such as the Matrix, the Terminator series, and other 
dark dystopian images. It is an apocalyptic vision, the result of a 
time when all the world's cultures rush to create consumer societies 
such as those in Europe, Japan and the USA. Eventually our excesses 
exceed our limits and we end up with a polluted and stripped world 
whose environment collapses, bringing down whole societies, leading to 
war, famine, the end of global culture, and the dawn of a new dark age.
    Our second choice is to attempt to sustain the human race on this 
one world through rationing of resources--at the cost of personal 
freedom--as we anesthetize ourselves with virtual realities and sensory 
distortions. . . Under the heavy hand of global Big Brother, our lives, 
actions, and even our very thoughts will be monitored and controlled. 
Imagination and innovation will be seen as threats to order and safety. 
Risk will be avoided at all cost. Perhaps we will eventually become so 
physically and intellectually passive that we finally load ourselves 
into banks of virtual electronic realities and pass the eons in a bliss 
of pretend adventures and paradises uncounted, until some global 
catastrophe such as an asteroid strike sends us into oblivion.
    Or there's the third choice, opening the High Frontier of space and 
breaking out into the galaxy. Celebrating the spirit of exploration and 
individuality, we begin to truly explore and open the space around us 
to human settlement. Turning debates between free enterprise 
technologists and protectors of the Earth on their heads, we unleash 
the power of human imagination to create ways to harvest the resources 
of space, not only saving this precious planet, but also blazing a path 
to the stars. This is a tomorrow where life is exciting, new 
possibilities open up each day, and humanity spreads outwards, as the 
harbinger of life to worlds now dead. This future is characterized by 
new ideas and cultures spreading everywhere, the entire human race 
engaged in spreading life to the stars and a future that is ever 
expanding and hopeful.
    Opening the space frontier will also change what it means to be an 
American. The effect of the space frontier on America will be profound. 
Our pioneering past will at last have a direct link to our future. Our 
heritage will be connected with our tomorrow in a visible and exciting 
way. The paths blazed by Daniel Boone, Davy Crockett and Lewis and 
Clark will continue onward and upward across the stars. The spirit of 
family will be resurrected as the frontier ethics of hard work and 
familial support are reinforced through the simple need to survive and 
prosper in a hostile environment. Our relationship to the rest of the 
world will change, as we throw open the doors to a better tomorrow for 
all, and as we always do, offer to hold those doors open for all and 
everyone to follow. Opening the frontier will change what it means to 
be a human being. We will become a multi-planet species, assuring our 
survival, and that of the life forms for which we are responsible. And 
a child living in such times will know why they are alive, and be able 
to see an unending and ever opening panorama of possibility stretching 
out before them
A Human Need
    The simplicity of the needs which are fulfilled by opening this 
frontier is what makes it all so compelling and at once so elusive. We 
always want to make things seem more practical. In conversations and 
talk we speak of the need for ``down to Earth'' answers to such 
questions as those the frontier poses. But the real needs are often 
much more spiritual, much more about the core issues of life, and those 
of us who speak of the frontier often do ourselves a disservice by 
trying to dress down our Vision. We want to answer engineers and 
accountants with numbers, politicians with political reasons, 
environmentalists with new fixes for the seemingly intractable 
challenges we face in resource utilization and pollution.
    The reasons we must open the frontier are as varied as the people 
who want to see it opened. And almost all of the reasons are good ones, 
although some, to me begin to rise above the rest. But in the end, most 
either enable or lead to a few basic and very core rationales.
    We must open the frontier to expand this grand experiment called 
freedom, because without an arena to feed and nurture the ideals of 
liberty, individual choice and the right to do and be whatever you want 
they may well perish from the Earth. We must open the frontier because 
without an edge to our packed culture of individuals, nurturing and 
then bringing in new ideas and giving release to bad ones, the center 
comes apart. We must open the frontier to find and create new wealth 
for humanity, because everyone in the world deserves the chance to have 
the same fine house, fine cars, and good life you can potentially have, 
and this planet alone simply cannot provide support that, unless you 
give up yours (and someone, sometime will try and make you do so). We 
open the frontier to help save the planet we love from the ravages 
caused by our ever growing numbers and our hunger for new forms of 
energy, materials and products. Finally, and most importantly, we must 
open the frontier as humans to survive as a species and to protect our 
precious biosphere from destruction by the forces of the universe or 
ourselves by making it redundant.
    As you can see, there are ``Big'' reasons, such as species survival 
and the need to provide new choices to future generations. For example, 
to those who must look into the eyes of a child who carries their 
immortality, we must open the frontier because our children deserve a 
future of more and better, not the drab and boring and potentially 
scary place we hold before them now. As Kennedy was pointing out, we 
must offer them more choices, not fewer.
    Yet, many of the real reasons we reach outwards aren't easily 
quantifiable, often boiling down to the examination of history, the 
faith we have in what is possible in any new arena of human endeavour, 
and in fact, down to a deep, almost mystical belief that this is the 
``right'' thing to do. And then, just below the surface of all of these 
lies something that is simply genetic-the drive for any species to 
expand its domain.
    I believe that the human species is pioneering creature, that for 
us to be at our best we must always be pushing out from the center into 
new realms, that we must always be expanding outwards or we turn on 
ourselves. I believe it is the destiny of the human race to open the 
Frontier of space, and that if we do not we shall be doomed to the long 
slow spiraling decay of stagnation. Our move into space must be 
irreversible before this occurs, or society will turn inwards and our 
destiny in the stars will be forgotten for decades, if not centuries.
    These aren't all the reasons, but they should give you the flavor 
of what this important movement is all about, for as you can see, they 
touch on the central issues of our time, of all times.
How are we doing in relation to these goals?
    We aren't.
    As driving, important and exciting as the possibilities offered by 
the frontier are, we aren't trying to open it. We are wandering around 
and around in circles at the edge of this new ocean, going nowhere and 
doing nothing of importance. It's no mystery why our space efforts are 
in trouble. As currently structured the U.S. national space program not 
only cannot open space, but has no intention of ever doing so!
    It is not now, nor has it ever been the policy of the United States 
to open the space frontier to human settlement and development.
    Any belief amongst those in the space community that opening the 
space frontier to wide spread participation, development and settlement 
is national policy is self delusion. A delusion well fed by those 
promoting projects originated by our space agency and its totally 
dependent contractors, who's rhetoric is often sprinkled with 
references to the space frontier and the inevitability of its 
settlement. Using loaded terms, such as ``the next logical step,'' the 
public has been repeatedly sold lavish and expensive projects. The goal 
we are supposedly ``stepping'' towards is illustrated by beautiful 
propaganda art and simulations portraying the great and glorious 
frontier on which we are supposedly putting our multi-billion dollar 
down payment. Yet the projects and programs promoted actually have no 
connection to the opening of a frontier in a historical sense and there 
is no ``logical'' progression from today's program to an open frontier 
in space. Such ``future fluff'' is actually verbal and visual candy, 
cynically used to excite and titillate those whose support is needed 
for constant budget battles in Congress.
    Even if one does not buy the idea that space is a frontier for 
human settlement, the current human space program is a failure. It will 
perhaps surprise you to hear me say this, but if NASA's charter in 
space is purely to expand our scientific understanding of the universe, 
then we should cancel our human space flight program right now. If the 
question is phrased that way, I find myself agreeing with a large 
portion of the scientific community who say it is neither the most 
effective nor cost efficient way of doing this type of work. Cancel it 
now and spend the money on probes and robotic spacecraft.
    But for me that is not the reason to have a human space program. It 
is all those I listed above. The expansion of the human species beyond 
planet Earth. The creation of a better future with more choices for our 
children. The opening of a new and endless frontier. Unfortunately when 
judged by these criteria as well, the current U.S. space program is a 
failure.
    If the job of NASA's human space flight program is to support the 
exploration of space in terms of the pure quest for knowledge and to 
prepare the way for others to follow as we expand the human domain, 
then they have failed. In other words, if the agency's job is to 
explore and survey the unknown ``lands'' of space for both scientific 
and economic benefit in the same way that James Cook explored the then 
unknown world of the Pacific for his nation, or the way Lewis & Clark 
explored the west for ours, they have not succeeded. And if the agency 
is to be judged on how well it has trail blazed, opened new paths and 
created a route to the frontier for the rest of America to travel, it 
has been an utter, expensive and embarrassing disaster.
The Space Frontier Principles
    To date our national human space flight program has been elitist, 
exclusive and a dead end. It has never included the people for whom it 
was allegedly created, and who foot the bills. Our space leaders to 
date have also ignored at their own peril several essential truths. 
And, although the propaganda and imagery they put forth as they seek 
more and more taxpayer funds may seem to indicate otherwise, most 
people would be shocked to learn, it is NOT their intention to open 
space to human settlement. Our space programs are just that programs--
they are not part of any larger cohesive or visionary agenda. These 
programs are a hodge-podge of activities that just happen to use space 
to achieve their short-term goals. Composed of projects with no long 
term unifying agenda there is no over arching and transformational 
goal, and no plan to blaze a path the rest of us can follow into space. 
The low level goals they do have include technology development, 
military domination, enhancing national pride, indirectly inspiring 
education, supporting terrestrial industries, and at times advancing 
science. Nowhere is it written in their operational guiding documents 
or principles that space is a place to be pioneered or opened to 
permanent human habitation.
    Foundationers see space as a place, as the next frontier for humans 
to explore, utilize and settle as their home. This to us is the real 
goal of any national or international human space flight agenda, and we 
are working to make it the goal of our activities in space, both public 
and private. Although it may seem academic, this difference is key, and 
completely changes the type of space activities we undertake, how we 
spend our money and what investments we make.
    We also believe that the ideals of free enterprise based democracy 
should be extended into space. Democracies consist of free peoples 
bound together by the belief that the people have primacy over the 
state, and that individuals should have the power to create new wealth 
unimpeded by that state. The settlement of the American western 
frontier was a result of the application (often by default) of these 
core concepts.
    Extended and applied to space, they add up to what I call the Space 
Frontier Principles. I believe that unless these ideas underlie our 
future space plans they are doomed to failure. After all, space is a 
frontier then we should treat it as one, including our government space 
policy leaders.

  <bullet> Without low cost, reliable and regular access to space there 
        can be no Frontier.

  <bullet> Space is a Frontier, not a Program

  <bullet> If space is a frontier then the government should treat it 
        as one.

  <bullet> In free societies opportunities are exploited by individuals 
        or groups in the form of companies and private institutions.

  <bullet> Frontiers are not opened by governments for the people--but 
        by the people--supported by or in spite of their government. 
        Put another way, our Federal space program must be designed to 
        help the American people open the frontier. It must not attempt 
        to open the frontier for us.

  <bullet> A Frontier based space agenda must focus on creating 
        technologies and infrastructure that are long term in nature, 
        re-usable, build a foundation for those who follow, are low 
        cost to build and operate, and supportable over time by the 
        wealth they create.

    I believe that unless these ideas underlie our future space plans 
they are doomed to failure.
The Near Frontier and the Far Frontier
    We have the wrong people doing the wrong job in the wrong place for 
the wrong reasons. To understand what I mean, we need to have a new way 
of looking at space. One that can create a context for our discussion. 
To help with this I developed a map of space that can be used to see 
where we are in the opening of the frontier, and who in our culture 
should be doing what, and where.
    The way I see it, the Earth is the center of an expanding bubble of 
human activity and life. As we have lifted ourselves off of the planet, 
that bubble has grown outwards with our human presence. First Gagarin 
and the Mercury astronauts moved the edge of that bubble to LEO, and 
then Apollo pushed it even further. Now its edge sits at the Moon. This 
area of space I call the Near Frontier.
The Near Frontier
    The Near Frontier is comprised of the Earth, and the surprisingly 
large number of comets and asteroids that either
    inhabit or pass regularly through our neighborhood. It is the next 
step outward for our species, the next zone for expanded human 
activity. This area is unique in all the Solar System, since the costs 
of accessing it are far lower than other areas, and much time has been 
spent exploring its potential. I believe that NASA's Lewis and Clark's 
have done their job here in the neighborhood of Earth.
    In the Near Frontier the presumption is that the first stages of 
exploration are complete. One might say that Lewis and Clark have 
surveyed this region. And now it is time for the rest of the Nation to 
take over. The Near Frontier should be handed over to universities and 
private firms to explore and develop for human use. The billions of 
dollars now spent on constructing massively expensive, non-focused and 
expendable government housing and developing and operating incredibly 
inefficient elitist transportation systems to support them is a 
complete waste of taxpayer funds.
    The Near Frontier is the wrong place for the Federal government to 
focus its energy and funding. Rather, it is a place that is not only 
primed for the private sector to develop but is already seeing its 
first potentially successful private operations, and rather than being 
a drain on the national treasury, it is ready to become a prosperous 
zone of human activity and a generator of wealth for our Nation.
    To encourage this, our government should end its inappropriate 
operational activities in this area and hand it off to the people by 
creating a climate that incubates, enables and encourages private 
sector activities of all sorts.
The Far Frontier
    Beyond the Moon lies the Far Frontier. This is the place yet to 
feel the touch of humanity, and it includes Mars, the rest of the Solar 
System and the entire Universe. This area is beyond the reach of 
commercial entities and projects based on private investment. But, like 
pure scientific research, the Far Frontier does qualify as a place 
where long term cultural investment makes sense, both for its own sake, 
and as the next place to be developed and opened to human activity, 
where appropriate. This is where the pooled resources of the people can 
be used to support exploration in the quest for knowledge and as a 
precursor to the following wave of civilization. Such support can come 
in the form of taxes, academia or the dues collected by a membership 
society such as the terrestrial National Geographic Society. This is 
where NASA and the space agencies of Earth should aim themselves now 
their job is essentially done in the Near Frontier.
    But first they must pry themselves from the useless activities they 
now cling to in low Earth orbit. If they do so they can give society a 
new domain to explore and open to humanity. The entire rest of the 
universe is their reward for getting out of the way in the Near 
Frontier. Thus the Far Frontier is where we must set the sights of our 
national space program. It is beyond the known and out into the new and 
untouched horizons that we need our 21st century Lewis and Clarks and 
Cooks to go. It is on these unexplored worlds and places that we should 
focus the eyes of science. Our corps of highly skilled government 
astronauts should not be driving trucks from Earth to buildings in the 
sky. Instead they should be climbing over the hills of Mars and telling 
an anxious world what they have found, or combing the skies for 
evidence that we are not alone in this vast universe.
ISS and AlphaTown
    If we are to develop a true space economy, not only must 
transportation costs be brought down, but the entire mental framework 
of our past ``mission orientation'' must change. In the past our forays 
into space have each had an endpoint and each was intended to achieve 
some near term goal, often without being used as a stepping stone to 
the next. We have traded the success of short term stunts and triumphs 
for sustainability, making it more important to get up there at any 
cost, than to be able to operate in space cheaply and efficiently. The 
frontier mindset rejects this thinking. We go into space to stay, and 
whatever we do there today is meant to become a ``foundation'' upon 
which others can build. Just as in space transportation, we reject the 
idea of ``use it once and throw it away'' that was the hallmark of our 
dead end space efforts in the past and continues to this day, as NASA 
and its partners in the international Space Station begin plans to de-
orbit the massive facility a few years from now, even as they are still 
building it.
    Based on the Frontier concept, and staying true to our pioneer 
beliefs, we reject these plans and will fight to see the ISS retained 
in space as a nexus for future activities, even if it must be flown 
into a storage orbit and mothballed. We believe in using what we have 
at hand to leverage the opening of the frontier, be it the discarded 
parts of the old Cold War space program, or the shiny new government 
works programs orbiting overhead today.
    It is ideas that change actions, and mindsets, once created take a 
long time to change. The Cold War space program was a win at any cost 
activity, and led to a mindset that short-term success can come at the 
expense of long term sustainability. Goals, no matter how arbitrary or 
non-realistic, were to be achieved by throwing large amounts of money 
at them, so long as progress could be shown--no matter how dubious. As 
government centric, it also engendered a mentality that to sustain 
legislative support, the importance of the government effort must be 
highlighted and take precedence over any commercial or other efforts to 
achieve the same goals. In fact, government managers came to see other 
efforts to create space facilities as threats to their own program, and 
in many cases sabotaged or in other ways worked to undermine private 
efforts. After all, how would a government bureaucrat, having spent 
years lobbying for billions to build their space station, be able to 
defend those expenditures in the light of a commercial facility 
operating more cheaply, and producing better results just down the 
orbital street?
    Thus the challenge is to create a new way of thinking in the minds 
of those currently dominating the space field, and also those who might 
wish to join in space activities in the future. Rather than seeing 
commercial efforts as threats to their turf and jobs security, the 
Foundation has been working to show how new partnerships can be created 
in space that parallel those on Earth. For example, here on Earth 
government activities are often used to catalyze commercial offshoots, 
and Federal investments in technology often lead to private sector 
economic drivers. From highways funded by taxpayer dollars to forts on 
ancient frontiers that became the seeds of cities, we see the 
government and private sectors as complimentary to each other, not 
competitors.
    In 1995 the Foundation started a campaign called ``Alpha Town'' to 
create an image and conceptual framework in people's minds that related 
to how our culture and communities work here on Earth. One goal is to 
transform the International Space Station (ISS) from a multi-billion-
dollar public-works project, into the kernel of the first human town in 
space. The Foundation is working to promote policies and activities 
that will turn ISS into the catalyst at the center of a true LEO 
community. ``AlphaTown'' encompasses projects that are policy oriented 
as well as technological.
A Space Station Authority
    The Foundation believes the right management in charge of the space 
station is critical to making it an outpost for all humanity rather 
than stagnating as a government lab and public works project. Although 
built and operated today by government for government, we believe that 
if the station is to achieve its full potential and truly become ``the 
next logical step'' to opening the frontier, it must begin to serve a 
much broader constituency, including the private sector. We believe a 
civic/private authority would function as a landlord for the entire 
space station, and act as a catalyst for new activities and growth, 
while streamlining operations and lowering costs for all. Much like a 
terrestrial port authority, its goal would be the economic and 
scientific success of the station.
ET
    The U.S. space shuttle's giant external tanks are one example of an 
extremely valuable artificial space resource that now goes to waste. At 
present, with each successful flight of a shuttle, an empty tank with 
mass greater than the full payload of the shuttle itself is brought to 
99 percent of orbital speed and then discarded to bum up in the 
atmosphere. Over a 10-year period about 10,000 tons of that tankage 
will be brought almost to orbit and then discarded, with a value on 
orbit of about $35 billion. The ET project is determined to stop this 
waste and begin to have this valuable resource stockpiled in orbit.
Mir
    In keeping with our frontier philosophy, the Space Frontier 
Foundation began in the mid-nineties to take a stand in favor of 
keeping the Russian space station Mir from being destroyed. Our Keep 
Mir Alive campaign stood in direct opposition to those who wanted to 
``bulldoze'' the facility to clear the way for the new ISS. Yet, to 
Foundationers the Mir, as old and aged as it was represented yet 
another ``place'' in space, and perhaps not as shiny as the new 
facility, could still be used as a lever for future space activities by 
those with imagination.
    Foundation members led the team that eventually leased the Mir, 
converting it for a few months into the world's first commercial space 
station. Although we lost the battle to save the facility, this action 
showed human activities in space weren't exclusive to governments, and 
that individuals and non-government groups could take on big, human 
oriented projects in space--a historic first that eventually led to the 
flight of California businessman Dennis Tito a year later.
Space Hotels
    With the flight of Dennis Tito into space, the door opened for a 
new industry to arise on the frontier. As we have seen he was not the 
last, but the first of this new type of visitor to space. Given the 
difficulties presented by his stay on the currently government operated 
space station; some are advocating and developing plans for separate 
commercial space hotel facilities. Even if ISS were to become a 
commercially operated facility, it would still be mainly a research and 
technology oriented facility, and not truly suitable for ``casual'' 
visitors or those simply wanting to experience space for periods of 
time. After all, a laboratory and a hotel are different things, and 
serve different roles. There are many proposals for building orbiting 
hotels and tourist facilities on orbit, a potentially huge market. From 
re-cycled spacecraft and external tanks to new facilities, perhaps 
based on inflatable technology, these new ``buildings'' and facilities 
will increase the size and economic potential of Alpha Town, creating 
new destinations and locations for development.
The Moon
    The Moon lies on the edge of the Near and Far Frontiers. It 
represents a transition zone between the area that can be best 
developed and whose over all activity base should begin to be led 
primarily by the private sector, and the Far Frontier, where business 
plans don't yet make sense, infrastructure is non-existent and travel 
times and mission costs preclude most private concerns from operating. 
As we reach the Moon, although we find there are businesses in the 
embryonic stages who have realistic plans and even funding for Lunar 
projects, we are just on the edge of the ``giggle zone'' of private 
finance. Yet, our feet have literally been upon it several times. For 
the Moon, the time has come to move from being a totally unknown 
entity, to one that, although it still needs major exploration, can 
begin to fit into plans for development and utilization.
    If we are successful there will be facilities on the Moon, such as 
hotels, mining, science and training facilities such as I discuss 
below, and over time some will choose to live there perhaps. But, given 
the difficulties of differences in gravity, day/night cycles etc. . . 
it may not ever become a thriving space metropolis with a breeding 
population of humans (whose children might well be forever bound to the 
lightly gravity world and unable to return to Earth. . .) By the way, I 
do not recognize the spurious Moon vs. Mars debate. They are different 
places, and we have different ends in mind for them. To Foundationers 
they are complimentary, not competitive.
Planetary Exploration Training Base
    Most serious participants in the space community realize that as 
NASA sheds the burden of trying to operate the ISS and begins to look 
at sending humans to Mars, they will need a place to go to train, to 
develop infrastructure and transportation systems and ``get their feet 
wet'' (or dusty in this case). The moon is the perfect place for this 
exercise. LEO to Lunar transfer vehicles, lunar orbit to surface 
vehicles, habitats, life support, energy systems, all can be developed 
and tried out on the Moon before we risk human lives on a one way trip 
to Mars. I believe that a Planetary Exploration Training Base should be 
a high priority on the Moon. Potential Mars explorers need to be 
trained somewhere with high radiation, extreme temperatures, and 
temperature differentials, lots of dust and dirt, where, if they tear 
their space suits or damage their equipment, they can die. We need to 
know what happens to a space suit when it is worn in such an 
environment every day for weeks at a time before a Mars explorer can 
trust her life to it, and that can't be done on Earth.
    There are many large scale Lunar based science projects which 
demand a strong and ongoing infrastructure that could be commercially 
provided. One exciting idea is the construction of a new Lunar far side 
observatory, made up of dozens of small telescopes that scientists say 
could combine their power to see objects as small as continents, on 
planets circling other suns. In this case the NASA might well help form 
a team of co-operating universities and observatories. This team could 
then contract out the construction and operation of this project to 
companies which would specialize in economic lunar surface operations.
    NASA and the space agencies can build training facilities for 
future Mars and planetary surface exploration and operations, 
scientists can build far side observatories shielded from the light and 
radio noise of Earth, others can study the Lunar crust for hints as to 
the formation of the universe itself. At the same time, the private 
sector can develop and supply housing based on its learning curve in 
LEO as it takes over ISS and builds new commercial space stations. Such 
industries can provide economic leverage and support for the agency's 
activities, saving the government millions. For example, a private firm 
might build a luxury hotel facility for those who might want to fly 
under a lunar dome on their own human powered wings, or relax in the 
low gee for a few weeks while contemplating the blue marble of Earth on 
the horizon. Meanwhile, also renting rooms in the hotel are those 
specialists listed above, and space agency teams, perhaps managing a 
group of astronauts in a nearby crater as they develop a simulated Mars 
surface base and test their systems.
    All of this then helps argue for a strong and robust interplanetary 
transportation system. Again, the interests of the two cultures 
coincide. The commercial firms will need low cost and regular transport 
to and from the Moon, and cannot afford to fund the development of 
transportation infrastructure. The governments need such systems for 
any future human exploration of the solar system and/or Mars 
settlements, if future exploration of Mars is not to be a dead end set 
of stunts. The government can support the technology development and 
help build the highway, much as they do on Earth, and the private 
sector can build and operate the ``trucks'' over time, also as they do 
on Earth. And everyone wins.
NEOs
    Contrary to the view that space is empty, our Solar System is 
filled with millions and millions of small objects. Those that approach 
the Earth or are easy to reach in terms of energy are called NEOs or 
Near Earth Objects. There are several types of objects in the area 
referred to as NEO Space, some orbiting in relatively the same place, 
such as the small clusters we find at various stable points, which are 
caused by the interacting gravity of the Earth, Moon, Sun and other 
planets. But most follow long looping elliptical orbits, crossing the 
orbits of the Earth and Moon in a predictable manner. And yes, 
somewhere out there the younger sibling of the dinosaur killer is 
hurtling towards the Earth at thousand of mile per hour. When it hits, 
be it tomorrow, next week, or in a hundred thousand years, our party 
will be over.
What to Do Now?
    I believe that the space aware (us) have a duty to point out such 
threats as those posed by NEO's, after all, the potential destruction 
of our home world is a great argument for getting our eggs out of this 
one basket. By the same token, and why we should care about such things 
as sky searches and asteroid shield plans is that it makes little sense 
to try and expand the human race into space if we are going to be wiped 
out by some careening solar iceberg while getting our act together.
    Valiant sweaty Bruce Willis's saving the Earth and spectacular ``we 
all gonna die!'' scenarios aside, the promise of the resources such 
rockpiles might contain that excites us from a frontier perspective, 
and it is here where we focus our attentions. Many believe that long 
term, such resources are integral to the human break out into space.
    The threat from asteroids and comets is often the focus of the 
media, highlighting the need for a much expanded search for these 
objects, which could wipe out life as we know it. But the same rocks 
which could kill us can help us live better lives due to the resources 
they contain. Many of these objects are literally floating gold mines, 
continuing amounts of gold, platinum and other precious metals that 
would stagger the imagination. They also offer us the chance move 
environmentally destructive mining operations from the living Earth to 
the dead emptiness of space.
    The search itself, with its broad societal implications, is the 
proper domain for the government to provide support. As with the Moon, 
NASA should support early exploration now and later, transitional 
missions, with large com mercial participation in the form of 
partnerships or outright purchases of data. But eventually, it is the 
private sector that should lead the actual exploration, 
characterization, sampling and utilization of these important 
resources. I would like to see the Federal government offering prizes 
for the location of potential threats and acting as a clearing house 
for NEO information.
    It could also offer to buy data from those who can mount missions 
to NEOs privately, thus saving tax dollars and catalyzing a potential 
new industry. The government has an important role in updating laws 
regarding ownership of such data, and of course the thorny issue of 
mining and ownership rights must all be clarified before anyone 
seriously tries to stake a claim on one of these floating goldmines.
Mars
    I and the Foundation have always been for the exploration of Mars, 
particularly as a prelude to permanent settlement of Mars and the rest 
of the solar system. But we are against dead-end stunt type missions to 
Mars that do not provide stepping stones to possible future settlement.
    However, although we may support the concept, as mentioned above, 
the idea of settlement was and is still not our national goal in space. 
In the past NASA's planned paper missions to the Red Planet have simply 
presented it as a place to perform the Apollo Program Mark II. For 
government planners, flags and footsteps are the goal for Mars, as they 
were for the Moon. In fact, all of the official plans so far introduced 
for sending humans to Mars fall under the category of stunt. Somehow, 
the lessons of the past failed to reach the ears of this group, and 
they do not understand that we simply cannot afford another let down 
like that we have seen since the end of the Apollo era.
    To advocates of human settlement ``Das Mars Project'' used to 
represent all that was bad about our government space program; 
centralized in the traditional government/aerospace cabal, stunt 
oriented, elitist, vastly overpriced and with no long term growth plan 
for growth from first missions to settlements. Unfortunately, thanks to 
the NASA attitude that all space is theirs, this entire debate is based 
on confusion between the roles of government and the private sector. 
What both sides have missed is what I have laid out in the Near 
Frontier/Far Frontier paradigm. The government is never going to 
succeed in developing space businesses, and those planning space 
businesses are not going to propose going to Mars in a business plan.
The Settlement of Mars
    We must greatly expand and accelerate the exploration of Mars, 
particularly as it enables the settlement of Mars and the rest of the 
solar system. Money's saved from space station shuttle and center 
operations should be used to fund the development and demonstration of 
pioneering technologies that will enable the exploration and settlement 
of Mars. And yes, humans should go to Mars, as humans should go 
everywhere that it makes technical, economic, scientific, environmental 
sense to go. That's what an open frontier means.
    The drive to open Mars to human settlement will fire the 
imaginations of our youth in a way that the more routine operational 
aspects of settling the Near Frontier will not. It is a symbol that 
will have a positive effect on all space activities, if it is part of 
the agenda I have outlined here. It will be seen as a national 
endorsement of space as a frontier, and it will be the most visible 
aspect of the government's role in the new space partnership I suggest. 
In frank political terms, human exploration of Mars also provides the 
carrot needed to pull NASA's management, human space flight centers, 
the astronaut corps and its cheerleaders away from the Near Frontier.
    If NASA needs public support, it need not fly members of the Senate 
in space. The camera shot from the helmet of the first woman to peer 
down the vast depths of the Valles Marinaris canyon will be enough by 
far.
Defining the Roles is the Key to Mars
    The key to making Mars a real frontier is to understand the 
separate and very different roles the government and the private sector 
must play to make it so. 'These roles are not only differentiated by 
the area or location, but by the activities themselves. Just as on 
Earth we see the government's role in this new field of human activity 
as one of catalyst, cheerleader, guarantor of safety and lawful 
behavior. Right now, and until Earth's governments either begin to 
divest and hand over Near Earth space and we see the development of low 
cost space transportation, there simply is no money to even begin 
talking about large scale plans for Martian exploration, let alone 
settlement. However, if the Nation adopts the Near Frontier/Far 
Frontier model, NASA can release its grip on the Earth-Moon system by 
privatizing and commercializing all operational activities such as the 
station and space transportation systems and move its focus to the 
exploration of the Far Frontier. If structured correctly, government 
could prime the pump for the creation of leading edge technologies to 
aid in that quest, and be a good customer for the private sector to 
provide the bulk of needed services for such a program. If this 
happens, enormous resources would then become available to begin the 
quest, IF the taxpayers can then be persuaded to do so.
    Continuity and economic viability must be designed into any 
exploration program from day one. Remember Lewis and Clark. Just as 
Jefferson's mandate was not just to explore but also to survey the 
Louisiana Purchase, so to on Mars we must explore for both science and 
development. The Reagan appointed 1986 National Commission on Space 
report did recognize the need for permanence to be built in to any Mars 
planning, but it too was based on a massive infrastructure and in-space 
transportation build up, and would not allow any permanent development 
to occur on the Red planet for decades.
    The Space Exploration Initiative presented during the Bush 
administration not only didn't build on the permanence idea presented 
by NCOS, it retreated to the old flags and footsteps approach to space 
exploration. With its unspoken mandate to rationalize then current NASA 
projects such as the space station, it called for the station to be 
used as a port of departure. For their money, the taxpayers would get 
to watch three to six people plant a flag, and once again leave our 
spoor behind in the Martian dust with no plan or promise of anything of 
substance coming from the adventure. Needless to say, it was DOA in 
Congress.
    Even the smallest humans to Mars missions will require a 
substantial investment and to spread out that investment across an 
entire culture is not a bad idea. I believe in democracy, and if the 
taxpayers can be persuaded and the goal remains the first permanent 
human settlements on the Red Planet, we support the concept--as long as 
all aspects of the project utilize commercially provided data and 
support systems to the maximum extent possible. Any agenda that 
includes the Moon and Mars should be designed to create infrastructure 
that will support long term access and transportation to and from those 
worlds, and be carried out in a way that leverages one off of the other 
and all off of the activities of the commercial sector--as well as the 
taxpayer funded specific missions and programs along the way.
The Right to Own New Land in Space
    Finally, for all of these new areas in both the Near Frontier and 
Far Frontier (including the Moon, Mars and the NEOs) to become the 
great sources of wealth and possibility they can be, we need to begin 
putting in place the rights of those who explore and develop such new 
``lands'' in space to own them. Throughout history, it has been the 
ability to gain and hold land which has driven them forth, and given 
them the will to carve new human domains out of wilderness. Space is no 
different. If people are going to invest their wealth and lives in 
opening the frontier, they should have the right to pass what they have 
done down to the next generations. When the time is right, the U.S. 
should stand up and recognize that in space, the same rights to own 
property exist as on Earth.
Earth to LEO
    The primary goal for the Nation in this decade must be achieving 
cheap access to space. Because if you can't get there regularly and 
cheaply to develop, test and manufacture your product you can't make a 
profit. If there is no profit, there will be no frontier.
    Unfortunately, costs about the same today to put a human in space 
on the government shuttle as it did 30 years ago thanks to the 
incestuous, self-preserving and self-feeding institution that our 
shuttle program has become. And according to NASA the new OSP program 
will not help that situation and may make it worse, while costing us 
billions of dollars we need not spend.
    The development of cheap, reliable and regular transportation to 
and from space is THE key requirement for opening the space frontier. 
Once again, there are strong mutual interests between the private and 
public sectors to be satisfied, once again, there is a chance for a 
partnership, and once again there is the chance to create new 
industries and jobs. And unfortunately, once again we are faced with a 
government controlled monopoly--this time operating the only human 
capable space transportation system in the United States.
    It is time for change. NASA and the U.S. Government need to get out 
of the trucking and passenger carrying business as represented by the 
shuttle and OSP programs, and back to supporting exploration and 
scientific progress. NASA and its parasitic contractors must no longer 
be allowed to manage the designing, building and operation of what are 
essentially glorified government space trucks/vans. Can you imagine if 
the government had done the same thing with an airline? It is as if the 
FAA owned our single national air carrier. With no real competition it 
would never get cheaper, better or more efficient . . . and no one 
would be able to afford to fly on it. That's the socialist monopoly we 
have in space flight. It has not improved safety or access and wasted 
billions of tax dollars. And with the announced plans for the Orbital 
Space Plane (or what some call the Orbital Stupid Plane) our Nation 
will be pouring even more billions into a giant step backwards when it 
comes to access to space.
    In contrast to this dinosaurian penchant for repeatedly getting 
stuck in quickly evaporating swamps of old ideas, a new lean, mean set 
of alternative space firms are out there building truly innovative 
systems for carrying paying passengers and payloads on sub-orbital 
flights for what may turn out to be less than a hundred thousand 
dollars a flight. Unencumbered by traditions, bureaucracies and 
structures designed to siphon tax dollars rather than realize profits, 
these firms are where innovations and new ideas can be born and tested 
on the anvil of the market system. But they face enormous challenges on 
the road to success. Often self-funded and working close to the 
economic edge they have waited and watched as our government hasn't 
done the job and are now going to open space their way--if they 
survive. These little mammals are doing their best to dodge the 
smothering feet of government regulations and paranoia and hold out 
hope for a whole new path into space, but they need help to survive. 
And if they are truly to contribute to our national space efforts they 
need the current system changed dramatically to acknowledge them, to 
support rather than hinder them, and to let them in.
Rise of the Alt. Space Firms
    Several years ago in writings and talks I pointed out that I 
thought the new so called ``robber barons'' of space would come from 
the computer world. I saw these people as pre filtered for 
technological savvy, comfortable with new and innovative ideas, 
definitely out of the box thinkers, and raised on the space program, 
science fiction literature, and media such as Star Trek, B-5 and Star 
Wars. Oh, and also--although I was saying this before the dot-com melt 
down--they have lots of money in a culture where they will feel the 
need to do something great and important. In other words they would 
want to give something back. Well, some of them made it through the 
rough times in their own industry, and have done as we hoped, and 
jumped into the space field.
    I call these new players Alternative Space Companies, or to put it 
into techno speak, the Alt.Space movement. They do have the money and 
the dreams, and yes, in their hearts they want to see the human species 
expand into space, of this I am sure. Or as Paypal founder and rocket 
builder Elon Musk said in meeting in his living room recently, our job 
is to ``Back-up the Biosphere.''
    The first shots of this revolution were fired when telecom 
millionaires Walt Anderson and Chirenjeev Kathuria joined with the Jeff 
Manber (former Executive Director of the Space Business Roundtables) 
myself and other Foundationers to go to Moscow and found MirCorp, with 
the goal of transforming the old Russian Mir into the world's first 
commercial space station (which led to Dennis Tito and others flying 
aboard the ISS). Shortly afterwards, the X-Prize was founded. (Which 
directly influenced Rutan to finance and build his spaceship.) These 
activities began to fire up the imaginations of private citizens, who 
had thought themselves shut out of the space game. Within a couple of 
years, several new firms had been founded by those wanting to leverage 
off of the potential for flying what I call ``citizen explorers'' into 
space.
    Within the last few months we have recently seen the first ripples 
that will be caused by the new Alt.Space ``barons'' and their own 
rocketship projects, in the form of Scott Bezos of Amazon.com's Blue 
Horizons, Elon Musk's Space X, and John Carmack (owner of Id Software 
created the hugely popular video games ``Quake'' and ``Doom'') who owns 
Armadillo Aerospace. The recent highly publicized roll out of famed 
aircraft builder Burt Rutan's test vehicle, which was apparently 
financed by a major software firm's founder gave the world its first 
Alt.Space poster child, yet there are also many other firms working in 
this field.
    Serious, business oriented, successful survivors of a tough 
industry, with big dreams and deep pockets these sole source funded 
projects join with other not so new players in the field with funded 
firms like Bob Bigelow (sole owner of Budget Suites of America) whose 
Bigelow Aerospace is building a prototype space hotel, Charlie 
Chaffer's Celestis and Team Encounter whose Solar Sail Project just 
contracted with NASA to collect data on its voyage out of the solar 
system, and Constellation Services Incorporated, whose cargo containers 
promise to reduce cost tore supply ISS at this critical time. Others, 
like Dennis Wingo's SpaceCorp., Walt Anderson's Orbital Recovery, John 
Powell's JP Aerospace, Pioneer Aerospace, and X-Cor Aerospace complete 
a mix that is wide and deep in its potential to profoundly change the 
space transportation habitation and services field.
    These are real firms, and are poised to transform space access and 
operations as we know it--if they get the right breaks, and the support 
of the Nation they call home.
    According to some experts, $1 in market potential offered to the 
private sector will produce $10 in the type of technological and 
operational breakthroughs we might get from the current government -
centric approach we have today. Some put the ratio even higher. If Burt 
Rutan can build a re-usable sub-orbital space ship system for under $40 
million, what can he and the other alternative firms out there do for 
let's say the $10 billion we are about to waste on OSP? (The equivalent 
of 3 or 4 shuttle flights.) Rather than waste that money on yet another 
specific-use dead end program, let's offer that money to the private 
sector to carry humans and cargo to and from space and get $100-200 
billion of innovation and common sense. A few billion dollars a year 
market for separate payload and passenger flights to and from ISS and 
to fulfill other NASA and DOD needs would produce a huge change in our 
Nation's space access capabilities. Imagine, rather than one or two 
inside firms working on cost-plus contracts to fulfill single use needs 
they helped develop in the first place, we could have a dozen space 
delivery and transportation firms. NASA and DOD would no longer fund 
multi-million dollar studies, multi-billion dollar development programs 
or prop up aging technologies, but would simply pay on delivery when 
their payloads were delivered . . . just like the rest of America and 
most of the world does on Earth. These new commercially oriented space 
trains, trucks, buses and taxis would carry not only government 
payloads, but also compete to carry commercial passengers and payloads 
to what could become a rapidly expanding human frontier in space.
    To get there we must make radical changes, not just operationally, 
but most importantly, mentally, and in the structure and management of 
our current system. To that end I offer a ten point plan to tum our 
space agenda around. This plan will assure the maximum science and 
commercial activity in space, while creating an expanding wedge of 
human activities that will lead to a prosperous and growing human 
frontier in space. (It will also save the tax payers a huge chunk of 
change!)

  <bullet> NASA should immediately be ordered to begin planning the 
        retirement of the shuttles, and all human oriented shuttle and 
        Earth to low Earth orbit (LEO) vehicle development offices, 
        centers, programs and studies should be canceled as soon as 
        possible.

  <bullet> Congress should kill such projects as the Orbital Space 
        Plane and its current space capsule program immediately and 
        transfer the $10 billion it was about to waste to a set of new 
        activities to open LEO to the people and new industries that 
        should by right follow our 30 years of Federal exploration of 
        this area. To do this, while also seeding the agency's return 
        to real exploration beyond the Near Frontier, the following 
        things should be implemented ASAP:

  <bullet> The agency should be mandated to begin creating new 
        procedures that will allow it to sign multiple payload and 
        passenger delivery contracts at some date certain in the 
        future, just as it does today when it uses FedEx, UPS or 
        American Airlines to move its valuable cargo and employees 
        around on Earth.

  <bullet> At least $1 billion of former OSP/capsule related funds 
        should be transferred to the Alternative Access to Space 
        program immediately to begin the re-education of agency 
        managers away from exclusionary cost-plus contracting methods 
        and start implementation of commercial LEO freight delivery.

  <bullet> A set of National Space Prizes (NSP) should be created.-To 
        incentivize the development of the vehicles needed to serve the 
        former shuttle/OSP/capsule market and to assure multiple 
        players and real competition down the road, several billion 
        dollars of the saved OSP/capsule/shuttle money should be used 
        to fund four/five prizes for the first teams to fly four people 
        (or relative mass) safely to and from LEO at the lowest 
        demonstrated cost, with the shortest turn around period. 
        (Perhaps funded using a portion of current OSP/capsule 
        development money, as a means of helping.)

  <bullet> To provide an ongoing market for the NSP winners, all 
        Federal entities needing access to LEO should be mandated to 
        use their current multi-billion dollar budgets (such as that 
        about to be wasted on shuttle flights) to buy their rides using 
        roughly the same criteria as the NSP. They must begin creating 
        new procedures that will allow them to sign multiple payload 
        and passenger delivery contracts at some date certain in the 
        future, just as they do when using Fed-Ex, UPS or American 
        Airlines to move valuable cargo and employees around on Earth.

  <bullet> To further assist their new partners in the national space 
        effort, all Federal space transportation regulations should be 
        streamlined to allow the maximum freedom of development for the 
        alternative space firms. This includes giving them the same 
        regulatory over-rides now given to government systems such as 
        government space launches, the space shuttles and the airline 
        industry.

  <bullet> As this space revolution is implemented, near term access to 
        ISS should be purchased from the Russians, using Soyuz, 
        Progress and other very capable vehicles.

  <bullet> NASA and the Department of Defense should implement a series 
        of X programs in cooperation with the private sector based on 
        the old NACA model of enhancing commercial and military 
        capabilities. And this effort must not be allowed to morph into 
        development programs for government vehicles. Potential areas 
        of research might involve thermal protection systems (TPS), and 
        robust (airline-like) engine development projects.

  <bullet> We should mothball or give our very capable Russian friends 
        managerial leadership of the current high inclination space 
        station and use the remaining elements still on the ground to 
        build a lower inclination, more commercially accessible 
        station.

  <bullet> In either case, the ISS management structure on both should 
        be changed to an Airport/Seaport Authority model, not a 
        scientific institute, which will be too narrow in focus, 
        expertise and bias. A Space Station Authority can do a much 
        better job at creating a safe, efficient and productive 
        environment for all users, commercial and scientific. This I 
        SSA will be encouraged to lower station costs in all areas of 
        operations, and not just allow, but encourage access to the 
        station and its airlocks by the widest range of commercial 
        space transporters and suppliers.

  <bullet> All NASA vehicle and habitat development activity should be 
        re-focused from Earth to LEO operations to in space missions 
        aimed at the Far Frontier, such as a permanent Return to the 
        Moon and the long term exploration and opening of the Martian 
        frontier.
Heavy Lift
    If massive heavy lift is needed for such things as supporting a 
permanent human return to the Moon or a humans-to Mars initiative, we 
have two choices. The first is to utilize the existing shuttle 
infrastructure investment in people, hardware and facilities. The 
current external tank and solid rocket stacks could be used as the 
basis of an automated re-usable cargo ship (near term this could easily 
be the existing space shuttles, as they apparently can be flown 
remotely) or grown into a very heavy lift vehicle. If this path is 
chosen, I would encourage the use of the external tanks that it would 
be carrying into orbit as part of any planned orbital infrastructure.
    However, if I am to stay true to the idea that NASA should get 
completely out of the Earth to LEO transportation business-and that our 
goal is to grow a strong space transportation industry for all sorts of 
payloads-my answer in the area of heavy lift is a bit different. As I 
have been educated over time by my peers in the field on this issue, my 
preference has become more pure in relation to this cause. I believe 
the best way to get heavy lift to support a return to the Moon and a 
human mission to Mars is to have NASA stay out of it entirely and buy 
the rides in this area as well. Rather than a massive new NASA vehicle 
development project, the agency and its contractors should instead 
focus on the development and construction of the habitats and 
transportation systems it will need on and between those two worlds, 
and stay out of the Earth to LEO transportation arena entirely.
    There already exists capability in the U.S. Delta class and Russian 
Progress vehicles to loft many tons of payloads to LEO and Lunar orbit. 
Using the new and exciting concept of on-orbit assembly or in-space 
construction that the agency has been allegedly learning by building 
ISS, these components can be assembled into any size needed for either 
project. Although not available on the scale of a potential automated 
shuttle derived cargo vehicle, if one considers the development and 
operational costs of such a brand new system versus the eventual 
freight bill of a competitively bid delivery to space contract using 
modified current day systems or those in development already in the 
private sector, the taxpayers could save millions. Meanwhile, such an 
approach would continue to fuel, rather than compete with the space 
transportation industry.
The time is now.
    It is time for America to step up and face the future.
    Time for the United States to push into a new frontier of 
technology and leadership.
    It is time for the White House and Congress to give the people of 
this Nation a new and positive tomorrow. It is time to show the world 
that America doesn't just drop bombs, but can build dreams.
    Let's be frank. NASA as currently constituted cannot do the things 
I have outlined. It is bloated, self preservation oriented, and is 
spending it's time wasting billions of our tax dollars re-inventing the 
wheel and re-reinventing the wheel and so on. . .without knowing why it 
even needs a wheel, and where it wants to go once it has a vehicle. The 
agency and its encrustation of existing contractors need to be totally 
re-vamped. This can be done by Congress and the White House via 
enacting new policies and changes over time, or by giving the agency a 
tough clear and hard to achieve goal, which may well force the needed 
changes. After all, as Kennedy said ``we don't do these things because 
they are easy, but because they are hard!''
    Some call for the agency to be shut down, and I admit there are 
times I feel the same way. The private sector is already beginning its 
own space program, and the agency, especially its human space flight 
component, may soon be redundant. One former shuttle astronaut pointed 
out recently that the next American to ride into space on an American 
spaceship will be a civilian riding in a private rocket! Think about 
it! The contrast between the Alt. Space firms approach to space and 
NASA's reveals a true split in the genetic line of the evolution of 
human space flight. Those who lead our Nation can ignore this reality, 
try to stomp it to death, or embrace it, nurture it and leverage off of 
it for the greater good and glory of all Americans.
The Frontier is Open and On to Mars!

It is time for dramatic action. . .or the future will pass into the 
hands of others. . .

    The Congress and White House should unite behind a declaration that 
the Near Frontier is open for business, and the Nation is going to 
explore and open the Far Frontier of the Moon and Mars. . .this time to 
stay! No hesitation, no endless timescales, no wimping out for the 
greatest nation on Earth. We must do this hard and fast and do it now, 
and on a very tight and challenging time scale. (Don't tell me we can't 
do it quickly and well, this is the same nation that went from a 
standing start to the Moon in under ten years forty years ago!)
    As President Kennedy recognized in the middle of the darkest days 
of the Cold War, there is no perfect time to do something bold and 
beautiful. Or perhaps, such times as then and now are exactly the right 
time to take a stand for what is great and honorable in humanity. If 
such incredible boldness can be summoned in such a time, then it can be 
summoned now. And we need it now more than ever. America needs a 
shining light. The world needs a shining light. Space can be the place 
where that light can hang for all to see. And now is exactly when such 
choices must be called out by those of vision.
    Within my lifetime I want to be able to cast my eyes upwards and 
see a string of pearls in the night above the Earth as the first 
orbital community of Alpha Town celebrates its first quarter century, 
while glittering lights shimmer at the South Pole of the Moon. . .as 
the first Lunar city celebrates its first decade. And shooting like a 
star across the night, the glow of nuclear motors in the night above, 
as the first regular space liners begin their service to and from Mars. 
. .where a whole new branch of humanity is being born beneath the amber 
skies of a new world they call Home.

    The Chairman. Thank you very much, Mr. Tumlinson. We have a 
vote on and so I'd like to ask very briefly Dr. Huntress, Dr. 
Woods and Mr. Tumlinson, do you agree with Dr. Zubrin's 
assertion that we shouldn't fund the orbital space plane?
    Dr. Huntress. I agree with Bob that we should be going to 
Mars, that we should have an alternate vision of where we're 
going in space, and I think we ought to consider carefully what 
system we use to send our humans to Earth orbit, and they need 
to be low-cost and low-risk and I'm not sure
    The Chairman. Dr. Huntress, should we fund the orbital 
space plane?
    Dr. Huntress. No.
    The Chairman. Dr. Woods?
    Dr. Woods. My expertise is on the safety organization and 
NASA and how to improve that.
    The Chairman. Mr. Tumlinson?
    Mr. Tumlinson. Obviously cancel it right away, get the free 
market in there.
    The Chairman. Dr. Huntress and Dr. Zubrin and Dr. Woods, 
Mr. Tumlinson, very quickly, what's the implications of China's 
launch?
    Dr. Huntress. That we have a new potential international 
partner for the enterprise of going back into space.
    The Chairman. Partner or competitor?
    Dr. Huntress. They can be both. Partners often are 
competitors as well.
    The Chairman. Overall, good or bad?
    Dr. Huntress. Good.
    The Chairman. Dr. Zubrin?
    Dr. Zubrin. I think it's good because we need a kick in the 
butt and it's a message that, you know, the tortoise can catch 
the hare and we better wake up and start moving again. This is 
America's time right now, this is our time on the world stage, 
and we have a chance to do something very historic, shaping 
future human history in terms of leading the settlement of the 
solar system. I think that it should be Americans that do that 
because I think that the former civilization we have should be 
the starting point for humanity as it branches out further into 
space and worlds to Mars, worlds beyond. So I think it's a 
wake-up call. I'm glad we have it but I don't want to lose.
    The Chairman. Mr. Tumlinson?
    Mr. Tumlinson. You're talking to a guy here who's got the 
tank of Tiananmen on his wall at home. I would also ask you how 
many items you have in your office that were made in China that 
began as American projects or American ideas. And then I would 
say I agree with Bob, I want a free enterprise democracy to 
lead our way into space. I told that to China TV just last week 
and the People's Daily and a little confused by that one, but I 
would also say that I think we have a choice here. Do we answer 
their socialist space program with our socialist space program 
or do we answer their socialist space program with the power of 
free enterprise?
    The Chairman. Good point. Dr. Zubrin, just in closing, 
we're going to launch a little vehicle that's going to land on 
one of the poles of Mars and it's going to dig into the ground 
to see if there's water there. Do you believe they're going to 
find it, and number two is, what's the implication?
    Dr. Zubrin. Well, they'll certainly find water on the poles 
of Mars, we know there's water. What they're looking for are 
traces of past life. The implications of whether or not there 
ever was life on Mars are absolutely profound. We know Mars is 
a suspect for life. There's water erosion features all over the 
surface of Mars, and in fact some of these things were created 
by recent outflows that came out of the side of craters and 
things, which means there's liquid water underground on Mars 
now and there was liquid water on the surface of Mars for a 
much longer period of time than it took life to appear on the 
surface of the Earth after there was liquid water here.
    So if the theory is correct that life is a naturally 
emerging phenomenon from chemistry wherever you have an aqueous 
environment and sufficient periods of time, life should have 
appeared on Mars. And if life did appear on the surface of 
Mars, there's a very good chance it's still underground on 
Mars. Now, if we can establish that, if that's true, then it 
means life is a generally phenomenon of the universe. If it's 
not true, it means we're alone. Either way it's of immense 
philosophical importance, it's of much greater scientific 
significance than anything having to do with lunar geology, for 
example
    The Chairman. And this discovery could spark enormous, 
enormous interest, it seems to me, in Mars, yes, no?
    Dr. Zubrin. I think it could, yes, and it should.
    The Chairman. Senator Brownback is going to come back with 
additional questions. I don't know if Senator Nelson will be 
able to or not, but as an amateur, if we can get this out to 
the American people I don't know how many Americans know that 
this project is about to go----
    Senator Nelson. Mr. Chairman, this would be the spark that 
will take us to Mars.
    Dr. Zubrin. Let me just make a comment. Whenever I talk to 
a public audience I'm not talking about space industry people, 
I'm talking about just regular folks that I present to at some 
length with a plan of how we can send humans to Mars, the 
primary question I get from American people is, why aren't we 
doing this? There's a big sense of disappointment almost 
verging on a sense of betrayal. Looking at Washington, they 
say, this is the sort of thing this country ought to be doing, 
this is the sort of thing that NASA ought to be doing, and this 
is the sort of path that our political leadership should lead 
us on.
    The Chairman. Obviously you agree, Mr. Tumlinson.
    Mr. Tumlinson. I agree.
    The Chairman. You agree with Dr. Huntress?
    Mr. Tumlinson. Yes.
    The Chairman. Dr. Woods, from a safety standpoint?
    Dr. Woods. Absolutely.
    The Chairman. We got to go vote and Senator Brownback will 
be back.
    Senator Nelson. Mr. Chairman, you can't do it and I can't 
do it. It's going to take the President of the United States 
making a declaration that that's what the vision of this 
country is.
    The Chairman. I've thought about that on occasion. Wait 
just a minute until Senator Brownback comes back.
    [Recess.]
    Senator Brownback. If we could have the panelists retake 
their seats, I would appreciate that, so that we could have a 
discussion and move forward. Sorry about the vote that took 
place in the middle of the discussion. Thank you all for being 
willing to stay here. I thought, during your presentations and 
quick questioning with the Chairman, this is just too rich of a 
panel to let pass, and so I appreciate your willingness to let 
us go vote so we could come back and can have a discussion.
    Dr. Zubrin, I was very taken by your comments and the way 
you put this forward in a fairly straightforward technological 
manner, that we could go to Mars now. You've put this forward, 
I'm sure, previously. What have the people, either the 
contractors or the people at NASA, said in response to your 
pretty direct, straightforward way of how we could get to Mars?
    Dr. Zubrin. Well, what happened was this. The plan that I 
was describing to you is known as the Mars Direct Plan, and it 
was developed at the Martin Company by a team of engineers, led 
by me--I was at the Martin Company in the early 90s--in 
response to the excessively complex and costly Space 
Exploration Initiative 90-day report that was causing Congress 
to reject the Space Exploration Initiative of 1989-90 time 
frame.
    Senator Brownback. The Mars mission then?
    Dr. Zubrin. The previous President George Bush called for 
humans----
    Senator Brownback. Right.
    Dr. Zubrin. OK. And NASA came up with this incredible 30-
year plan to build giant orbiting space stations to build giant 
orbiting spaceships to get to Mars in 30 years, and the cost 
estimate ran into several hundred billion dollars, and Congress 
said, ``We're outta here.'' OK? So at the Martin Company, a 
number of us engineers convinced management that a alternative 
plan had to be developed that was more practical if there was 
to be any program, and they gave us a green light, and we did, 
and then we went and presented at various NASA centers.
    Now, the plan----
    Senator Brownback. What was the cost of your plan that you 
came up with?
    Dr. Zubrin. The cost estimates at that time ranged in the 
neighborhood of $30 billion for development, and then recurring 
mission costs on the order of $2 to $3 billion after you had 
the hardware set.
    Now, we presented it to NASA originally in 1990, at various 
NASA centers. It became immediately controversial. A lot of 
people in NASA supported it; some opposed it, especially people 
associated with the Space Station Program, who felt we were 
dejustifying their program, because we didn't make use of the 
Space Station.
    However, it got around, and eventually I was invited to 
brief Michael Griffin, who was the associate administrator for 
exploration that came in around 1991 or so, and he became a 
supporter of the plan. He briefed Golden, who became supportive 
in vaguer terms.
    They had me go back to JSC, telling everybody to listen. So 
they listened, and then they came up with their own version of 
the plan, which was somewhat modified. It was expanded. They 
went----
    Senator Brownback. Who came up with this?
    Dr. Zurbin. Johnson Space Center, the human exploration 
team there, which, at that time, was led by people like Mike 
Duke, Dave Weaver, John Connolly.
    Anyway--I could give you some more names--Carl Mandel--
anyway, these folks, they said, ``Look, we like your 
principles. OK? No on-orbit assembly direct launch to Mars, use 
of Martian resources starting on the very first mission, long-
duration stays on Mars starting on the very first mission, 
which helps the plan, it actually lowers propulsion 
requirements to do it that way. OK? But we've got to design it 
ourselves to see that the numbers work.''
    Now, they went, and they designed an expanded version of 
the plan. It had a larger crew. They had a crew of six. I had 
recommended a crew of four. They had bigger vehicles. They had 
more equipment. But it was--and they needed three heavy-lift 
launch permission, instead of my two. So I called their plan 
the Semi-Direct Plan. But, be that as it may, they then went 
and did a cost estimate. And this was the same group that had 
costed out the 90-day report at $400 billion. They costed out 
their expanded version of Mars Direct at $55 billion.
    Senator Brownback. Is that publicly available?
    Dr. Zurbin. You could probably----
    Senator Brownback. That proposal?
    Dr. Zurbin.--you could probably get it. Some of these guys 
are gone. But, for instance, John Connolly, of Johnson Space 
Center, is still there. And they did write up this report. They 
called it a Design Reference Mission. Carl Mandel is no longer 
at JSC, but I think he's at the Governor's office or something, 
in Texas. I'm sure these people can dig up these reports.
    Senator Brownback. But, I mean, did they file a report that 
would be publicly such that I could access that report?
    Dr. Zurbin. I believe there was a report written by the 
Government Printing Office.
    Now, the fact is that by the time they came out with this, 
there was a new Administration which was not favorable to human 
Mars exploration, and it was kind of like, you know, ``Put it 
on the back shelf and don't, you know, make a big deal about 
this, you know, because we're not doing this.'' OK?
    But I think the report's available. I believe the 
Government Printing Office did do a printing of what they 
called their Design Reference Mission, and I think you can get 
it.
    Senator Brownback. Why not go to the Moon again, in testing 
your model and design of what you're talking about, I mean, on 
a much closer-in scale to--or does that model not work?
    Dr. Zurbin. OK. If you do Mars in the way that I have 
recommended, you can use a subset of the hardware to also do 
the Moon. And in that context, it is rational, as a milestone 
exercise within the mission plan, to do a mission to the Moon 
perhaps 6 years into the program, on your way to Mars. Just as 
in Apollo, before we actually landed the astronauts on the 
Moon, we flew the Apollo hardware in Earth orbit and then in 
lunar orbit before we actually committed it to a lunar landing.
    But you don't want to design a separate lunar program. You 
don't want to go to the Moon with the idea of, ``We're going to 
the Moon, and, trust us, this hardware will probably be handy 
when you want to go to Mars.''
    So you design for Mars, and you design the hardware, set in 
a modular way, that a subset of it can also do the Moon. And 
then, in that context, you can do the Moon, and the Moon can be 
done as an ancillary part of the Mars program and even give you 
an early milestone within the program. So I think that's a good 
way to proceed. But you don't want to just make a Moon program 
as a thing in itself.
    Senator Brownback. Dr. Huntress, there's a lot of vision 
capacity in going back to the Moon. There's a great vision 
capacity in going to Mars. I think a number of people 
technologically feel like it's too difficult to go to Mars 
today, or too expensive, given the earlier attempt, or that 
this is a vision that a President previously had tried, and it 
didn't sustain itself. The vision of going to the Moon 
sustained itself amongst the American public, and so woe be to 
a Member of Congress that would vote against monies to go to 
the Moon, when the public was really sold on this concept. 
Could we present that and sell that to the public, to go back 
to the Moon?
    Dr. Huntress. I think it would be more difficult to sell 
going back to the Moon to the public than going to Mars. 
There's going to be a ``been there, done that'' sort of a 
thing, and what are we going to do that's new.
    Senator Brownback. Well----
    Dr. Huntress. You could----
    Senator Brownback.--let me ask you this--answer your own 
question, then. What would we learn, going back to the Moon, 
that's new, that's useful, scientifically?
    Dr. Huntress. There are some scientifically useful things 
that we could learn from the Moon. We can sort through the 
layers of the Moon to learn about the history of asteroid 
fluxes on the Earth. The Moon is a witness plate that preserves 
its record of asteroid impacts. So we could understand the 
impact flux on our planet much better by doing that. We could 
also do something very similar, looking at implanted solar wind 
that would tell us about the history of the Sun and how the Sun 
has helped, or not, to create a habitable planet for us. We can 
learn about the Earth-Moon history, how this twin planet system 
developed. Those are geological kinds of explorations. We could 
use the back side of the Moon for radio telescopes, because 
it's in radio silence on the other side of the Earth.
    So there are good scientific reasons that you--to go back 
to the Moon. But science is not why we send human beings into 
the Solar System. Science benefits. We can do scientific 
exploration. But the reason we send humans instead of robots is 
because of sociological reasons, it's because that's what we 
want to do, because we want humans to explore, and society 
regards our robotic program as a prelude, in fact, to sending 
human beings.
    Senator Brownback. Mr. Tumlinson, I've met with a number of 
individuals that have talked along the lines of what you have, 
that we need to get more of the commercial sector involved in 
this. Matter of fact--and they have talked for various reasons, 
but they have talked about the engine that that is in this 
country, and always has been, of a great engine.
    But one of them was saying, in particular, that our vision 
that we could and should step toward now would be the dominance 
of Earth-Moon orbit, the dominance of this region that the 
Earth and the Moon inhabit, and dominate it for exploration and 
research and sociological. But also for commercial, strategic, 
and military purposes. What do you think of that as a national 
vision, the dominance of Earth-Moon orbit, for those various 
component reasons?
    Mr. Tumlinson. Well, I go back to my near-frontier/far-
frontier model there, and I, frankly, believe that the dominant 
forces between the Earth and the Moon, especially as we get 
close to LEO, should now become more and more the private-
sector domination of that area. Were seeing lots of uses that 
are occurring. We're seeing the development of these 
transportation system, these suborbital, what some people call, 
space tourism vehicles, those types of things, into that area.
    I think when we start looking at the expansion of our 
society, literally the expansion up into LEO and beyond, what 
we have to do is, again, look at our terrestrial model and the 
role that our government plays here on Earth. What I would like 
to see up there is, the government's role would be the tax 
incentives. You'll have a military role, because I, frankly, 
don't see the United States military letting a lot of people do 
a lot of activities in space unless they can bring them down at 
their--whenever they want to, frankly. I think that we would 
see a Coast Guard function provided by the government out 
there, and those types of activities.
    But I also see this in partnership with that high goal of, 
shall we say, going to Mars. The going to Mars is like the 
fancy Crysler sports car that draws you into the dealership, 
and there you end up buying the smaller vehicle for yourself. 
In other words, people----
    Senator Brownback. You think we'd get it thrown in for--
that this is part of the project of going to Mars, is going to 
the Moon.
    Mr. Tumlinson. Well, I think it's a duality, and I think 
the costs of going to Mars could be lowered by bringing in the 
private sector to handle that Earth-to-LEO function. You know, 
in the old days, up until now, NASA astronauts began their 
missions on the Earth, and that's where they began. I believe 
now that NASA begins its mission in LEO, and that from LEO down 
we can begin handing that off to the private sector. And, you 
know, rather than driving their cars to the space ports, they 
can take private-sector transportation to LEO.
    Senator Brownback. How many companies, credible companies--
credible, the key word--could jump in if we said today, ``We 
want to contract with a credible company to take this 
exploration device to the moon and set it there?''
    Mr. Tumlinson. It depends on how big a device you're 
talking about, and it depends on the price to put it there. I 
was a founder of a company called Lunar Corp. We were looking 
at lunar rovers that we were going to try and put on the Moon. 
Commercially, the Moon is at the edge of what I call ``the 
giggle factor.'' That's where you start getting laughed out of 
the room when you're talking to investors, but it's right on 
the edge. And companies, like Radio Shack and others, actually 
seriously looked at lunar activities.
    I think lunar orbiting activities could be contracted out 
to--there are a lot of--several small companies that could take 
a shot at that. And those types of----
    Senator Brownback. What sort of price range would we be 
talking about if we want to contract you to put something in 
orbit around the moon?
    Mr. Tumlinson. I would hesitate to guess on that one. I 
think that it's much lower than a NASA-owned and operated 
system, and you could competitively bid that, or you could also 
combine that with prizes, sets of prizes for showing that you 
could land something on the Moon.
    Senator Brownback. Like the Lindberg----
    Mr. Tumlinson. Lindberg Prize, exactly.
    Senator Brownback.--Prize of----
    Mr. Tumlinson. There are models out there now of prizes 
inspiring people, and starting a lot of people up.
    But I do want to point out that there are at least a half 
dozen companies right now looking at carrying paying passengers 
to low-Earth orbit, and they are funded, real companies.
    Senator Brownback. I had a hearing of private commercial 
companies doing this with a couple of the entrepreneurs here 
testifying that, yes, they are, and they've got real dollars, 
and they're looking at the old Earth--or the old barnstorming 
model, as you somewhat point out, is that we started commercial 
aviation barnstorming, just a guy going up and coming into town 
and saying, ``I'll give you a ride in the airplane for five 
bucks,'' and that kind of started the commercial industry. And 
they're saying, ``We think that space can go some of the same 
way.''
    Mr. Tumlinson. Now, I can tell you, too, sir, that, in 
their hearts, their end result, their end goal, is very much 
like Bob's and I, which is human settlement. These are people 
who grew up in the 1960s and 1970s watching Apollo, Star Trek 
and Star Wars. They made their money on the dot-coms, survived 
the meltdown, and now they're out there wanting to do something 
big and give back to civilization, and this is the entry level, 
sort of, market that they can see as a way of participating. 
But, again, it's a dual thing. The big goal, and then the 
operational activities.
    Senator Brownback. Dr. Zubrin, in your testimony you were 
very passionate, but also were mad. You're mad we haven't done 
this, or that this vision has been stolen from a generation?
    Dr. Zubrin. I guess you could say that. You know, I was 17 
when we landed on the moon, and if you had told me then that, 
you know, 34 years later, humans would not be doing anything 
beyond low-Earth orbit, that we wouldn't be established on the 
Moon, that we wouldn't have already gone to Mars--you know, 
NASA's plans in 1969 were for humans to Mars by 1981.
    Senator Brownback. Is that right?
    Dr. Zubrin. Yes, take a look at the report of the Space 
Task Group that was done for the Nixon Administration in 1969. 
It's humans to Mars by 1981. And they could have, if they had 
been allowed to continue. We had a----
    Senator Brownback. Why weren't they allowed to continue 
then?
    Dr. Zubrin. The Nixon Administration turned their back on 
the whole Apollo vision. It was not invented here. It's like 
Columbus coming back from the New World and Ferdinand and 
Isabella saying, ``Aw, so what? Forget it. Burn the ships.'' 
OK? You know, that's what has happened in this country. And we 
should have been on Mars by 1981. We should have had a Mars 
base by the early 1990s. The first children born on Mars should 
be entering school right about now.
    Senator Brownback. And you have no question that 
technologically we've got the capacity--we had the capacity 
then, and we clearly have it now, to do this.
    Dr. Zurbin. Yes. OK? Now, there's various pieces of 
hardware that need to be developed, and it can be developed. I 
mean, you know, it's--we're not talking here about Los Alamos 
1943, where we're going a scientific adventure into unknown 
realms of physics and we have no idea of what we're about to 
encounter. We understand how to do space engineering. This is a 
question of brass tacks engineering. Got to do it right, it's a 
lot of hard work, OK, but we can do it. And, you know, I also--
I might say that I believe that this is doable within roughly 
the existing NASA budget. You're going to have to re-prioritize 
that budget, OK, within the context of an overall plan that 
guides expenditures to be spent on the hardware elements to 
implement your plan. OK? But that's what you can do. OK? You 
know, we spent, what, four billion, five billion a year on the 
Shuttle flights back to Earth orbit, up and down?
    Senator Brownback. Yes.
    Dr. Zurbin. OK, you could build a lot of hardware for that. 
And, indeed, within 10 years, you could build the hardware 
required to be flying humans to the Moon, and Mars and the 
near-Earth asteroids, with a common set of hardware.
    Senator Brownback. Are we learning much with the 
International Space Station?
    Dr. Zurbin. We're learning some things, but in a lot of 
cases we're solving the wrong problems. And, once again, this 
is a product of the constituency-driven mode of operation that 
we have.
    The right way to go to Mars is with artificial gravity. 
Artificial gravity will get rid of all these loss of bone and 
musculature and all these problems that you have with zero 
gravity, because the human organism evolved in gravity and 
we're not adapted to this. However, because the NASA space 
research community is heavily dominated by zero-gravity health 
researchers. NASA has not even funded, in its entire history, a 
single artificial gravity mini satellite with mice in it or 
something, which would be an easy thing to do, and it costs, 
you know, $30 million or something. Who knows. Nothing.
    So we're doing extended research on the effects of zero 
gravity, which is not the right way to go to Mars. Any space 
mission, and certainly Space Station missions included, you get 
some experience, there's a learning process, you're learning 
how to do things, you get some lessons. But if somebody was to 
say, ``OK, look, here's $40 billion. Do humans to Mars,'' 
within the context of that program I would not be taking this 
amount of money and spending it on a space station and space-
station operations for several decades. I might do something 
like take half module, launch it in low-Earth orbit, shake it 
down there, test it out, and get some experience with it in 
low-Earth orbit as part of my program. But the idea of making 
Earth orbital operation the centerpiece of the American, and 
virtually the world space program, at this point, for several 
decades, I think, is wrong.
    In Apollo, we knew where we were going. We went to the 
Moon. Now, there were some things to be done in Earth orbit, so 
we built a Sky Lab, and, as an afterthought, with the Saturn 5, 
we launched the Space Station in the afternoon, and we did that 
as long as it was interesting to us, which was three missions, 
about over a year or a little more. I think, you know, it would 
have been worth saving Sky Lab, and there's more--there's 
things you can learn in low-Earth orbit.
    But I think it is--I mean, imagine if Prince Henry, the 
navigator, the guy who initiative the European age of 
exploration, going to do maritime exploration. Instead of 
sending ships down the coast of Africa, you know, further and 
further and further, he devoted his program to sending ships a 
hundred miles out to sea and have them sit there and watch the 
health effects on the sailors. That is the space program that 
we have now, watching the health effects on the sailors. The 
purpose of spaceships is to actually travel across space and go 
to new worlds, not to hang out in space and observe the health 
effects of doing so. And that's what we're doing wrong.
    Senator Brownback. Well, it struck me when you described 
the period of Apollo and then the period afterwards, that is 
exactly the case we're without a vision. And instead of us 
driving it, as policymakers, and setting vision, we're kind of, 
``Well, OK, what do you want,'' and looking at it, ``Let me 
think about it. Well, we'll give you $10 billion instead of $12 
billion,'' and that's been the extent of the--not completely. I 
mean, that's very oversimplified, but that's been somewhat of 
the discussion for the last decade or so.
    Dr. Zubrin. Yes. And----
    Senator Brownback. I mean, and it does rob a society of 
vision. And I've looked and studied some in past societies. 
When you take that vision that really pushes them out 
sociologically, mentally, their soul, pushes it out there, when 
you take that away, and you pull it back in, it has a 
detrimental effect on the society, on the whole of society. It 
has a detrimental effect on the culture.
    Conversely, you put an aggressive mission out there that 
this is going to stretch us and this is going to challenge us, 
and the people that are doing this, that are going to go on 
this Mars mission, are virtuous heroes, that stretches us to 
say. I think that's why China went into space, to stretch the 
society, as much, if not more, than anything else. And we've 
got to constantly stretch. But I don't feel like we've got a 
vision right now that stretches this much.
    Dr. Zurbin. Yes, it has a tremendously positive effect on 
all levels of society, most notable among the youth. During the 
1960s, the number of science graduates in this country doubled 
at every level--high school, college, Ph.D. And, people asked 
what's the payback? What did we get paid back from Apollo? 
Teflon? Who cares? What we got paid back for were millions of 
scientists, engineers, doctors, medical researchers, inventors. 
OK? Who are the people who created the economic boom of the 
1990s, these 40-year-old techno- billionaires who built Silicon 
Valley? These are the 12-year-olds of the 1960s, paying back 
huge, big time, to the economy, to national defense, advancing 
the human condition, medical cures. The intellectual capital is 
the wealth of the nation, and the way you get that is by 
inspiring people with a, you know, a vision of something they 
can do with their lives by developing their lives. And this 
would be tremendously valuable to the country if we were to do 
this.
    Senator Brownback. Gentlemen, thank you very much. I don't 
know if anybody else had a final thought that they wanted to 
put forward, but I did want to come back, and I would like to 
see the book----
    Dr. Zurbin. OK.
    Senator Brownback.--Dr. Zurbin.
    Mr. Tumlinson. I just wanted to concur with Bob on this. 
And, a lot of the hearing had to do with the safety issues. 
We've got an exploration agency that's totally consumed by 
safety. If you pay attention to the pop cultures that's out 
there, the modern youth are actually consumed about taking 
risks. They're out there doing X sports. They're doing all 
kinds of crazy things to take risks. And I think that that's a 
call inside. Because when you take a risk, you find out who you 
really are, and that needs to be exemplified in this sort of 
mission and these other sorts of activities.
    So I think it's a very great idea that we could get onto 
this sort of thing. But, again, as a partnership.
    Senator Brownback. Dr. Huntress, did you want to comment?
    Dr. Huntress. Just a parting comment, that I really do 
believe that sooner or later we have to have a clear 
destination for human spaceflight or it simply won't survive, 
and America will be much poorer for it. I'm a Sputnik kid. I 
could tell you the exact same stories that Bob just told you 
about what happened to our generation and the explosion of 
scientists and engineers that came out of that generation 
because of the inspiration that we had there.
    The country needs the challenge of grander exploration, 
simply, to justify the risk, kind of lift our sights, fuel 
human dreams, advance human discovery and knowledge. But to do 
that, we need to go somewhere.
    Senator Brownback. Well, I've learned, in my time in public 
life, that a big part of my job is inspiring, probably the 
biggest part of it. And you can speak to the body, or you can 
speak to the soul, and the body generally likes safer confines, 
and the soul likes to be yearned forward and pushed, and it's a 
far more powerful thing, the soul, than the body.
    Thank you. You've been very instructional and educational. 
I appreciate it greatly.
    The hearing's adjourned.
    [Whereupon, at 11:50, the hearing was adjourned.]

                                  [all]
</pre></body></html>
